<html>
<title> - TEACHER PREPARATION: ENSURING A QUALITY TEACHER IN EVERY CLASSROOM</title>
<body><pre>[Senate Hearing 113-828]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-828

   TEACHER PREPARATION: ENSURING A QUALITY TEACHER IN EVERY CLASSROOM

=======================================================================

                                 HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

          EXAMINING TEACHER PREPARATION, FOCUSING ON ENSURING 
                  A QUALITY TEACHER IN EVERY CLASSROOM

                               __________

                             MARCH 25, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                         U.S. GOVERNMENT PUBLISHING OFFICE
22-606 PDF                       WASHINGTON : 2016                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd9a8d92bd9e888e899598918dd39e9290d3">[email&#160;protected]</a>  





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland		LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington		MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont		RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania	JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina		RAND PAUL, Kentucky
AL FRANKEN, Minnesota			ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado		PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island	LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin		MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut	TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts                                  

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, MARCH 25, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    48
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    50
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    51
Murphy, Hon. Christopher S., a U.S. Senator from the State of 
  Connecticut....................................................    54

                               Witnesses

Crowe, Edward, Senior Advisor of the Woodrow Wilson National 
  Fellowship Foundation, Princeton, NJ...........................     5
    Prepared statement...........................................     6
Brabeck, Mary, Ph.D., Gale and Ira Drukier Dean and Professor of 
  Applied Psychology, New York University, New York, NY..........    12
    Prepared statement...........................................    14
Koerner, Mari, Ph.D., Professor and Dean of the Mary Lou Fulton 
  Teachers College, Arizona State University, Tempe, AZ..........    19
    Prepared statement...........................................    21
Daly, Timothy, President of the New Teacher Project, Brooklyn, NY    31
    Prepared statement...........................................    34
Burns, Jeanne M., Ph.D., Associate Commissioner of Teacher and 
  Leadership Initiatives, Louisiana Board of Regents, Baton 
  Rouge, LA......................................................    38
    Prepared statement...........................................    40

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Chris Stephenson, Executive Director, Computer Science 
      Teachers Association (CSTA)................................    62
    Letter from Edward Crowe.....................................    63
    Response by Edward Crowe to questions of:
        Senator Murray...........................................    67
        Senator Bennet...........................................    67
        Senator Warren...........................................    68
    Response by Mari Koerner, Ph.D. to questins of:
        Senator Harkin...........................................    69
        Senator Bennet...........................................    69
        Senator Warren...........................................    73
    Response by Timothy Daly to questions of:
        Senator Bennet...........................................    74
        Senator Murray...........................................    75
        Senator Warren...........................................    76

                                 (iii)

  

 
   TEACHER PREPARATION: ENSURING A QUALITY TEACHER IN EVERY CLASSROOM

                              ----------                              


                        TUESDAY, MARCH 25, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Bennet, Murphy, Warren, 
Alexander, and Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order. This is the seventh in 
a series of hearings to inform this committee's reauthorization 
of the Higher Education Act. The focus of today's hearing, 
teacher preparation, is profoundly important for all students, 
from the very youngest to our adult students.
    Study after study shows that teacher quality is the 
decisive in-school factor in boosting student achievement. 
Today, we have too few students who have access to highly 
effective teachers, teachers who can help ensure that our low-
income students get the high-quality education that their 
higher income peers get.
    Just last week, the U.S. Department of Education's Office 
for Civil Rights released data showing that students of color 
are much more likely to attend schools where teachers have not 
met all State licensing requirements. In order to achieve 
greater equity in our schools, we must ensure that every 
student has access to highly effective teachers.
    The Higher Education Act plays a critical role in teacher 
training by providing funding to institutions of higher 
education, in partnership with K-12 districts, to reform and 
strengthen their teacher prep programs. This is a relatively 
small Federal program. But I hope we will hear today how it can 
be best leveraged to bring about systemic change in our teacher 
prep programs.
    The Higher Education Act requires all institutions of 
higher education, as well as States, to report certain 
information about their teacher preparation programs. I hope we 
can hear about how the existing reporting requirements can be 
streamlined and revised to be less burdensome, more focused on 
outcomes, and more helpful to teacher preparation programs.
    Another area of concern that we hear about is the lack of 
communication in many places between institutions of higher 
education and the K-12 school districts that they serve. 
Institutions of higher education do not necessarily understand 
the realities teachers will face in the classroom, and K-12 
districts may not be effectively communicating their needs to 
the institutions that train their teachers.
    In certain areas of the country, we also hear about 
institutions of higher education preparing too many elementary 
teachers to the exclusion of teachers in shortage areas, 
including special education teachers, English language learner 
teachers, early childhood specialists, and STEM teachers.
    In Part D of the Individuals with Disabilities Education 
Act, the Federal Government dedicates funds for the preparation 
of special education teachers, early interventionists, related 
services personnel, and leaders in the field. We should 
continue to ensure that both of these funds are available and 
that they are resulting in effective special education 
teachers.
    Finally, the HEA requires States to designate teacher 
preparation programs as low performing, when appropriate, and 
to provide certain interventions for those programs. However, 
as of 2013, 24 States, as well as the District of Columbia, 
have never identified even a single low performing program.
    One might be inclined to read this and think that our 
teacher prep programs are doing a great job. Unfortunately, in 
many cases, teachers report feeling unprepared for the 
realities of the classroom, and school principals and 
administrators report that many new teachers are not ready to 
teach. Now is the time to take stock of where our teacher 
preparation programs are doing a good job, where they are 
coming up short, and how we can support efforts to strengthen 
these programs.
    With that, I invite Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman. I welcome our 
witnesses, and I look forward to this.
    I want to congratulate Senator Harkin and his staff and our 
staff for coming up with some terrific hearing subjects and 
witnesses. And lest you think we're not listening, at some of 
our previous hearings, we've listened very carefully and are 
busy working together, as we often do in this committee across 
party lines, to try to take your advice, because what we found 
is that this is the eighth, I think, reauthorization of the 
Higher Education Act, and over time, things just stack up.
    I'll be especially looking forward to your suggestions 
about what we would do if we were starting from scratch. We 
might not be able to do that as a practical way in this case, 
but on the other hand, sometimes that is a better way to do it. 
What would our objectives be? This isn't really an ideological 
subject in that sense. It's just a matter of good management 
and weeding the garden before we go ahead. So I thank the 
chairman for this.
    I always like the statement attributed to Professor Coleman 
of the University of Chicago that schools are for the purpose 
of doing what parents don't do as well, which leaves lots of 
room for different kinds of schools, because we have many 
different kinds of home settings for children. All of us would 
like to find a better parents law if we could think of one, but 
I've never figured one out except to give lower income parents 
more of the same choices of schools that wealthier parents 
have.
    But the country, over the last 30 years, has focused on the 
obvious, which is, after the parent, the teacher is the most 
important person in the child's life, and what can we do to 
create an environment in which the best teachers can succeed. 
Thirty years ago, I was a young Governor of Tennessee, trying 
to help our State become the first State to pay teachers more 
for teaching well, and that meant trying to define well, which 
seems obvious until you start trying to do it.
    But I figured the obvious ones to help me understand that, 
so we could literally pay teachers more for their excellence, 
were the colleges of education. Yet when I went to the colleges 
of education, they said, ``Oh, you can't do that. It's not 
possible to tell the difference between a teacher who teaches 
better than others.''
    And I said,

          ``That's ridiculous, because you do it in your own 
        college, or you allegedly do it, and certainly the 
        universities do it. And I'm not saying it's easy, but 
        surely colleges of education can provide suggestions 
        about how to identify in a fair way excellence in 
        teaching. You should surely be able to do that better 
        than a bunch of politicians who are here for a 
        temporary period of time.''

    But in the end, we had to do it ourselves.
    We got advice from a lot of teachers, and, eventually, 
10,000 teachers voluntarily went up a career ladder and were 
paid more. But that was just one dissatisfaction I had with the 
colleges of education at the time.
    And at about that same time, there were other criticisms 
about colleges not being selective enough, providing minimal 
classroom experience, not enough core content learning as 
teachers were prepared. And as a result, we've seen a variety 
of efforts to try to address that.
    One is the alternative certification programs, which I'm 
sure we'll hear about today--as many as 40 percent of new 
hires--as many States moved ahead to give other people new 
routes to go into teaching. The accountability standards that 
virtually every State has adopted made a difference.
    The teacher evaluation efforts have not been as successful 
as I would have hoped. But where they were, colleges of 
education have cooperated now in helping States identify fair 
ways to reward outstanding teaching. And professional 
development, which used to be a huge waste of time, and may 
still be in many places, has gotten some real scrutiny.
    I welcome this discussion today and look forward to the 
various proposals. I want to acknowledge that the Council for 
Accreditation of Educator Preparation, CAEP, has new 
accrediting standards over the last few years. I'd like to know 
what you think of those. I appreciate the role that the Dean of 
Vanderbilt's Peabody School has played in this whole area.
    I like the fact that our State, through Democratic and 
Republican Governors in Tennessee, has continued to address 
this subject and is even evaluating graduates of our teacher 
preparation programs for 4 or 5 years after they get out to see 
whether their students are achieving what needs to be done. And 
as Senator Harkin said, I would especially like to review the 
requirements we impose from Washington on teacher colleges 
today and make sure they're current and that they're useful and 
that they just haven't stacked up over the last 30 or 40 years.
    When we took a look at the application for Federal 
financial aid for grants and loans, we found a lot of 
unnecessary questions and answers that we can probably 
eliminate and save a lot of time and money that can be used to 
help educate students.
    I hope you'll identify as specifically as possible what 
your recommendations for us are for the reauthorization of the 
Higher Education Act, what the Federal Government can do to 
create a better environment for teacher colleges, and what we 
should not be doing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    We have a distinguished panel today, and I will introduce 
all of you right now, and then we'll start from my left and go 
to the right for your statements. I'll just say at the outset 
that all of your statements, which I've read over, will be made 
a part of the record in their entirety, and I'll ask you to sum 
it up in 5 minutes or so. We'll just go through, and then we'll 
open it up for discussion.
    First, we have Dr. Edward Crowe, a consultant on teacher 
quality and K through 16 policy issues for several 
organizations. Dr. Crowe was the first director of the title II 
Teacher Quality Enhancement Program for the U.S. Department of 
Education and has extensive knowledge of the title II program. 
He is currently a Senior Advisor for the Woodrow Wilson 
National Fellowship Foundation and has served as a consultant 
to the Academy for Educational Development and the Carnegie 
Corporation of New York on the Teachers for a New Era program.
    Dr. Mary Brabeck is a professor of applied psychology at 
New York University. She is currently the elected chair of the 
board of directors of the Council on Accreditation of Educator 
Preparation--that's CAEP, as Senator Alexander mentioned--and 
will speak to CAEP accreditation issues.
    Next is Dr. Mari Koerner, who serves as Professor and Dean 
of the Mary Lou Fulton Teachers College at Arizona State 
University. ASU currently has one of the largest title II 
grants in the Nation, and Dean Koerner will speak to ASU's 
grant implementation.
    ASU's education graduate programs have been ranked among 
the best by U.S. News and World Report for 12 consecutive 
years. Dr. Koerner serves on the Advisory Board for Teach for 
America, the Advisory Council for Rodel Charitable Foundation, 
and on the board of directors for Arizona Business and 
Education Coalition.
    And then we have Mr. Daly. Mr. Tim Daly is the president of 
The New Teacher Project and will speak to alternative 
certification issues. Under Tim's tenure as president, TNTP has 
become a leading source of innovative research and a respected 
independent voice on teacher quality issues.
    Last, we have Dr. Jeanne Burns, currently the Associate 
Commissioner of Teacher Education Initiatives for the Louisiana 
Office of the Governor and the Board of Regents and will speak 
to Louisiana's teacher prep program reforms. She is also co-
director of the Blue Ribbon Commission for Educational 
Excellence. She served as principal investigator for a $3.2 
million Title II Teacher Quality State Enhancement Grant 
awarded to the Office of the Governor in 2000-2005 which 
supported the redesign of all teacher prep programs in 
Louisiana.
    Again, welcome. You're all very distinguished. Thank you 
for being here and for your input into this process.
    We'll start with Dr. Crowe. If you could just sum up your 
statement in about 5 minutes or so, then we'll just kind of 
move down the line.

STATEMENT OF EDWARD CROWE, SENIOR ADVISOR OF THE WOODROW WILSON 
         NATIONAL FELLOWSHIP FOUNDATION, PRINCETON, NJ

    Mr. Crowe. Thank you, Senator Harkin, Senator Alexander, 
and members of the committee, for the opportunity to 
participate in this hearing. My name is Ed Crowe.
    My remarks today will address the current preparation 
program accountability standards and reporting under title II; 
how the Teacher Quality Partnership grants program contributes 
to progress and program improvement; and ways to improve title 
II of the HEA that can help States, institutions of higher 
education, and other stakeholders to strengthen the quality of 
teacher preparation in the United States. I also will suggest 
ways of reducing the reporting burden that title II now 
imposes.
    So I think a good place to start this conversation is with 
K-12 student achievement in the country. According to the 
latest NAEP results, two-thirds of our fourth graders are not 
proficient in reading, 58 percent of those fourth graders are 
not proficient in mathematics, and 64 percent of U.S. eighth 
graders are not proficient in either math or reading, according 
to NAEP.
    Despite those student learning outcomes, the latest 
national title II report card shows that 99 percent of all 
teacher candidates in the country pass all of their teacher 
tests, 98 percent of them pass all of their professional 
knowledge tests, and 96 percent pass all of their academic 
content tests. This disconnect, I think, between the 
performance of our young people in core subject areas and the 
performance of their teachers on tests required for licensure 
is one of the basic failures of the current title II 
accountability requirements for teacher education.
    Another problem with the current HEA reporting and 
accountability system, as the chairman noted, is that few 
States make any effort to flag and report weak programs as low 
performing or at risk of becoming low performing. For the most 
recent reporting year, 39 States did not classify even one 
program as low performing. In fact, the majority of States have 
never found a program to be either low performing or at risk, 
again, despite the K-12 student performance issues I mentioned 
earlier.
    For those States that do take this step, only 38 programs 
in the country were flagged as low performing in 2011. That 
represents 1.8 percent of the 2,100 teacher education programs 
across the country.
    So if programs that prepare our teachers are not held 
accountable in a meaningful way for the inability of their 
graduates to teach students to do mathematics and learn to 
read, it's hard to see how the country can help these students 
to become productive and successful members of society. Title 
II of the HEA can help us address these challenges by reducing 
the current reporting burden on programs in States so that we 
focus on essential pieces of data that will help programs to 
improve and help States to monitor program quality more 
effectively.
    What's collected now is not providing useful information. 
It's also burdensome to institutions and to States, few of 
which do anything with the information except report what 
they're required to report under the current statute.
    A better title II reporting system would concentrate on a 
relative handful of key items telling us how all programs are 
doing at producing new teachers with the knowledge and skills 
to address our daunting achievement challenges. A small number 
of core indicators would also be useful information for the 
rest of us, for the public, for the programs, and for the 
States. Limited and targeted reporting is much more likely to 
foster program improvement and help the States deal with weak 
providers.
    States are currently required to determine whether programs 
under their jurisdiction are low performing or at risk of low 
performance. As I noted, most States have never done that. 
Fewer than 2 percent of programs ever receive this designation. 
A big step toward improvement is that States should use a small 
number of transparent and important program quality measures to 
decide whether preparation programs under their jurisdiction 
are at risk or low performing.
    And because so many new teachers are trained in one State 
but employed as teachers in a different State--19 percent of 
all new teachers in the country--it makes sense for every State 
to use the same set of measures for preparation program 
oversight so that schools and students, no matter where they 
are, will have equal access to the best new teachers that our 
country can give them. We already do this in nursing, 
engineering, medicine, and other fields, where States have 
joined together in a voluntary way to oversee those 
professions.
    Finally, members of the committee, if I can leave you with 
one thought as you work on this reauthorization, please help us 
through HEA to expect more from preparation programs and from 
States so our children can learn and grow to their full 
potential.
    Thank you so much.
    [The prepared statement of Mr. Crowe follows:]
                   Prepared Statement of Edward Crowe
                                summary
    Thank you Senator Harkin, Senator Alexander, and members of the 
committee for the opportunity to participate in this hearing.
    My name is Edward Crowe and my remarks today will address: (1) 
current preparation program accountability standards and reporting 
under Title II of the HEA, (2) how the Teacher Quality Partnership 
grants program contributes to program improvement across the country, 
and (3) ways to improve Title II of the HEA that can help States, 
institutions of higher education, and other stakeholders to strengthen 
the quality of teacher preparation in the United States. My comments 
will also suggest how to reduce the reporting burden of title II.
    student achievement, program quality, and program accountability
    Two-thirds of all fourth graders in the United States are not 
proficient in reading. In mathematics, 58 percent of all U.S. fourth 
graders are not proficient according to the same 2013 test results from 
the National Assessment of Educational Progress (NAEP).
    For eighth-grade students, 64 percent were not proficient in 
reading. The same proportion of our eighth graders was not proficient 
in mathematics.
    Despite these student learning outcomes, the latest title II report 
card indicates that 99 percent of all teacher candidates in the country 
passed their basic skills tests; 98 percent passed all of their 
professional knowledge tests; and 96 percent passed their academic 
content tests.
    This disconnect between the performance of our young people in core 
subject areas and the performance of their teachers on tests required 
for licensure and certification is one of the basic failures of the 
current title II accountability requirements for teacher preparation 
programs.
    Another problem with the current Title II HEA reporting and 
accountability system is that few States make any effort to flag and 
report weak programs as low performing.
    For the most recent reporting year, 39 States did not classify even 
one teacher preparation program as low performing or at risk of low 
performance. In fact, 35 States have never found a program to be low 
performing or at risk, despite the K-12 student performance issues 
shown in the tables above. For those who do, 38 programs were cited as 
low performing or at risk in 2011. This represents 1.8 percent of the 
2,124 preparation programs in the country.
    If programs that prepare our Nation's teachers are not held 
accountable in a meaningful way for the inability of their graduates to 
teach K-12 students to do mathematics and learn to read, it is hard to 
see how the country can help these students to become productive and 
successful members of our society.
                   teacher quality partnership grants
    In recent years, the Teacher Quality Partnership (TQP) program 
funded two rounds of awards. In fiscal year 2009, 28 grants were made 
for a total of $43 million. In fiscal year 2010, the U.S. Department of 
Education awarded 12 grants totaling $100 million. The statutory focus 
areas for these grants include: improving student achievement, 
improvements to the quality of prospective and new teachers by 
strengthening both teacher preparation and professional development; 
holding preparation programs accountable for training high quality 
teachers; and recruiting highly qualified prospective teachers into the 
profession.
    These awards have been made to universities, to a State department 
of education, to a national STEM teaching initiative, and to three 
school districts. Many of the projects have multiple university and 
local LEA partners. Almost half of the TQP grants support ``residency'' 
programs that place teacher candidates in extended learning experiences 
in school settings for as long as a full year.
    Through the work of these 40 grantees and their local partners, the 
TQP program is being used for teacher preparation program changes. 
University faculty and others involved in these 40 TQP grants are 
making good faith efforts to improve the preparation and support of 
teacher candidates who enroll in their programs.
    However, it is hard to see much impact on teacher preparation in 
the United States from the program itself or from these individual 
efforts. There are two main reasons for this limited impact:

    <bullet> The wide range of TQP objectives and implementation 
strategies dilutes the overall ability of the grant program to foster 
promising strategies and test their effectiveness in multiple settings.
    <bullet> There is no common evaluation framework for the non-
residency grant projects, a reflection of how different they are from 
one another.

    Both problems could be remedied by a competitive program that 
targets funding for teacher preparation program redesigns that address 
a small number of topics, support grantees in several locations who do 
the same kind of work (e.g., like multi-site trials), and evaluate the 
projects using the same set of measures.
a resource to strengthen preparation program quality and accountability
    A good starting point to improve the impact of title II on program 
quality and accountability is to reduce the reporting burden on States 
and programs imposed by the existing statute and regulations. Too many 
current reporting elements are not central to understanding the 
preparation, production, and performance of strong teachers. Too little 
attention is given to reporting information about key program outputs 
and outcomes that affect the learning performance of K-12 students.
    Collecting purely descriptive information gives States, program 
leaders, and the public few analytical tools to understand program 
impact on the production and classroom success of well-prepared new 
teachers. Title II reporting should focus on a small set of key items:

    <bullet> The academic strength of admitted students.
    <bullet> Their demographic characteristics.
    <bullet> Their preparation in high need subject areas.
    <bullet> Whether they teach in high need schools and subjects.
    <bullet> Whether they stay in teaching.
    <bullet> The impact graduates have on student learning.
    <bullet> Assessments of their classroom teaching skills.
    <bullet> And feedback about their programs from the graduates and 
their employers.

    While reporting some of this information may be a heavy lift for 
some programs without external support in data collection and analysis, 
numerous recent efforts at State and other levels provide important 
resources for programs and States. In addition, Section 208 of the 
Higher Education Opportunity Act (HEOA), passed by the Congress in 
2008, authorized State agencies to share ``any and all pertinent 
education-related information'' with teacher preparation programs that 
``may enable the teacher preparation program to evaluate the 
effectiveness of the program's graduates or the program itself.''
  incentives for states to use the same indicators and accountability 
                                 tools
    Engineering, accountancy, nursing, and medicine are among the 
professions that have uniform State accountability standards for 
programs and graduates. In each case, the profession worked closely 
with States to develop a single set of policies that apply everywhere 
and they were adopted by each State under its own authority. These 
fields--including nursing with over 1,200 program providers--also use 
the same licensing tests and passing scores for graduates in every 
State.
    There are good reasons for thinking that this voluntary approach by 
these professions and the States can make a difference for teacher 
preparation program quality. A significant number of newly licensed 
teachers in the United States complete a preparation program in one 
State and obtain their initial license in another jurisdiction. 
Nationwide, 19 percent of all initial State credentials are issued to 
teachers prepared in another State. For 10 States, over 40 percent of 
new teachers in each of these States are trained elsewhere and 22 
States have reported that at least 20 percent of new teachers were 
prepared outside their State. One set of common standards would ensure 
that quality means the same thing no matter where the program is 
located or where the graduate is employed.
    Reports on K-12 learning outcomes show that we must do much more to 
ensure a quality teacher in every classroom. Title II of the HEA can be 
an effective vehicle for this goal.
    Thank you again, Mr. Chairman and members of the committee. I would 
be happy to respond to your questions.
                                 ______
                                 
    Thank you Senator Harkin, Senator Alexander, and members of the 
committee for the opportunity to participate in this hearing.
    Title II of the Higher Education Act, last amended in 2008, 
provides for teacher preparation program accountability through program 
and State reporting. The statute also requires States to set criteria 
for designating low performing or at-risk preparation programs under 
their jurisdiction, and to report whether they have found any programs 
to be low performing or at risk of being low performing. Accountability 
functions of the statute are met through public disclosure of program 
information and listing by the State as low performing or at risk.
    Through Title II of the HEA, the U.S. Department of Education also 
makes grants to improve teacher preparation program quality. These 
awards take place through the Teacher Quality Partnership Program; 
multi-year grants were made most recently in fiscal year 2009 and in 
fiscal year 2010.
    My remarks will address: (1) current preparation program 
accountability standards and reporting under Title II of the HEA, (2) 
how the Teacher Quality Partnership grants program contributes to 
program improvement across the country, and (3) ways to improve Title 
II of the HEA that can help States, institutions of higher education, 
and other stakeholders to strengthen the quality of teacher preparation 
in the United States. Finally, these comments also describe how to 
reduce the reporting burden of title II by focusing reporting and 
accountability on a relatively small number of key items.
  k-12 student achievement, preparation program quality, and program 
                             accountability
    Two-thirds of all fourth graders in the United States are not 
proficient in reading. In mathematics, 58 percent of all U.S. fourth 
graders are not proficient according to the same 2013 test results from 
the National Assessment of Educational Progress (NAEP).
    For eighth-grade students, 64 percent were not proficient in 
reading. The same proportion of our eighth graders was not proficient 
in mathematics.
    And yet 96 percent of all teacher candidates in the country passed 
all of their teacher licensing tests in the most recent year for which 
test results are available.
    The table below presents disaggregated NAEP results of grades 4 and 
8 student performance in reading and mathematics.

  Grade 4 Reading and Mathematics: Percent NOT Proficient on 2013 NAEP
------------------------------------------------------------------------
                                                   Reading   Mathematics
                                                     (In          (In
                                                  percent)     percent)
------------------------------------------------------------------------
All 4th Graders................................         66           58
Black Students.................................         83           82
Hispanic Students..............................         80           74
White Students.................................         55           46
------------------------------------------------------------------------


  Grade 8 Reading and Mathematics: Percent NOT Proficient on 2013 NAEP
------------------------------------------------------------------------
                                                   Reading   Mathematics
                                                     (In          (In
                                                  percent)     percent)
------------------------------------------------------------------------
All 8th Graders................................         64           64
Black Students.................................         83           86
Hispanic Students..............................         78           79
White Students.................................         54           55
------------------------------------------------------------------------

    Despite these student learning outcomes, the latest title II report 
card indicates that 99 percent of all teacher candidates in the country 
passed their basic skills tests; 98 percent passed all of their 
professional knowledge tests; and 96 percent passed their academic 
content tests.
    This disconnect between the performance of our young people in core 
subject areas and the performance of their teachers on tests required 
for licensure and certification is one of the basic failures of the 
current title II accountability requirements for teacher-preparation 
programs.
    Another problem with the current Title II HEA reporting and 
accountability system is that few States make any effort to flag and 
report weak programs as low performing. The Title II HEA statute calls 
on States to ``conduct an assessment to identify low performing . . . 
teacher preparation programs in the State and to assist such programs 
through the provision of technical assistance. Each such State shall 
provide the Secretary with an annual list of low performing teacher-
preparation programs and an identification of those programs at risk of 
being placed on such list . . .'' The title II statute goes on to 
specify that ``Levels of performance shall be determined solely by the 
State and may include criteria based on information collected pursuant 
to'' the title II reporting requirements.
    For the most recent reporting year, 39 States did not classify even 
one teacher preparation program as low performing or at risk of low 
performance. In fact, 35 States have never found a program to be low 
performing or at risk, despite the K-12 student performance issues 
shown in the tables above.
    Among the other 11 States, 38 programs were identified as low 
performing or at risk in 2011. This number represents 1.8 percent of 
the 2,124 preparation programs in the country.
    Apart from not looking carefully at the performance of teacher 
education programs whose graduates are allowed to obtain licenses and 
teach in the State, and in light of the data presented above on student 
learning outcomes, the fact that 35 States have never found a program 
in need of improvement also suggests that they are not doing enough to 
help programs and their graduates to be as effective as possible in 
meeting important State education needs.
    If programs that prepare our Nation's teachers are not held 
accountable in a meaningful way for the inability of their graduates to 
teach K-12 students do mathematics and learn to read, it is hard to see 
how the country can help these students to become productive and 
successful members of our society.
                   teacher quality partnership grants
    In an effort to promote innovation and quality improvement in 
teacher preparation programs, the 1998 reauthorization of the Higher 
Education Amendments (HEA) also established competitive grant programs.
    In recent years, the Teacher Quality Partnership (TQP) program 
funded two rounds of awards. In fiscal year 2009, 28 grants were made 
for a total of $43 million. And in fiscal year 2010, the U.S. 
Department of Education awarded 12 grants totaling $100 million. The 
statutory focus areas for these grants include: improving student 
achievement, improvements to the quality of prospective and new 
teachers by strengthening both teacher preparation and professional 
development; holding preparation programs accountable for training high 
quality teachers; and recruiting highly qualified prospective teachers 
into the profession.
    These awards have been made to universities, to a State department 
of education, to a national STEM teaching initiative, and to three 
school districts. Many of the projects have multiple university and 
local LEA partners. Almost half of the TQP grants support ``residency'' 
programs that place teacher candidates in extended learning experiences 
in school settings for as long as a full year.
    The 40-funded TQP projects embrace a wide range of preparation 
strategies and subject areas. The most common subject areas addressed 
by the grantees are special education, one or more of the STEM 
subjects, and preparing new teachers to work with English as a Second 
Language (ESL) or bilingual K-12 students. One project appears to have 
a central focus on reading instruction. Others address teachers for all 
grades, recruiting prospective teachers in rural areas or from 
community colleges in rural areas, and early childhood education.
    Through the work of these 40 grantees and their local partners, the 
TQP program is being used for teacher preparation program changes. 
University faculty and others involved in these 40 TQP grants are 
making good faith efforts to improve the preparation and support of 
teacher candidates who enroll in their programs.
    However, it is hard to see much impact on teacher preparation in 
the United States from the program itself or from these individual 
efforts. There are two main reasons for this limited impact:

    <bullet> The wide range of TQP objectives and implementation 
strategies dilutes the overall ability of the grant program to foster 
promising strategies and test their effectiveness in multiple settings. 
Despite a long list of objectives and activities that grantees are 
required to address, the program does not have an explicit focus on 
content areas like reading or mathematics where the Nation's students 
are clearly in need of stronger instruction.
    <bullet> There is no common evaluation framework for the non-
residency grant projects, a reflection of how different they are from 
one another. While the TQP residency grants are being evaluated in the 
same way (by the Institute of Education Sciences at the U.S. Department 
of Education), evaluation is aimed at producing mostly information like 
program characteristics, and demographic characteristics of 
participants enrolled in the program. The one analytical component of 
this assessment concerns the persistence rates in teaching of those who 
complete the residency programs.

    Both problems could be remedied by a competitive program that 
targets funding for teacher preparation program redesigns that address 
a small number of topics, support grantees in several locations who do 
the same kind of work (e.g., like multisite trials), and evaluate the 
projects using the same set of measures.
title ii of hea as a resource to strengthen preparation program quality 
                           and accountability
    A good starting point to improve the impact of title II on program 
quality and accountability is to reduce the reporting burden on States 
and programs imposed by the existing statute and regulations. Too many 
current reporting elements are not central to understanding the 
preparation, production, and performance of strong teachers. And too 
little attention is given to reporting information about key program 
outputs and outcomes that affect the learning performance of K-12 
students.
    Secretary Duncan reported in 2011 that there were more than 2,000 
teacher preparation programs in the country. A noted scholar of this 
field wrote:

          ``There is so much variation among all programs in visions of 
        good teaching, standards for admission, rigor of subject matter 
        preparation, what is taught and learned, character of 
        supervised clinical experience, and quality of evaluation that 
        compared to any other academic profession, the sense of chaos 
        is inescapable''--(Lee Shulman, Stanford University, 2005).

    Since there is so little overlap between programs, collecting 
purely descriptive information about them gives States, program 
leaders, and the public few analytical tools to understand program 
impact on the production and classroom success of well-prepared new 
teachers. Reporting that focuses on a small set of key items that 
relate to program quality can help policymakers and the public know 
when and why a program is good. Instead of what is collected today, the 
title II reporting system should concentrate on:

    <bullet> The academic strength of candidates admitted to the 
program through information on GPA and ACT/SAT scores.
    <bullet> Demographic characteristics of those who are admitted to 
the program, and similar data for those who complete the program to 
gauge the extent to which program enrollments and graduates reflect the 
diversity of the schools they serve.
    <bullet> The proportion of teacher candidates in the program who 
obtain at least 50 percent of supervised student teaching experience in 
schools that are high-need and also high functioning.
    <bullet> The number and percent of graduates prepared as teachers 
in high-need subject areas as defined by the State where the program is 
located.
    <bullet> The number and percent of graduates who are employed as 
teachers in high-need schools and subject areas, and the number and 
percent of these teachers who persist in teaching for 1-5 years after 
program completion.
    <bullet> A teacher effectiveness measure that captures the extent 
to which program graduates help their K-12 students to learn.
    <bullet> Classroom teaching performance for program graduates that 
is measured by reliable and valid assessments of teaching skills, 
student engagement and student learning.
    <bullet> Survey results from preparation program graduates and from 
their employers about how well the program prepares its graduates to 
teach; the report should include survey response rates.

    The value and validity of measures like these for program 
improvement and accountability has been affirmed recently by an 
American Psychological Association (APA) task force of educators and 
measurement experts. Similar program data are at the heart of the 
revised standards for program accreditation adopted in 2013 by the 
Council for the Accreditation of Educator Preparation (CAEP).
    While reporting some of this information may be a heavy lift for 
some programs without external support in data collection and analysis, 
numerous recent efforts at State and other levels provide important 
resources for programs and States. Through the Council of Chief State 
School Officers (CCSSO), at least seven States have embarked on 
comprehensive reforms to teacher licensure and program approval 
standards, work that will assist programs in those States with 
reporting and improvement strategies. Race to the Top grants in at 
least 11 States include development of preparation program quality 
indicators and reporting systems to support their use. Forty-seven 
States have received data system improvement grants through the Federal 
Statewide Longitudinal Data Systems (SLDS) program. Within the States, 
organizations such as the Center for Research, Evaluation, and 
Advancement of Teacher Education (CREATE), which provides data 
collection and analysis services to more than 50 university preparation 
programs in Texas, can be tapped as program resources for high quality 
reporting.
    Beyond these resources for better reporting on teacher preparation, 
Section 208 of the Higher Education Opportunity Act (HEOA), passed by 
the Congress in 2008, authorized State agencies to share ``any and all 
pertinent education-related information'' with teacher preparation 
programs that ``may enable the teacher preparation program to evaluate 
the effectiveness of the program's graduates or the program itself.''
  incentives for states to use the same indicators and accountability 
                                 tools
    Engineering, accountancy, nursing, and medicine are among the 
professions that have uniform State accountability standards for 
programs and graduates. In each case, the profession worked closely 
with States to develop a single set of policies that apply everywhere 
and were adopted by each State under its own authority. These fields--
including nursing with over 1,200 program providers--also use the same 
licensing tests and passing scores for graduates in every State.
    There are good reasons for thinking that this voluntary approach by 
these professions and the States can make a difference for teacher 
preparation program quality. A significant number of newly licensed 
teachers in the United States complete a preparation program in one 
State and obtain their initial license in another jurisdiction. 
Nationwide, 19 percent of all initial State credentials are issued to 
teachers prepared in another State. For 10 States, over 40 percent of 
new teachers in each of these States are trained elsewhere and 22 
States have reported that at least 20 percent of new teachers were 
prepared outside their State.
    Title II of the HEA should provide incentives that encourage all 
States to adopt the same set of program quality and accountability 
indicators. One set of common standards would ensure that quality means 
the same thing no matter where the program is located or where the 
graduate is employed.
    While there are understandable personal and geographic reasons for 
this cross-State pattern, it means that students and schools in many 
States must depend on the policies and practices of a different State 
to make sure their teachers are the best possible instructors. The 
title II reporting system would give States better tools for 
preparation program improvement if it also specified that all States 
should use the same measures for designating low performing or at-risk 
programs.
    Consistent use of the same indicators across States for program 
reporting and accountability means that these policies and practices 
would be built on a set of clear signals about program quality that 
policymakers can understand and program faculty can use in their own 
work. For guidance on how this approach can work effectively, Congress 
and the States can look to the experience of other well-respected 
professions. This strategy protects the public through the same set of 
rules in every State and it brings higher levels of public respect for 
the profession as a whole and for those in the profession who serve the 
public through their work.
                             final comments
    Now is a promising time to accelerate progress on teacher 
preparation program reform and accountability. States, national 
organizations, and programs themselves are working to improve the 
preparation of teachers for our Nation's students, seeking ways to push 
weak programs to get better or get out of the business of teacher 
education, and finding stronger ways to measure program and teaching 
quality. Reports on K-12 learning outcomes show that we must do much 
more to ensure a quality teacher in every classroom. Title II of the 
HEA can be an effective vehicle for this goal.
    Thank you again, Mr. Chairman and members of the committee.

    The Chairman. Thank you, Dr. Crowe.
    Dr. Brabeck.

      STATEMENT OF MARY BRABECK, Ph.D., GALE AND IRA DRUK-
    IER DEAN AND PROFESSOR OF APPLIED PSYCHOLOGY, NEW YORK 
                    UNIVERSITY, NEW YORK, NY

    Ms. Brabeck. Chairman Harkin, Ranking Member Alexander, and 
committee members, I am honored to have the opportunity to talk 
with you today. I am the chair of the board of directors of the 
Council for the Accreditation of Educator Preparation.
    I also come to you as someone who has been in higher 
education for 34 years. For 20 years of that time, I have been 
responsible for teacher education as a dean. And I have, over 
the course of those almost four decades now, seen multiple 
reports of how to reform teacher preparation. I count 40, 
actually, that I have achieved, and there may be another one 
this year.
    But up until now, there has been no rigorous and evidence-
based process for separating the highly performing programs 
from the poorly performing programs across our country. CAEP 
aims to change that.
    The adoption of CAEP's new accreditation standards achieved 
a historic consensus. This was the commission that Senator 
Alexander referred to that was led by Dean Benbow from 
Vanderbilt. And the stakeholders at the table that formed the 
standards came from education deans, the Council of Chief State 
School Officers, teacher unions, parents, critics of higher 
education, and critics of accreditation. The group came 
together unanimously to approve the standards, and those 
standards were adopted unanimously by the board of directors of 
CAEP in August 2013.
    CAEP has teeth in its standards and will raise the bar so 
that all accredited programs move from adequacy to excellence 
and weak programs are closed. We can no longer rely on outmoded 
accreditation processes with one-time reviews every 7 to 10 
years, on mountains of course syllabi with stories or credit 
hours but little data that shows that graduates of those 
programs can teach all children effectively.
    CAEP expects accredited programs to annually collect and 
report evidence that is meaningful, valid, reliable, and 
actionable, that is, as Senator Harkin suggested, data that can 
help programs improve and do a better job at preparing 
teachers. CAEP's standards are not business as usual. They 
embody four research-based levers for change.
    First, CAEP requires evidence of strong clinical experience 
and partnerships between teacher preparation programs and pre-
K-12 schools, programs that will meet the local and national 
urgent needs that have already been mentioned in your opening 
remarks, special education teachers, STEM teachers, teachers 
for hard-to-staff schools, teachers for children who are 
English language learners. And programs will be required to 
show evidence that their training involves partnership with K-
12 schools and deep clinical experience in the real world of 
the classroom.
    Second, CAEP will assure the public of teacher candidate 
quality and diversity. CAEP establishes high entry standards 
that draw from grade point averages as well as nationally 
normed standardized tests and requires both recruitment plans 
and success rates for enrolling diverse candidates.
    Third, CAEP will accredit all providers, from university-
based programs, like mine at New York University or previously 
at Boston College, to alternative, for-profit, and online 
programs. All programs that prepare teachers to be accredited 
will have to show evidence of quality and continuous 
improvement of teacher preparation.
    Finally, and above all, CAEP insists that accredited 
programs be judged by outcomes and impact on pre-K-12 student 
learning and development. Results matter. Effort is not enough.
    Today, we have better tools for the task of building an 
evidence-based teacher preparation profession. CAEP will 
require use of multiple measures such as the developing new 
generation of State assessments to evaluate PK-12 learning. 
CAEP requires, where available, the use of State longitudinal 
data systems that link teacher education programs to K-12 
learning outcomes. CAEP requires annual reporting of surveys of 
graduates and employers and valid and reliable observations of 
candidates teaching.
    We can, Senator Alexander, identify excellence in teaching, 
and we must, and we must make it public. CAEP will encourage 
the use of the robust literature on the power and the cautions 
regarding valid and reliable use of these new tools, such as 
the recent task force report developed by the American 
Psychological Association that sets out the conditions for 
valid and reliable use of these statistical measures--
statistical methods.
    In conclusion, I respectfully ask that you consider four 
recommendations to improve the Higher Education Act. First, I 
agree with my colleague, Dr. Crowe, to streamline title II 
reporting. Second, continue to build data capacity in the 
States. Third, expand and support research and development and 
implementation. We simply need to know more about what it takes 
to prepare an effective teacher. And, finally, support 
accountability. Encourage and monitor States who act on low 
performing programs as reported in title II's State report 
card.
    We have, I believe, an historic opportunity to do what the 
Flexner Report did for medical education in 1910. Prior to the 
Flexner Report, admission to medical school was--you could be 
admitted without a high school diploma. Medical schools 
differed in their curricula. They differed in how they prepared 
doctors. And since the Flexner Report standardized the 
curriculum, we have seen a continual improvement in the 
preparation of physicians in this country. The same needs to 
happen in teacher preparation.
    [The prepared statement of Ms. Brabeck follows:]
               Prepared Statement of Mary Brabeck, Ph.D.
                                summary
    The Council for the Accreditation of Educator Preparation (CAEP) is 
the new single specialized accreditor of educator preparation in the 
United States. Through evidence that programs meet rigorous 
accreditation standards and transparent reporting, CAEP will inform 
policymakers, providers, and candidates about the quality of 
preparation programs. Equally important, CAEP will raise the bar in 
educator preparation so that all accredited programs in our Nation move 
from adequacy to excellence and weak programs are closed. CAEP will 
accomplish these goals through four levers for change:

    1. CAEP requires evidence of strong clinical experiences and 
partnerships with P-12 schools and districts that meet (local and 
national) employers' urgent needs (e.g., Special Education; Science, 
Technology, Engineering and Math teachers, hard to staff schools).
    2. CAEP raises standards for selection of capable and diverse 
candidates, and assures stakeholders of candidate quality from 
recruitment and admission into teaching.
    3. CAEP accreditation includes all providers and encourages 
innovation from university-based programs to alternative, for-profit, 
and online programs.
    4. Most importantly CAEP accreditation will be determined by 
evidence of impact on P-12 student learning and development--Results 
matter; ``effort'' is not enough.

    CAEP is working with educator preparation programs to help them 
develop a culture of evidence to continuously improve educator 
preparation even as programs are held accountable for demonstrating 
graduates are effective teachers. CAEP holds itself accountable to the 
public by ensuring that accredited programs are preparing teachers who 
are classroom-ready and can effectively teach all children. To assist 
CAEP in this dramatic change in educator preparation, I make a number 
of recommendations in my longer testimony but the most important are 
these:

    1. Streamline Title II reporting requirements by aligning Federal 
program grantee reporting to CAEP's performance-based and outcome-
driven measures. This will shift the focus of federally funded programs 
on evidence of impact on P-12 student performance.\1\
---------------------------------------------------------------------------
    \1\ Annual Reporting Measures include: (1) Impact on P-12 learning 
and development; (2) Indicators of teaching effectiveness; (3) Results 
of employer surveys, including retention and employment milestones; (4) 
Results of completer surveys; (5) Graduation rates; (6) Ability of 
completers to meet licensing (certification) and any additional State 
requirements; (7) Ability of completers to be hired in education 
positions for which they were prepared; (8) Student loan default rates 
and other consumer information.
---------------------------------------------------------------------------
    2. Expand and Support Research and Development. Encourage the 
development and use of new and current measures of teacher performance, 
assessment of the impact of teaching on learning, and survey research 
on effective teachers.
    3. Encourage States to partner with CAEP in accreditation and 
program approval, and alignment of State and CAEP standards, data 
requirements and accountability processes.

    CAEP aims not only to raise the performance of new teachers as 
practitioners in the Nation's P-12 schools, but also to elevate the 
stature of the entire profession. CAEP will do this by raising the 
standards and evidence that support providers' claims of quality and 
insisting on transparency and accountability to the public. CAEP will 
ensure that accredited programs prepare teachers who are classroom-
ready and demonstrably raise learning for all of America's diverse P-12 
student population. This is an urgent national priority.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, committee members and my 
distinguished panelists, I am honored to have the opportunity to speak 
before you today as chair of the Board of Directors of the Council for 
the Accreditation of Educator Preparation (CAEP). It is a pleasure to 
discuss CAEP's new standards and how they ensure that accredited 
programs prepare teachers who are classroom-ready and demonstrably 
raise learning for all of America's diverse student population. This is 
an urgent priority for all of us.
    Launched in July 2013, CAEP is the new single specialized 
accreditor of educator preparation in the United States. Accreditation 
in educator preparation plays a vital role in informing policymakers, 
providers and candidates about the quality of preparation programs and 
whether the professional standards are being met. Equally important, 
CAEP is committed to raising the bar in educator preparation so that 
all accredited programs in our Nation move from adequacy to excellence 
and weak programs are closed. We can no longer tolerate failure or 
mediocrity in the preparation of the next generation of America's 
teachers and school leaders.
    I have been in higher education for 34 years, and for over 20 years 
I have been, as a dean, responsible for teacher preparation. During the 
span of my career, there have been multiple calls for education reform, 
but with very little agreement on how to implement needed reforms in a 
credible way that separates the highly performing programs from the 
poorly performing programs. In my judgment, the adoption of CAEP's new 
rigorous standards achieved historic consensus and alignment on 
educator preparation issues among diverse stakeholders for the first 
time. The stakeholders engaged in developing the CAEP standards and 
recommendations for a radically different approach to accreditation 
included deans, State policymakers, local superintendents, unions, 
teachers, P-12 student parents, alternative preparation programs, and 
even critics of educator preparation and accreditation.
    CAEP's standards are not business as usual--but embody four 
research-based levers of change that will have strong effects on 
preparation.
    <bullet> CAEP requires evidence of strong clinical experiences and 
partnerships with schools--Integrating a robust clinical experience 
into the core of any preparation program is essential. This demands 
strong partnerships with P-12 schools and school districts that will 
meet employers' urgent needs (e.g., special education teachers, STEM 
teachers, teachers of English language learners, teachers for the most 
challenging schools, etc.)
    <bullet> CAEP will assure the public of teacher candidate enhanced 
quality and diversity--CAEP establishes higher entry standards for 
admission into the programs and active recruitment of high quality and 
diverse candidates. From recruitment and admission, through preparation 
and exit and into P-12 classrooms, educator preparation programs will 
take responsibility for building an educator workforce that is capable 
and representative of America's diverse population. Graduates of these 
programs will be classroom and school-ready to teach all children.
    <bullet> CAEO includes all providers--Accreditation must encourage 
innovation by welcoming all of the varied providers from university-
based programs to alternative, for-profit, and online programs to seek 
accreditation and meet challenging levels of performance.
    <bullet> And surmounting all others, CAEP insists that preparation 
be judged by outcomes and impact on P-12 student learning and 
development--Results matter; ``effort'' is not enough.

    CAEP's footprint is expansive and positions accreditation as a 
lever for change in improving educator quality and effectiveness. 
Currently, more than 900 educator preparation providers participate in 
the educator preparation accreditation system. Participating 
institutions account for nearly 60 percent of the providers of educator 
preparation in the United States, and their enrollments account for 
nearly two-thirds of newly prepared teachers.
    A critical part of the accreditation system is the dynamic 
partnerships developed between CAEP and the States on program approval, 
licensure, and data improvement policies to support continuous 
improvement. Today, 23 States require accreditation for all public 
teacher education institutions and 31 States require accreditation for 
the majority of its institutions. There is a growing interest among 
State policymakers in adopting the new, rigorous CAEP accreditation 
system to leverage change and urgent reforms; Ohio, Rhode Island, 
Kentucky, Illinois, and Georgia State superintendents and agencies have 
all begun to pave the way for implementation of CAEP's new mode of 
accreditation. We expect others will follow suit with the endorsement 
of the standards by the Council for Chief State School Officers, the 
Chiefs for Change, and the State Higher Education Executive Officers 
and many other organizations.
    CAEP places emphasis on evidence, continuous improvement, and 
innovation. CAEP aims not only to raise the performance of new teachers 
as practitioners in the Nation's P-12 schools, but also to elevate the 
stature of the entire profession. CAEP will do this by raising the 
standards for evidence that supports providers' claims of quality and 
insisting on transparency and accountability to the public. A number of 
recent national reports from the National Research Council,\1\ the 
American Educational Research Association, and the Council of Chief 
State School Officers\2\ point out the glaring need for research on 
effective teaching practices and preparation, empirically grounded 
quality control systems, and comprehensive and coherent systems for 
collecting, reporting, and using data and outcomes-based measures to 
drive continuous improvement. These bodies of work provided a 
foundation for the development of the standards and focus on the 
desired outcome to advance P-12 student learning.
---------------------------------------------------------------------------
    \1\ National Research Council. (2010) Preparing teachers: Building 
evidence for sound policy. Retrieved from http://www.nap.edu/
catalog.php?record_id=12882, 180.
    \2\ Council of Chief State School Officers. (2012). Our 
responsibility, our promise: Transforming educator preparation and 
entry into the profession. Washington, DC. 22.
---------------------------------------------------------------------------
    CAEP will exploit the new tools recently developed to assess 
programs as part of its agenda to promote continuous improvement and 
evidence-based accreditation. Today, we have better tools for the task 
of building an evidence-based profession. For example, we have begun to 
build better State longitudinal data systems that allow us to link data 
from teacher education programs to data from P-12 student learning. 
Today, we have more rigorous State college- and career-readiness 
standards and will soon have a next generation of assessments to 
evaluate student learning of these more rigorous standards.
    We also have more sophisticated statistical models to assess the 
impact of programs on student learning. States and districts are on-
lining new value-added modeling (VAM\3\) and other student growth 
measures and there is a robust literature on their power and cautions 
regarding valid and reliable use of these models to assess programs. 
And research studies are yielding better information about what 
measures are the best predictors of student learning gains. For 
example, recent research from the Gates Foundation's Measures of 
Effective Teaching Project\4\ (MET) found that elementary and middle 
school student survey assessments and high-quality classrooms 
observations systems, used in combination, can be reliable measures of 
effective teaching.
---------------------------------------------------------------------------
    \3\ American Psychological Association Task Force, Assessing and 
Evaluating Teacher Preparation Programs. Accepted without revision by 
the American Psychological Association Council of Representatives, 
February 23, 2014.
    \4\ Measures of Effective Teaching Project. (2013). Ensuring fair 
and reliable measures of effective teaching: Culminating findings from 
the MET Project's three-year study. Retrieved from http://
www.metrproject.org/downloads/MET_Ensuring_Fair_and_Reliable_Measures_
Practitioner_Brief.pdf, 20.
---------------------------------------------------------------------------
    CAEP is currently engaged in research to explore the possibilities 
of using these P-12 student surveys in assessing pre-service teachers. 
Advancing research and development (R & D) and innovation are strategic 
priorities for CAEP and we are among the first accreditors to have a 
commitment and committee devoted to expanding our knowledge base.
    The emphasis on robust evidence, continuous improvement and 
innovation represents a new vision and mode for accreditation. No 
longer can our profession rely on outmoded accreditation systems with 
one-time reviews every 7-10 years. The new system will demand yearly 
accountability and continuous improvement with frequent review cycles 
and annual reports by providers on their performance data that will 
trigger appropriate action and incentives by CAEP. No longer can our 
profession depend on an input-focused (e.g., syllabi, library 
resources, credit hours), compliance-based accreditation that allows 
programs to get credit for merely claiming the existence of a quality 
assurance system or submitting stacks of paper but little data that 
show graduates can teach all children. CAEP expects accredited programs 
to collect and report data and evidence that are meaningful, valid, 
reliable, and actionable. And by actionable, I mean that institutions 
or programs will shine a bright light on the strengths and weaknesses 
within their programs and their partnerships with P-12 schools, for 
their candidates, alumni and other stakeholders to use. And providers 
will use the data to inform decisions about how to improve their 
programs.
    CAEP will not accredit low-performing programs and will identify 
and celebrate outstanding programs that are making substantial 
contributions to the field.
    The States will also need to do their part in closing down poor 
performers that produce ineffective educators.
    Finally, CAEP must allow flexibility so that programs can take 
risks, re-imagine the delivery of education, and test innovations 
without being penalized.
    CAEP's five core standards and recommendations were based upon the 
best available research in the field and on lessons learned from high-
performing organizations in other sectors and best practices in 
accreditation. The three areas of teacher preparation identified by the 
National Research Council (NRC) as most likely to have the strongest 
effects on raising student achievement are: (1) content and pedagogical 
knowledge, (2) clinical experience, and (3) the quality of teacher 
candidates. Standards 1-3 were developed in response to these areas:

    Standard 1-Content and pedagogical knowledge--Candidates develop a 
deep understanding of the critical concepts and principles of their 
discipline and, by completion, are able to use discipline-specific 
practices flexibly to advance the learning of all students toward 
attainment of college- and career-readiness standards. Examples of 
evidence might include data from new assessments demonstrating 
candidates' understanding of content knowledge and direct classroom 
observations of candidates' ability to teach content effectively to 
diverse learners.
    Standard 2-Clinical Practice and Partnerships--Effective 
partnerships and high-quality clinical practice are central to 
preparation so that candidates develop the knowledge, skills, and 
professional dispositions necessary to demonstrate positive impact on 
all P-12 students' learning and development. An example of evidence for 
this standard might include demonstration of joint decisionmaking on 
program improvements, co-selection of clinical educators, or use of 
direct classroom observation protocols to meet school districts' human 
capital and instructional needs.
    Standard 3-Quality of teacher candidates--The quality of candidates 
selected for teaching is essential and preparation programs will be 
responsible for ensuring quality from recruitment, at admission, 
through the progression of courses and clinical experiences, and to 
decisions that completers are prepared to teach effectively and are 
recommended for certification. Regarding selection of candidates into a 
teacher education program, by 2016 to be accredited, programs will need 
to demonstrate that their entering cohorts of students have on average 
a GPA of 3.0. The same groups will need to have, on average, a group 
SAT score above the 50th percentile by 2016; and by 2020, on average 
the group must be in the top one-third of the distribution of scores on 
a standardized nationally normed test (e.g., GRE, SAT, ACT) test. 
Likewise we need a teaching force that reflects the demographics of the 
P-12 population. We need ethnic, racial, language of origin and gender 
diversity; we need more men in the teaching force. Finally programs 
need to recruit candidates who will meet local and national needs 
(e.g., special education, STEM teachers and hard to staff schools). 
Evidence of meeting this standard might include reporting of GPAs, 
nationally normed tests if candidates, and strategic recruitment plans 
and success rates of programs.
    The remaining CAEP standards discussed below were developed from a 
body of research on best practices in high performing organizations in 
other sectors and in accreditation.
    Standard 4-Impact and outcomes--With an emphasis on assuring 
quality based upon outcomes and evidence rather than solely inputs, the 
Commission created a standard for using multiple measures for 
determining the impact of program completers on P-12 student learning 
and development, classroom instruction, and schools, and the 
satisfaction of its completers with the relevance and effectiveness of 
their preparation. This standard that providers must show evidence of 
completers' impact is of special significance in that providers must 
meet each of the four components of the standard to be accredited. To 
my knowledge, no other accreditor has put down such a challenging 
marker to hold those they accredit accountable for results. The four 
components are: (1) impact on P-12 student learning, (2) indicators of 
teacher effectiveness, (3) satisfaction of employers, and (4) 
satisfaction of completers.
    Standard 5-Quality assurance and continuous improvement--In keeping 
with the dual function of accreditation, as both accountability and 
continuous improvement, CAEP created a standard for assessing the 
provider's system for assuring quality and continuing improvement 
through the effective use of valid data from multiple measures. 
Programs must demonstrate how they use their data to improve the 
program and its outcomes. To support continuous improvement, providers 
would assure that appropriate stakeholders, including alumni, 
employers, practitioners, school and community partners are involved in 
program evaluation, improvement, and identification of models of 
excellence.
    CAEP will hold itself accountable and will study the intended and 
unintended consequences of implementation of the standards. CAEP will 
assess how well it meets its fiduciary responsibility to the public to 
ensure that all accredited programs provide high quality teachers for 
our Nation's schools.
    As the committee moves forward with its legislative and policy 
activities in the months and years ahead, I respectfully ask that you 
consider the following recommendations to improve the Higher Education 
Act:

    1. Streamline Title II reporting requirements by aligning Federal 
program grantee reporting to CAEP's performance-based and outcome-
driven measures. Currently, metrics on the title II institutional and 
State report cards do not capture what we need to know about program 
quality, outcomes, and impacts. CAEP's new program impact standard 
focuses on eight required data elements, including teaching candidates' 
impact on P-12 student performance.\5\ A streamlined, outcomes-based 
reporting system with common data elements would allow Federal 
Government, States, the accreditor, and programs to benchmark 
performance and identify innovations and high quality programs or 
aspects of programs. These exemplars might inform other providers and 
possibly be duplicated or even taken to scale. Specifically, CAEP 
recommends that title II reporting in both HEA and ESEA be aligned to 
CAEP's new performance-based outcome measures, along with common 
reporting elements new standards and on program characteristics.
---------------------------------------------------------------------------
    \5\ Annual Reporting Measures include: (1) Impact on P-12 learning 
and development; (2) Indicators of teaching effectiveness; (3) Results 
of employer surveys, including retention and employment milestones; (4) 
Results of completer surveys; (5) Graduation rates; (6) Ability of 
completers to meet licensing (certification) and any additional State 
requirements; (7) Ability of completers to be hired in education 
positions for which they were prepared; and (8) Student loan default 
rates and other consumer information.
---------------------------------------------------------------------------
    2. Build Data Capacity and Reduce Reporting Requirements and 
Burden--Build national, State and local capacity for data quality and 
demand common data for benchmarking performance. This will provide an 
important feedback loop to accreditors, providers, policymakers and the 
public. CAEP recommends that the National Center for Educational 
Statistics develop common data definitions in educator preparation for 
benchmarking purposes. I also recommend continuation of investments in 
the federally funded State Longitudinal Data Systems grant program with 
a particular focus on reporting systems for educator preparation.
    3. Expand and Support Research and Development and Innovation--
invest in R&D to further build knowledge about effective educator 
preparation targeting the Institute for Education Sciences, National 
Science Foundation, and the National Institute of Mental Health. 
Currently, I believe that less than 1 percent of money for education 
goes into research; compared with 20-25 percent of health budget which 
goes to research. As the National Research Council reported in 2010, we 
need better information on which teacher preparation program 
characteristics produce effective teachers and leaders. Continue and 
expand efforts to develop and improve reliable and valid assessments of 
effective teaching and P-12 learning and development. Like medicine 
years ago, education must be transformed into an evidence-based 
discipline and we need the tools to do that.
    4. Support Accountability--We need the Federal Government to help, 
encourage, and monitor States who act on low performing programs, as 
reported in title II's State report cards. But closing weak programs is 
only part of the solution. Working together, States and CAEP must also 
move the full range of programs to get better, a shift from tolerating 
``adequacy'' to insisting on ``excellence.'' A full-court press by 
States and CAEP in collaboration is required to meet the needs of the 
Nation's P-12 learners. Support Innovation and Capacity-Building for 
major systemic changes to meet CAEP's rigorous standards. Investments 
in robust clinical practice models and partnerships between preparation 
programs and school districts will develop the capacity for programs to 
meet CAEP's new high expectations.
    5. Encourage States to partner with CAEP in accreditation and 
program approval, and alignment of State and CAEP standards, data 
requirements and accountability processes. Alignment will produce 
coherence and reduce redundant time consuming reporting that too often 
in the past has not improved P-12 outcomes.
    We now have a historic opportunity to do what the Flexner Report 
did for medical education in 1910. That report called on American 
medical schools to enact higher admission and graduation standards and 
to adhere strictly to robust scientific knowledge in teaching and 
research. Flexner transformed medical education making it the clinical 
model it is today and spurred the transformation of North American 
medicine into a profession. Prior to the release of that report, 
medical schools differed greatly in their curricula, methods of 
assessment and requirements for admission and graduation, and clinical 
preparation. These are the current challenges in educator preparation. 
The Flexner report had a deep and lasting impact on medical education 
and lifted the stature of the profession. I think all of us in this 
room who have a stake in improving the preparation of teachers have an 
unique opportunity to do the same, ultimately improving the outcomes 
for our Nation's students. Thank you for the opportunity to discuss 
CAEP's overhaul of its accreditation system and how it will positively 
impact preparation programs and P-12 student learning in our Nation. I 
look forward to answering any questions you might have.

    The Chairman. Very good. Thank you very much.
    Dr. Koerner.

  STATEMENT OF MARI KOERNER, Ph.D., PROFESSOR AND DEAN OF THE 
  MARY LOU FULTON TEACHERS COLLEGE, ARIZONA STATE UNIVERSITY, 
                           TEMPE, AZ

    Ms. Koerner. Good afternoon. Thank you for inviting me to 
be here. I'm going to present three imperative designs that 
Arizona State University uses to measure its own importance in 
the community.
    The first is impact. If we look at the impact of our TQP 
grant and our teacher ed program, what we have done is leverage 
the TQP grant to change all of our teacher ed programs. We're 
one of the largest teacher ed programs in the country. So that 
means we have scaled up to thousands of students. It also means 
that since 2009, we have, through a reform of our undergraduate 
program, K through 8 elementary, we've impacted almost 3,000 
teachers and 49,000 students in Arizona.
    As one example of a partnership we've had with the school 
district since 1999, our first school district and our first 
Federal grant, we have had 16 generations of teachers, and 
that's a turnaround district. They attribute ASU with being an 
important integral part of turning around that district.
    The second imperative is excellence. So when we were going 
for excellence in our teacher prep program, the first thing we 
did was reduce our education courses by 25 percent. We 
increased content courses, arts and science--and, Senator 
Alexander, what you were speaking to--but not any arts and 
science, not Chemistry 101 and 102, because we knew that we had 
to design science courses with scientists.
    The Dean of Arts and Science is an internationally known 
scientist. He said to me that two of us were going to change 
the world, so this is part of my path to getting there. And we 
designed general ed courses that were integrated inquiry, 
getting a lot of wrong answers, like scientists do, to get to 
the right answer, not multiple choice.
    So we designed a course called Forensics--I didn't design 
it. They designed it--where students get a virtual dead body--
so far, no real dead bodies--and they figure out what happened 
in order to get that person to be dead. Students are signing 
up. One we were going to call Sex, but we decided that that 
might be too provocative, and I think we call it Reproduction.
    We've done the same with math. We have done this in 
partnership with arts and science. We have a Nobel prize winner 
who designed a course in sustainability. The College of Nursing 
designed a course in health. We say that it takes an entire 
university, an entire community to prepare a teacher. So when 
we look at programs that don't have the resources that a place 
like ASU has or NYU has, or Vanderbilt--we have marshaled all 
those resources to prepare teachers.
    One of the things we also do is we used our TIF grant, 
which is incentive funds, for in-service teachers, and the 
assessment is a performance assessment. We said if it's good 
enough for in-service teachers, we're going to use it for our 
undergraduates getting ready to go into the classroom.
    NCTQ noted us as being one of the best programs in clinical 
experiences because if our students do not pass their 
performance test twice, they are counseled out of education. 
They will not get certification. We do not think it's the 
birthright of every person to become a teacher. So we counsel 
them into something that they can do.
    I was an English lit major. I never heard anybody when I 
read books. So I think that we can also encourage our kids to 
be in those majors as well.
    The last thing is access. Our program has 35 percent 
minority students. We graduate about 100 Native Americans every 
year. We are on reservations. We have right now an early 
childhood special ed program on the Navajo Nation.
    We also--and no one ever talks about community colleges. 
Access to teacher preparation is through community colleges for 
places like ASU. Sixty percent of our students come from 
community colleges. We are in partnership--it has taken a long 
time, 4 years. The TQP grant provided funds for community 
colleges, school districts, and our faculty to design content 
courses that their students take in community colleges that 
transfer to ASU, again, based on national standards.
    I guess what I want to say in terms of recommendation--what 
my colleagues have already said--is that the TQP grant has been 
essential in reforming what we've done. But we have scaled it 
up. We have had complete buy-in from the president and the 
provost and the dean--me. It is not a side program. It is the 
program that we do.
    Thank you.
    [The prepared statement of Ms. Koerner follows:]
               Prepared Statement of Mari Koerner, Ph.D.
                                summary
    Mary Lou Fulton Teachers College at Arizona State University, an 
RU/VH (research university with very high research activity), is ranked 
#18 by U.S. News and World Report. As one of the largest colleges of 
education in the country, the teacher education program has about 3,200 
undergraduates and 600 graduate students. In addition we have about 
2,200 graduate students in master's degree programs, an Ed. D. program 
and Ph.D. programs totaling 6,000+ students.
    MLFTC has a record of leveraging Federal funds for systematic 
reform in our teacher education programs. We have implemented, studied, 
sustained and scaled a rigorous model of teacher preparation. We began 
with 7 original school district partners in 1999 and are scaling up to 
29 school districts and 130 schools. We work in partnerships with other 
colleges at the university, especially arts and science, engineering, 
community colleges, public and charter schools, Teach for America, 
donors and foundations. We continue to assess our programs and improve 
the quality of our graduates who are overwhelmingly hired by our school 
partners. As a testimony to our innovative and replicable model of 
teacher preparation, in 2013 alone, we hosted over 20 institutions and 
State departments who were interested in learning about our programs. 
This includes the Iowa Department of Education which is providing 
funding for teacher prep programs willing to adopt our residency 
program. Through our intellectual resources, external funding and hard 
work, we increased the achievement of children all over Arizona. 
Specifically, we:

    <bullet> Deepened subject matter by increasing content rigor with 
25 percent fewer pedagogy courses in our programs that translated into 
more math, science, and humanities courses.
    <bullet> Address the fragmentation of content and field experience 
by:

        <bullet>  Making a strong connection between clinical 
        experience and coursework.
        <bullet>  Implementing a rigorous year-long student teaching 
        residency; i.e., iTeachAZ.

    <bullet> Use timely and substantive feedback to students and 
clinical faculty by implementing a performance assessment process--the 
TAP Instructional Rubric by which we can screen candidates out of 
teacher certification.
    <bullet> Enrich learning experiences with cutting edge technologies 
creating interactive digital games specially designed to teach 
professional skills.
    <bullet> Developed best practice curriculum based on best 
attributes of Teach for America (Sanford Inspire Program).
    <bullet> Leverage resources to strengthen access to programs by 
creating partnerships with philanthropists and not-for-profits who 
provide scholarships for undergraduate students.

    In 2004, the College of Education was awarded a $9.97M ``Teacher 
Quality Enhancement'' (TQE) grant called PDS TENET from the U.S. DOE. 
The goals included recruitment, preparation, and retention of top 
quality teachers in high-poverty urban and remote districts in Arizona 
to increase student achievement in these districts. In one of the 
original school districts, we are preparing the 16th generation of 
teachers. The then-failing school district has raised its achievement 
to a current grade of B+ crediting much of the improvement to ASU.
    Key learnings from TENET informed ``PDS NEXT.'' In 2009, the 
college was awarded a $34M ``Teacher Quality Partnership'' grant, NEXT. 
Due to Federal cuts, the TQP grant was significantly reduced over the 
5-year period (receiving $24.7M). Despite this challenge, in its final 
year, the project has met or exceeded its objectives, including:

    <bullet> Reforming 40 teacher prep courses in five core subjects at 
ASU and its 11 partnering community colleges.
    <bullet> Developing the model iTeachAZ Data Dashboard providing 
data regarding teacher candidate performance.
    <bullet> Creating the Professional Learning Library 
(www.pll.asu.edu), an online resource center that provides resources to 
inservice teachers and preservice teachers.
                        recommendations for tqp
    1. Emphasis on institutionalization and sustainability requires:

        a.  Evidence of ``buy-in'' from the university president, chief 
        academic officer, dean and other colleges.
        b.  Plans to scale the model within a given timeframe.
        c.  Articulation and demonstration of how the grant funds will 
        include college faculty and administrators in the structure of 
        the project and in the curriculum redesign.

    2. Integrate with existing academic programs and their faculty to 
achieve program quality and maximize grant impact.
    3. Include undergraduates in ``residency'' programs because 
currently the Federal Government only allows stipends for graduate 
students.
                                 ______
                                 
    Chairman Harkin, Senator Alexander and members of the 
subcommittees, thank you for inviting me to talk with you about teacher 
preparation.
    Much of what we do at Arizona State University is guided by a 
vision of an activist President, Michael Crow and the compelling charge 
to make the world a better place. We take pride in our students. Often 
children of families who have struggled to create a path for them to go 
to college, they are the first college bound generation and ASU is 
their ``dream'' school. Without hyperbole, they are living proof of the 
American Dream. Our students aspire to become teachers and see teaching 
as a life-long profession. President Crow's vision is compelling and 
serves as a charge for our college.

          To establish ASU as the model for a New American University, 
        measured not by who we exclude, but rather by who we include 
        and how they succeed; pursuing research and discovery that 
        benefits the public good; assuming major responsibility for the 
        economic, social, and cultural vitality and health and well-
        being of the community.

    Many teachers come from working class families and teaching becomes 
a way for them to enter middle class. I am one of those stories; child 
of an Italian immigrant who only finished 8th grade and yet had a 
daughter move through public education to receive a doctorate and 
become a dean of a college in a top notch university. I went to Chicago 
Public Schools and the University of Illinois at Chicago. And then 
became a teacher through what would now be called an ``alternative 
route.'' Even though I was always successful academically and graduated 
from college, through double promotion, at 19 years old, I can say with 
confidence, I had no clue how to teach. Perhaps the reason I value what 
we do in Mary Lou Fulton Teachers College is because I had to learn the 
hard way--through trial and error--while the students in my classrooms 
waited for their teacher to get to be just even good enough.
    I take great pride in who we are and what we do at ASU. I cannot 
emphasize enough that we have the full support of the President, the 
Provost and Deans of all the other colleges. I have never been told to 
``slow down,'' ``take it easy,'' ``what are you doing!'' And because of 
that, our college has built on a strong history of teaching, service 
and research to prepare the best teachers and researchers, fulfilling 
our mission: ``to be a constructive force in education'' which sets a 
``new standard for teaching, discovery and innovation.'' We have built, 
in my opinion, the college of the 21st Century where research guides 
what we do but does not slow us down. Where ``scaling up'' is necessary 
because why would we do pilots when only a few of our students could 
get the best practices? And where we understand making mistakes means 
you are moving beyond discussion to action. We realize we need a lot of 
people as partners, including and especially the Federal Government and 
their resources because we have a track record of leveraging those 
funds to make systematic reform in our teacher education programs.
    Mary Lou Fulton Teachers College at Arizona State University, an 
RU/VH (research university with very high research activity), is ranked 
#18 by U.S. News and World Report. As one of the largest colleges of 
education in the country, our teacher education program has about 3,200 
undergraduates and 600 graduate students. In addition, the college also 
has about 2,200 graduate students in master's degree programs, an Ed. 
D. program and Ph.D. programs totaling 6,000+ students.
                            a brief history
    Our history is part of who we are and the very identity of the 
entire University. Here is a brief timeline which shows the cultural 
and core importance of our college to the university.

    1886: Arizona State University was founded as a Normal School in 
the Territory of Arizona, the first institution of higher education in 
Arizona, and was established to train public school teachers and also 
teach ``husbandry'' (agriculture) and the mechanical arts.
    1925: The Normal School, with 41 faculty members and 672 students, 
became the Tempe State Teachers College with the power to establish a 
4-year college curriculum offering a Bachelor of Education. A 2-year 
curriculum was also offered, leading to a diploma to teach in Arizona 
elementary schools, and in an additional 2 years earned a Bachelor of 
Education degree.
    1928: The Bachelor of Arts in Education was authorized. Students 
completing a 4-year course were eligible for graduate work in education 
at a university, and would receive secondary certificates permitting 
them to teach in Arizona high schools. The requirement for diploma and 
grade school teaching certificates increased to a 3-year curriculum.
    1958: The people of Arizona voted two-to-one on a State ballot 
proposition changing the name of the institution to Arizona State 
University. The College of Education was one of the four core colleges 
of the university
    2009: The College of Teacher Education and Leadership (CTEL) and 
the School of Education Innovation and Teacher Preparation are merged 
along with all of the teacher preparation programs at Tempe, 
encompassing all initial teacher certification (undergraduate and 
graduate). Already having programs on the Downtown Campus, CTEL now had 
programs on four campuses.
    2010: The College of Teacher Education and Leadership and The Mary 
Lou Fulton Institute and Graduate School of Education merged to impact 
education locally, nationally, and globally and were re-named The Mary 
Lou Fulton Teachers College, the college we are now.

    These are our current demographics of our students:

 
------------------------------------------------------------------------
                                                           Undergraduate
------------------------------------------------------------------------
American Indian/Alaska Native............................          87
Asian....................................................          98
Black/African-American...................................         118
Hispanic/Latino..........................................         696
International............................................          17
Native Hawaiian/Pacific Islander.........................           7
Two or More Races........................................          81
Unspecified..............................................          21
WHite....................................................       2,030
                                                          --------------
  Grand Total............................................       3,155
------------------------------------------------------------------------

                    teacher education program today
    Over the last decade, we have implemented, studied, and scaled a 
rigorous model of teacher preparation that can be replicated 
nationally. One of our main goals in improving our teacher preparation 
program was to increase the rigor of our coursework, which included 
adding more mathematics, science requirements and humanities 
(especially for elementary majors). In the past, students were required 
to take only 1 upper division math course (a methods course), and three 
lower division courses--two of which were focused on mathematics 
pedagogy and not content.
    Often the issue of articulation with community colleges is 
overlooked. But, approximately 60 percent of our undergraduates 
transfer from community colleges. There are 11 community colleges from 
which most of our transfer students come. It is very important that we 
collaborate with the community colleges, especially regarding 
curriculum. We have little control of the curriculum or instruction the 
transfer students receive in their first 2 college years, so a major 
part of our college's undergraduate transformation involved maintaining 
open lines of communication with the community colleges.
    Five years ago we embarked on a process of revising lower division 
(100-200 level) course work for our teacher preparation program (funded 
by TQE grant). Most of the community colleges participated in this 
process that resulted in 40 new courses, many of which are now a part 
of our and the community colleges' required curriculum. As a result, 
our college and many community colleges now have a number of courses 
that are substantially identical, making transfer from community 
colleges to ASU much more streamlined. Mathematics, however, was the 
area that proved to be the most difficult to align between the 
community colleges and our college.
    The community colleges, math faculty from Arts and Sciences, as 
well as MLFTC faculty collaborated to design the new required 
mathematics courses. This took a lot of relationship and trust 
building. The new courses are aligned with the Common Core and 
research-based best practices for teaching mathematics. Even though 
some community colleges helped design the courses, there was 
significant resistance to adopting them for their own programs. The new 
courses are more difficult than the old courses and they do not have a 
pedagogical component--they are content only. We at ASU were persistent 
in communicating our vision for elementary teachers who are prepared to 
teach math to serve 21st Century needs. We conducted meetings with the 
community colleges, visited the community colleges, met informally as 
well as formally, and met with mathematics leaders from the other State 
universities to demonstrate the need for changes to math curriculum for 
teacher preparation. We also extended our hand to help the colleges 
revise their courses. We listened to their concerns and made some 
revisions to the courses based on their insights. The community 
colleges eventually adopted our vision for mathematics and have started 
to revise their courses to align with ours. The result of our 
collaborations with the community colleges concerning their curriculum 
is a generation of new teachers who are more equipped to teach 
mathematics than previously, especially at the elementary and middle 
school levels in Arizona.
    In addition, we made changes to our required science curriculum. 
The Dean of College of Liberal Arts and Science and I agreed to work 
together to revise the general education science courses to have them 
be more appropriate to what PreK-8 teacher will teach. The 
collaborative nature of this process has been challenging. I quickly 
realized that it was a revelation to the scientists that there were 
``standards'' that teachers actually had to engage. ASU is not unique 
in this respect--it's a challenge to get scientists anywhere to look 
beyond the lab. But as a result of building these courses, our 
scientists at ASU are now much more aware of what happens in K-8 and 
much more interested in looking at undergraduate science education as 
part of a continuum of learning. Framing our courses with the standards 
helps us reinforce that we are building on the good, important work 
being done at the K-12 level. The great thing about our courses is that 
they both reorient undergraduate science education and, thus, extend 
the continuum of science education, take steps to enhance the impact of 
K-8 teachers earlier in that continuum.
    We ended up with Reforming Science Education for Teachers and 
Students (ReSETS) initiative is a unique collaboration of world-class 
research scientists from ASU's College of Liberal Arts and Sciences and 
science education and curriculum experts from the Mary Lou Fulton 
Teachers College. ReSETS builds on the recognition that the quality of 
local, State, and national policy, as well as the vitality of future 
science innovation, relies on our ability to grow better non-
scientists. ReSETS is developing new science courses geared toward 
building science literacy in non-science major undergraduates, in 
general, and better serving the needs of preservice teachers, in 
particular. The courses break with the traditional discipline-based 
model of general education in a number of key ways.
    ReSETS serve as a model and include:

    <bullet> Transdisciplinary focus.
    <bullet> An exploration of the connections and concepts that cut 
across the natural sciences.
    <bullet> Stress the nature of science and science process skills, 
rather than disciplinary minutiae, is stressed.
    <bullet> A linkage to emerging State and national science 
standards, such as the Common Core and the Next Generation Science 
Standards.
    <bullet> Utilization of new tools to increase student engagement 
and assess science literacy (examples: Digital labs and Science 
Literacy Concept Inventory).

    These design features make ReSETS courses stress science as a way 
of knowing and reducing the unknown. Such a framework better serves 
future K-8 teachers, who need to impart the nature of science and 
science process skills within a standards-based context. It also 
benefits non-science major undergraduates for whom general science 
literacy is crucial to functioning as informed citizens in today's 
global community.
    In addition to ReSETS, all majors are required to take a new 
course, Sustainability Science for Teachers. This course was designed 
in collaboration with the School of Sustainability. Our Nobel Prize 
winning scientist, Dr. Lee Hartwell, designed the course; He and his 
team work with MLFTC faculty in teaching it. In the course, students 
learn about sustainability science content while grappling with global 
issues involving water, food, fuel, and other real issues facing the 
world at large. It is geared toward giving undergraduate teaching 
candidates the necessary knowledge and skills related to the challenges 
of improving human health and well-being while reducing human 
exploitation of natural resources. It is offered in a hybrid format--
half of the class is delivered online, while the rest is delivered in 
the traditional face-to-face format.
    Bringing in the School of Nursing, another addition to our 
curriculum is a Health Literacy course. Faculty in education and 
nursing created this course collaboratively. The course requires 
education majors to examine issues in health, nutrition, exercise, and 
healthy living. Like the sustainability course, it is delivered in an 
online format.
    Collaborations among our college, the community colleges, the other 
State universities, and other colleges in ASU (especially arts and 
sciences) were necessary. We believe it takes a whole university and 
partners to create excellent teachers.
                 year long residents--iteachaz and tqp
    The college has a long history of leveraging Federal grant funds to 
make systematic change in the way it prepares future teachers. In 2004, 
the college was awarded a $9.97 million ``Teacher Quality Enhancement'' 
(TQE) grant called PDS TENET from the U.S. DOE.
    The objectives of the TQE grant were to:

    <bullet> Objective 1: Recruit, prepare, and retain high-quality 
teachers in seven high-poverty urban and remote districts in Arizona 
using a Professional Development School (PDS) model.
    <bullet> Objective 2: To ensure high-quality teaching and increased 
student achievement in these districts.

    In 2009, Teachers College was awarded a $34 million ``Teacher 
Quality Partnership'' grant called PDS NEXT. To prepare teachers in 
school districts using the Professional Development School model where 
students spend their entire teacher preparation program in a school 
district taking courses while simultaneously completing clinical 
experiences. While the TQP award was welcomed by the college, we soon 
realized that we needed to re-examine both our grant-funded and college 
programs with the goal of creating one college-wide program built upon 
the strengths of each and the needs of the preservice teachers we 
serve. I want to be very clear that TQE was the driver behind thinking 
about everything we do in teacher education. Once we started to 
integrate it into our college, it was like a Dominoes game.
    Improving clinical experiences meant we had to think about 
improving content which meant we had to have positive relationships 
with Arts and Science faculty, which meant we had to recruit students 
differently and on and on.
    By the fall of 2010, college leadership and faculty had agreed on 
the components of our reformed teacher preparation program. Utilizing 
key learnings from the TQE PDS TENET grant and initial findings from 
the PDS NEXT grant, we redesigned our teacher preparation program in a 
way that met the mission of the Mary Lou Fulton Teachers College and 
the students it serves, the needs of our school district partners and 
the students they serve, the knowledge and research of our respected 
and internationally recognized faculty members, and the vision of ASU, 
the New American University, which encourages entrepreneurship and 
innovation.
    iTeachAZ began in 2010 with a pilot of 30 students in three school 
districts. By the fall of 2011, we expanded iTeachAZ to include 436 
students in 189 schools across 28 districts, many of which educate 
Arizona's most underserved students. We now have 589 students in 130 
schools across 29 districts.
    The signature component of iTeachAZ is a Senior Year Residency. The 
Senior Year Residency (SYR) fully integrates coursework and 
apprenticeship without increasing the amount of time it takes to earn a 
bachelor's degree. During the SYR, Teacher Candidates spend 4 days each 
week in pre-Kindergarten through 12th grade classrooms and 1 day 
completing pedagogy courses delivered at partner schools. Full-time, 
tenured and clinical faculty members deliver these courses at the 
school site with the intent of providing Teacher Candidates with just-
in-time opportunities to draw meaningful connections between their 
daily work in P-12 classrooms and the latest in education theory and 
research.
    The rapid scale-up of the iTeachAZ model required leveraging grant 
and college resources, engaging and training faculty in the new model, 
changing the ways in which we partnered with local school districts, 
and securing additional financial support for our teacher candidates so 
they could participate in the rigorous new program which required them 
to complete a full-time, 40-plus hour per week senior year residency 
prior to graduation. It required a commitment to challenge the status 
quo in teacher preparation, a license to innovate, an entrepreneurial 
spirit, and renegotiating university school partnerships with the focus 
on preparing a better brand of educator; one who can face the 
challenges of educating diverse groups of P-12 students in Arizona's 
schools and beyond.
    The iTeachAZ model is designed to capitalize on the opportunity of 
having multiple adults in the room by having Teacher Candidates act as 
co-teachers in the classroom, under the guidance of highly qualified 
mentor teachers. With two adults working together in the classroom pre-
Kindergarten through 8th grade students are afforded more opportunities 
for individualized attention, which will ultimately boost the 
achievement rates of Arizona's school students. We are now expanding to 
secondary programs.
    Teacher Candidates begin their SYR when new teachers in the 
district report for duty and follow the district calendar for the 
remainder of the year. The SYR experience is designed to provide 
Teacher Candidates with an opportunity to experience the rhythm of a 
full school year while learning the range of professional 
responsibilities inherent to the teaching profession. While in the 
classroom, Teacher Candidates work with Mentor Teachers who have 
undergone an application process, are selected by both the school and 
university, and complete special training in coaching and mentoring 
student teachers. In addition to co-teaching with mentor teachers and 
taking pedagogy courses, Teacher Candidates participate in district-
sponsored professional development, faculty meeting, professional 
learning communities, parent-teacher conferences, and school-wide 
events such as open houses, athletic competitions, and musical 
performances that occur after school hours.
    Collaborative supervision and mentoring are hallmarks of the 
iTeachAZ program. During the senior year residency, ASU faculty, mentor 
teachers, district specialists, and administrators work together to 
prepare program graduates to be effective teachers who focus on student 
achievement and ultimately, remain in the teaching profession. Figure 1 
shows the organizational structure of all iTeachAZ partnerships. As 
illustrated, achievement of P-12 students is central to all activities 
undertaken by the partners. Together, the components of the iTeachAZ 
partnership ensure a dynamic environment for teaching and learning 
which is responsive to the needs of all participants.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We see districts as full and responsible partners. School districts 
provide Teachers College with a district liaison, an onsite classroom 
in which Teacher Candidates complete coursework and highly qualified 
mentor teachers to support 25 to 30 Teacher Candidates per year. The 
role of the iTeachAZ Mentor Teacher is to serve as a coach who models 
and plans effective best teaching practices, creates a supportive 
classroom environment where Teacher Candidates are encouraged to take 
risks, and observes and provides specific feedback to Teacher 
candidates to ensure the preparedness of Teacher Candidates who enter 
the teaching profession as highly effective, reflective teachers. 
Mentors benefit from the partnership by leveraging the opportunity of 
having additional instructional leaders in the classroom to positively 
impact student learning. Additionally, mentor teachers hone leadership, 
coaching, and supervisory skills while hosting Teacher Candidates.
    Teachers College provides a full-time, onsite faculty member, known 
as a Site Coordinator, who works in the district supporting both 
Teacher Candidates and mentor teachers. The iTeachAZ coordinator 
teaches two courses, supervises 25-30 Teacher Candidates, serves as the 
college liaison for the partnership, and provides support to the mentor 
teachers involved in the program. Furthermore, Site Coordinators host 
quarterly governance meetings with district administrators to provide 
program updates and discuss ways in which to enhance the partnership. 
While the members of the Governing Board vary in each iTeachAZ 
partnership, the general make-up of iTeachAZ Governing Boards include 
the Site Coordinator, the district Superintendent or designee, a 
district Human Resource specialist, and principals of mentor teachers 
hosting Teacher Candidates.
    In addition to hosting Governing Board meetings, Site Coordinators 
also hold monthly meetings with mentor teachers and ASU faculty. These 
meetings focus on data talks where ASU faculty and mentor teachers work 
together to evaluate Teacher Candidate progress. Mentors also receive 
professional development on self-selected topics of interest to support 
their work with both Teacher Candidates and P-12 students. District 
partners compensate the mentor teachers for participating in the 
partnership and professional development opportunities provided by 
Teachers College faculty. Teachers College provides mentor teachers 
with a six-credit tuition waiver which may be used as payment for any 
course offered by ASU's 15 colleges.
    During the SYR, Teacher Candidates participate in a consistent 
cycle of observation, feedback, and coaching by ASU Clinical faculty 
and highly qualified mentor teachers. Each iTeachAZ Teacher Candidate 
is observed and evaluated four times per year by ASU faculty, using 
eight domains from the TAP Teaching Skills, Knowledge and 
Responsibilities Performance Standards Rubric (National Institute for 
Excellence in Teaching, 2013). Each of the indicators on the TAP rubric 
is scored from 1 to 5, with 1 indicating unsatisfactory performance, 3 
indicating proficient performance, and 5 indicating exemplary 
performance.
    This rigorous competency-based evaluation process is different from 
those used in traditional teacher preparation programs. All teacher 
candidates are required to reach proficiency (i.e., score of 3) in all 
indicators in order to successfully complete the program. If a teacher 
candidate is not making progress toward proficiency in the first 
semester of clinical experiences, the site coordinator, mentor teacher, 
and teacher candidate work together to develop and implement an 
intervention plan to support the teacher candidate's development. If a 
teacher candidate does not demonstrate proficiency by the end of the 
second semester, he or she will be given the option to repeat the 
residency or transfer to the college's non-certification Educational 
Studies program.
    The SYR, new curriculum, and close partnerships with community 
colleges and multiple school districts across Arizona have all been a 
departure from the way ASU previously educated teachers. As a result of 
our bold initiative, the Mary Lou Fulton Teachers College is being 
recognized as a leader in educational reform. Education Week featured 
iTeachAZ in an article in fall 2011 (http://www.edweek.org/ew/articles/
2011/11/16/12azteach_ep.h31.html), and in a recent review of 2,420 
teacher preparation programs across the country, NCTQ awarded iTeachAZ 
four out of four stars for our reformed student teaching experience 
(http://www.youtube.com/watch?v=u_Tw_ki0kks). Additionally, faculty and 
administrators from 20 colleges of education, each accompanied by 
school district administrators, have visited Teachers College to learn 
about the components of the iTeachAZ program. This includes the Iowa's 
Department of Education which is providing funding for teacher prep 
programs willing to adopt our residency program. These universities 
look to iTeachAZ as a model for reforming their teacher education 
programs to address the challenges of preparing teachers to educate who 
can meet the needs.
                    examples of innovative practices
    Quest2Teach is a series of game-infused virtual learning 
environments unified by a social-professional network, designed 
specifically for teacher education as a means to bridge between 
educational theory and its application in the field. In Quest2Teach 
(Q2T), future educators engage their virtual personae in authentic 
teaching practices, making continual decisions with immediate 
individualized feedback, with the ability to fail safely, play again, 
and achieve success in their personalized narrative as the protagonist. 
In-game meters and analytics are fed back into the larger professional 
network to evolve their real-world identity across semesters and 
student teaching, leveraging badges and gamified achievement layers in 
order to track, validate and inspire real world reflection and 
collaborations with digital colleagues, locally and internationally. 
Quest2Teach is the first of its kind in the practice of teacher 
education, and created in-house at the Mary Lou Fulton Teachers College 
(MLFTC) through a unique collaboration of Learning Scientists, Faculty, 
and our partner game-design studio. Design-based research with hundreds 
of MLFTC students has shown significant learning and engagement gains 
in Q2T. Moreover, students report an increased sense of confidence in 
their teaching, higher fluency in being able to discuss and engage in 
these practices, and learning how ``to actively do'' (rather than 
``know about'') these theories in practice. Quest2Teach was recently 
awarded ASU's President's Award for Innovation, and was also selected 
and filmed by the Joan Ganz Cooney Center (Sesame Workshop) to be 
featured in their upcoming documentary of innovative teaching 
practices.
    Sanford Inspire Program (SIP) at Mary Lou Fulton Teachers College 
has also leveraged private funds in our reform efforts. The Sanford 
Inspire Program has developed innovative ways to attract, prepare, and 
support excellent teachers. We have developed new messages and 
practices for reaching out to an expanded pool of high school students 
to share information about careers and leadership opportunities in the 
field of education. The Sanford team collaborated with faculty to 
design resources including a collection of protocols used by 
instructors to help teacher candidates make the important connection 
between what they learn in courses and what they do in their classroom 
placements. The Sanford team has also supported college-wide efforts to 
increase the rigor and relevance of clinical experiences. This includes 
redesign of field experience courses and creation of training for 
mentor teachers who play a significant role in the development of our 
new teachers. The Sanford Inspire Program has created dozens of 
resources to support teacher candidates in their coursework, all of 
which are available to other programs via the Professional Learning 
Library. The team is now working to create online resources that will 
allow school leaders and teacher educators to provide differentiated 
professional development to teachers to support continuous improvement. 
While funding for this work came from a private donor, all efforts are 
integrated with the college and will be sustained once funding has 
ended.
 tqp (teacher quality partnership) at mlftc in 2014 with sustainability
    The TQP grant (currently in Year 5 of 5 includes the following 
three objectives:

    <bullet> Increase the subject-area competency of ASU-prepared 
teachers through the reform of 40 lower-division subject area courses 
as part of the Teaching Foundations Project.
    <bullet> Increase the clinical competency of 600 ASU-prepared 
teachers through the iTeachAZ model (year-long student teaching 
residency, clinical faculty housed at school sites, a rigorous 
performance assessment process, co-teaching model, professionalism 
rubric).
    <bullet> Work with partner districts and the National Institute for 
Excellence in Teaching (NIET) to turn around at least 25 historically 
struggling partner district schools in nine districts and create sites 
of exemplary teacher preparation in hard-to-staff communities.

    Due to Federal cuts to education spending, the TQP grant was 
significantly reduced over the 5-year period (receiving only $24.7 
million of the planned $34 million). Despite this challenge the project 
has met or exceeded its objectives in the following ways:

    <bullet> The project not only implemented reformed teacher 
preparation for 9 original grant partners, but created a model that is 
now being used for all undergraduate teacher preparation programs at 
Mary Lou Fulton Teachers College. The project expanded its partnerships 
from 9 urban and rural partner school districts to 28 partner districts 
across the State of Arizona. The project exceeded its goal of training 
600 teachers and has currently trained more than 1,500 exemplary new 
teachers through the rigorous residency-based teacher preparation 
model.
    <bullet> The project developed the iTeachAZ Data Dashboard and 
Mobile Data Collection App that provide accurate, timely data regarding 
teacher candidate performance. This dashboard system is a model for 
other teacher preparation programs.
    <bullet> Developed the Professional Learning Library 
(www.pll.asu.edu), an online resource center that provides resources to 
in-service teachers, ASU instructors, mentor teachers, and teacher 
candidates aligned to the iTeachAZ model. The PLL also serves community 
partners, district partners, and other agencies.
    <bullet> Implemented the Teacher Assessment Performance (TAP) 
rubric to evaluate all of our candidates.

    I cannot emphasize the impact of the Federal Government role in the 
success of our programs. Not only have the additional resources been 
important, the ideas and plans we have had to implement, the support of 
the program officers, the need to bring in other thought partners has 
helped define our reform efforts. I have planned to sustain the grant 
resources by slowly moving positions into college budget lines and 
extending the impact by finding ways to keep many of the personnel in 
their roles.
                   evaluation of program and students
    The TAP rubric, used with in-service teachers as part of the 
Teacher Incentive Fund (TIF) grant does appear to be an important 
contributor to and a valid measure of teacher influence on student 
achievement and their decision to remain at their school. As a result, 
we use a modified TAP rubric as a tool to measure effectiveness during 
the senior year residency, and as a potential predictor of future 
effectiveness once in a classroom. Overall, TAP scores of iTeachAZ 
teacher candidates are impressive, with students in their final 
semester typically scoring what veteran teachers in TIF schools score.

    <bullet> When comparing observation scores, teacher candidates show 
teaching skills comparable to veteran teachers. Specifically, scores on 
Instructional Planning and Activities/Materials were almost identical 
(teacher candidates, N = 489, compared to experienced teachers, N = 
1,442).
    <bullet> During their senior year residency, MLFTC teacher 
candidates achieved an average score within the Proficient range on 
each of the eight performance indicators measured by the TAP rubric.

    Teacher candidates, on average, have an overall observation score 
of 3.17 which is higher than the overall average of 3.04 for in-service 
teachers (N = 1,669) in a related ASU grant.
    We have systematically worked within ASU and community colleges 
throughout the State of Arizona to increase rigor in freshman and 
sophomore level classes. Effective in Fall, 2011 we have strategically 
reformed 147 classes in English, Math, Science, Social Studies, and the 
arts. Over 2,500 students have been impacted by these classes that 
strive to increase content knowledge in core areas for future teachers.
    We use several strategies to gain information about the performance 
of our students post-graduation including: (a) our graduates' 
performance on State certification tests, (b) value-added statistical 
analyses of our graduates' student achievement, (c) career ladder 
progression, and (d) principal perceptions of our graduates as compared 
to a State average.
    The most recent AEPA scores indicate that 98.5 percent of our 
teacher candidates achieved proficiency and became eligible for Arizona 
certification. Our graduates' pass rate was higher than the State 
average in Social Studies and equal to the State average in Elementary 
Education, English, Art, Music, Special Education, and Secondary 
Professional Knowledge. Scores of the Secondary Professional Knowledge 
assessment, revealed that the pass rate of ASU teacher candidates was 
slightly higher than the State average.
    Recently the Arizona Department of Education asked 1,200 principals 
to evaluate their beginning teachers on a variety of essential teaching 
skills. As can be seen in Table 1, our graduates outperformed the State 
average on every indicator.

    Table 1.--Percent Meeting or Exceeding Principal Expectations For
                     Beginning Teachers P(N = 1,197)
------------------------------------------------------------------------
                         Item                             ASU    Arizona
------------------------------------------------------------------------
Demonstrates in-depth knowledge and understanding          87.8     86.4
 about the subject(s) he/she teaches..................
Creates a classroom environment conductive to student      83.5     81.9
 learning.............................................
Designs lessons aligned to the academic standards.....     88.5     86.3
Implements research-based learning theories and            80.5     77.8
 instructional strategies.............................
Uses a variety of developmentally appropriate              80.7     78.6
 strategies to engage students in their learning......
Uses a variety of appropriate strategies to support        79.1     78.3
 literacy development.................................
Effectively integrates technology into instruction to      80.3     78.9
 support student learning.............................
Incorporates English Language Development (ELD)            74.0     72.7
 standards into instruction...........................
Uses multiple methods for assessing student learning..     82.9     81.5
Differentiates instruction to meet the learning needs      75.5     73.9
 of all students......................................
------------------------------------------------------------------------
Note. Sixty-three percent response rate.

    In 2011-12, 556 (67.3 percent) Teachers College graduates served in 
318 AZ Title I schools, which is 26.0 percent of the total AZ Title I 
schools (according to the 2012 ED Facts State Profile for Arizona 
released by the U.S. Department of Education).
    In other words, there is a recent MLFTC graduate employed in 
approximately one out of every four Title I schools in Arizona.
    The Arizona Department of Education projects that new high school 
requirements have led to a statewide shortage in math and science 
teachers. The Mary Lou Fulton Teachers College has responded to this 
challenge by producing 126 certified or licensed secondary math and 
science teachers during AY 2011-12 alone. As illustrated in the graphs 
below, our math program enrollment has seen an 11-fold increase from 
2007 to 2012 and science program enrollment has seen even more growth, 
with an 86-fold increase from 2007 to 2012.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        recommendations for tqp
    Based on our experience in leveraging Federal funds to reform the 
largest teachers college in the Nation, we do have recommendations for 
improvements to the Higher Education Act to help institutions of higher 
education strengthen their teacher preparation programs:

    1. Emphasis on institutionalization and sustainability requires:

        a.  Evidence of ``buy-in'' from the university president, chief 
        academic officer, dean and other colleges.
        b.  Plans to scale the model within a given timeframe.
        c.  Articulation and demonstration of how the grant funds will 
        include college faculty and administrators in the structure of 
        the project and in the curriculum redesign.

    2. Integrate with existing academic programs and their faculty to 
achieve program quality and maximize grant impact.
    3. Include undergraduates in ``residency'' programs because 
currently the Federal Government only allows stipends for graduate 
students.

    MLFTC has worked through obstacles to improve the lives of children 
in schools all over the State. There are many lessons learned.
    They include:

    1. Using TQP to scale up rapidly with no excuses.
    2. Some people don't want to be part of a reform effort so they 
chose to do other things.
    3. Team effort is not a slogan but a necessity.
    4. This work has become more difficult with the de-
professionalization of teachers.
    5. We are fortunate to be teachers.

    The Chairman. Thank you, Dr. Koerner.
    Mr. Daly.

    STATEMENT OF TIMOTHY DALY, PRESIDENT OF THE NEW TEACHER 
                     PROJECT, BROOKLYN, NY

    Mr. Daly. Good afternoon. Thank you, Mr. Chairman and 
members of the committee, for having me here today. As you 
heard in the opening, I work for The New Teacher Project, which 
is a nonprofit organization that works with districts and 
States on basically one problem: If we all agree that low-
income and minority students should have access to effective 
teachers, what would it actually take to do that?
    In a bunch of ways, our organization is different than some 
of the other folks represented up here. I'm a little bit 
embarrassed to be the only one that's a Mister instead of a 
Doctor, compared to my colleagues at the table. But part of 
that is because our design is not to be housed in an 
institution of higher education, but rather to work on the 
ground with districts and States and to partner with them to 
find teachers that can be successful in low-income communities.
    So there's a few things that you should know about us. 
First, we don't believe that teachers are the problem but the 
solution. And we have a nerdy, unbridled passion for helping 
people learn the art of great teaching.
    Second, we are not an institution of higher education. 
We're a nonprofit organization founded by and composed 
primarily of former classroom teachers. We don't focus on 
credits or seat time. What matters to us exclusively is how our 
teachers perform when they're in the classroom.
    We do not have a collection of permanent faculty members 
with terminal degrees. It's more important to us that the folks 
who are instructors in our programs were effective teachers in 
the recent past. So we're looking for folks that have been out 
of the classroom no more than a couple of years, who know what 
today's current realities are and who also understand today's 
current learning standards.
    We work at scale to prepare the teachers that our districts 
need. Since 1997, we have prepared over 50,000 career changers 
and recent college graduates for the classroom. Almost all of 
those folks teach math, science, special education, or 
bilingual education.
    We diversify the workforce. One of the things that our 
programs are particularly successful at doing is attracting 
African-American, Latino, and male candidates into the 
profession.
    We believe that we are accountable for the results of our 
graduates, and we track the results of our graduates. Once they 
enter the classroom, we assess each one of our teachers across 
multiple dimensions, and only those who are getting results in 
the classroom are permitted to have a career in education.
    So just to be clear, our relationship with our teachers 
does not end when they become teachers. In their first years in 
the classroom, we assess them, and we refuse to give them 
permanent certification if they're not doing a good job. That 
means that the districts can no longer employ them. I'd be 
happy to talk more about that.
    It is sometimes a tug of war with our districts because 
they want to keep many of the folks that we prepared that we do 
not believe should continue teaching. But for us, that was the 
only way that we could ever be confident that we were putting 
our name to folks who are going to do right by students in the 
long term.
    We evolve our programs rapidly based on what we see in the 
field. Because we have more information now than we ever had 
before about what's going on with our teachers, including 
surveys of their own students, it means that each year, we make 
changes to our training.
    We care deeply about how our teachers perform in the 
classroom, and we believe that policymakers should, too. 
Currently, though, as you all have heard already, I think, from 
the other folks, the Federal oversight of teacher preparation 
has focused on tracking various inputs and process milestones. 
But decades of research have not shown very much of a 
relationship between the things that we currently track and 
performance in the classroom.
    So as a field, we actually know way too much about who 
enters the teaching profession and not nearly enough about what 
happens when they get there. So, in short, we're tracking the 
wrong stuff. There have been a lot of great ideas--I think you 
heard some of them already--to change this. Senator Bennet has 
a great bill called the GREAT Act that would push us in that 
direction as well.
    But there are two things that I would ask you to consider 
today. One is to make a grand level swap around title II. And 
instead of saying, ``Which stuff could we cut out of title II 
reporting,'' start with a blank slate and say,

          ``Do we need to know any of this stuff that we're 
        currently collecting under title II, and how much of 
        that would we give up if we could know one thing, which 
        is can we establish that every program that prepares 
        teachers needs to know how they perform in the 
        classroom and needs to be able to track that on an 
        ongoing basis?''

    I think there are limits to how much from here you want to 
tell them exactly and what they must do with that information. 
But most universities haven't the slightest ability to know, 
because, as we've heard, people teach across State lines, 
people teach in large districts, small districts, and in many 
of those districts, there's no effort currently to collect that 
information.
    It's much easier for us because we tend to work with large 
districts. So we know that if we recruit teachers for Chicago, 
those teachers are going to be in Chicago public schools. We 
can go to Chicago public schools and find out how they're 
doing. It would be much more difficult if they were in 
Wisconsin and Michigan and Indiana as well.
    I think the one role that you all uniquely can play is to 
make it possible for programs to get information on how their 
candidates are doing on a short-term basis so they can 
incorporate that. I would trade almost everything that's 
currently in title II if we could get that.
    The second major change is around title IV. We now have so 
many different kinds of programs that did not exist a 
generation ago. You've heard about the effort for the CAEP 
standards to apply to all of them, which I think is a great 
idea. But alternative programs that are not based in 
universities face a couple of permanent structural 
disadvantages when it comes to making access to teaching 
affordable.
    One of them is that our candidates do not qualify for 
Federal financial aid. So in many States, we can certify the 
teachers, we can provide them their course work, we can decide 
whether they have a job or not, but the costs that the 
candidates incur to go through the program--they cannot get 
financial aid to subsidize those costs. That means that there 
are States where some of the highest performing programs are 
out of reach of financial aid.
    We also, for example, in our programs can give AmeriCorps 
education awards to the candidates that go through our program 
as an incentive for them taking on a life of service as 
teachers. However, they cannot use those AmeriCorps education 
awards to offset the cost of becoming certified through our 
programs.
    So we often have folks who are mid-career, who worked hard 
to pay off their loans, and then when they got to the point 
where they wanted to enter teaching, they were unable to use 
the AmeriCorps awards that they were using to offset those 
costs. So they end up holding an award that went unused and 
paying out-of-pocket.
    If we could accept AmeriCorps education awards, and if our 
candidates had access to financial aid, we could grow and 
expand to many more places. Without those sorts of things, 
there's simply going to be a ceiling where the economics of 
moving into rural areas, the economics of moving into areas 
where the district cannot pay the cost of creating teachers 
will limit where we go and what we do.
    Thank you.
    [The prepared statement of Mr. Daly follows:]
                   Prepared Statement of Timothy Daly
    My name is Tim Daly, and I am the president of TNTP, a national 
non-profit dedicated to ending the injustice of educational inequality. 
Founded in 1997 as The New Teacher Project, we work with schools, 
districts, and States to provide excellent teachers to the students who 
need them most and to advance policies and practices that ensure 
effective teaching in every classroom. We are one of the Nation's 
largest teacher preparation programs, having trained over 50,000 
educators to serve in low-income communities.
    We have learned one thing above all: it is very difficult to 
predict in advance who will be successful in the classroom, but a 
teacher's early track record is an exceptionally good predictor of his/
her later effectiveness. Teachers who start strong are able to grow 
quickly with experience; new teachers who struggle with critical skills 
like classroom management rarely learn how to do it over time.
    We therefore recommend two major shifts as Congress considers 
reauthorization of the Higher Education Act:

    1. Congress should redesign the accountability measures for teacher 
preparation providers, replacing the current focus on admission 
criteria and program completion to instead emphasize whether the 
candidates those programs prepare are effective once they are in the 
classroom, replacing current measures that focus on program admission 
and completion. The true measure of a program should be the performance 
of its graduates with real students in real schools.
    2. Congress should embrace and support high-quality, non-university 
preparation providers--those with a track record of success and a 
commitment to diversifying the new teacher pool--by enabling 
participants in such programs to access Federal student aid. At 
present, some of the most successful teacher pipelines available to 
districts face a permanent, structural disadvantage relative to 
traditional university programs.
                               in summary
    We believe that we--and other innovative teacher preparation 
programs, traditional and alternative--are rapidly discovering new 
approaches to better prepare teachers for success early in their 
careers. As Congress considers reauthorization of the Higher Education 
Act, it should take this moment to reset expectations for all programs 
to account for these new discoveries: demanding data that focuses on 
the outcomes that really matter--student success--and enabling teacher 
candidates to access the same set of financing tools regardless of 
where they seek their preparation. We look forward to helping Congress 
in any way to make such changes, and I look forward to your questions 
today.
                                 ______
                                 
    Thank you Mr. Chairman and members of the committee for having me 
here today.
    My name is Tim Daly, and I am the president of TNTP, a national 
non-profit dedicated to ending the injustice of educational inequality. 
Founded in 1997 as The New Teacher Project, we work with schools, 
districts, and States to provide excellent teachers to the students who 
need them most and to advance policies and practices that ensure 
effective teaching in every classroom. Given our organizational mission 
and work, we are pleased to have the opportunity to share our expertise 
in preparing teachers for early career effectiveness, and to offer 
suggestions for how Federal policy can encourage all programs to adopt 
policies that promote great teaching and enable successful programs to 
grow.
    TNTP is one of the largest teacher preparation programs in the 
United States. To date, we have recruited or trained more than 50,000 
teachers to work in some of the highest-need schools in the country. 
Through this experience and through research into teacher performance 
across several large districts, we have learned one thing above all: it 
is very difficult to predict in advance who will be successful in the 
classroom, but a teacher's early track record is an exceptionally good 
predictor of his/her later effectiveness. Teachers who start strong are 
able to grow quickly with experience; new teachers who struggle with 
critical skills like classroom management rarely learn how to do it 
over time. This is true whether we looked at our own teachers or those 
prepared by other programs.
    Given that evidence, all teacher preparation programs should focus 
on helping teacher candidates master the skills they need to create a 
positive learning environment from their very first day in the 
classroom. There is no standard program design that will guarantee 
excellence--teaching is too complex to follow a rote training model--
but we are certain that the current measures that Congress requires to 
track programs under title II do not tell us whether programs are 
succeeding in their missions, and don't encourage States to set 
meaningful bars for quality in the preparation programs they approve.
    We therefore recommend two major shifts as Congress considers 
reauthorization of the Higher Education Act:

    1. Congress should redesign the accountability measures for teacher 
preparation providers, replacing the current focus on admission 
criteria and program completion to instead emphasize whether the 
candidates those programs prepare are effective once they are in the 
classroom, replacing current measures that focus on program admission 
and completion. The true measure of a program should be the performance 
of its graduates with real students in real schools.
    2. Congress should embrace and support high-quality, non-university 
preparation providers--those with a track record of success and a 
commitment to diversifying the new teacher pool--by enabling 
participants in such programs to access Federal student aid. At 
present, some of the most successful teacher pipelines available to 
districts face a permanent, structural disadvantage relative to 
traditional university programs.
                 tntp and its teaching fellows programs
    First, let me say a little about our organization and our history 
in teacher preparation. Since 2000, TNTP has operated teacher 
preparation programs in districts around the country. We began in New 
York City, where nearly a quarter of active math, science, and special 
education teachers started their careers through our Teaching Fellows 
program. We currently operate in 12 States, plus the District of 
Columbia, recruiting over 2,000 teachers to hard-to-staff schools 
annually. In brief, we train more teachers each year than all but the 
largest State university schools of education.
    Admittedly, we are different than most institutions that train 
teachers:

    <bullet> We are not an institute of higher education. Instead, we 
have worked to develop our own program, TNTP Academy, to provide the 
training and support new teachers need. Our program is strong enough 
that we have secured approval to certify our own teachers in most of 
the States where we work, without a relationship to a college or 
university.
    <bullet> We do not focus on credits or seat time. Our teacher 
candidates teach full-time during the day while earning their 
certificate during nights and weekends; as such, we have to make the 
most out of the limited time we have with each candidate. To do so, we 
prioritize practical skills that will help them succeed immediately.
    <bullet> We do not have a collection of permanent faculty with 
terminal degrees. We hire effective classroom teachers from the 
communities we serve to share their knowledge and real-world teaching 
experience with our candidates; we believe that the people best suited 
to train and coach new teachers to become effective are those who have 
done it themselves and who have a track record of helping high-need 
students make significant learning gains.
    <bullet> We work at scale to prepare the teachers districts need. 
All of our programs operate in partnership with districts and States to 
recruit and train teachers in hard-to-staff grades and subjects. We 
seek candidates who are eager to take on these challenging assignments 
and prepare them specifically to work in high-need schools.
    <bullet> We believe we are accountable for the results our teachers 
get in the classroom--and track it. We do not train our teachers and 
send them out into schools, thinking our job is complete. Instead, we 
use a variety of evidence from their classrooms to assess the 
performance of our Fellows throughout their first year, ensuring that 
they are developing critical skills and getting results for their 
students they serve, and use multiple measures to assess their 
performance. If they are not developing into effective teachers, we do 
not grant them final certification.
    <bullet> We evolve our programs rapidly based on what we see in the 
field. We are not content to train teachers who are middle of the pack. 
We use the data we collect on our teachers each year to make changes--
some small, some large--to ensure that each cohort of teachers we 
recruit will be better prepared and capable of leading students in our 
partner districts to even greater success.
                   our approach to preparing teachers
    That last point--on evolving our programs--is how we learned that 
critical lesson about the importance of a teacher's first year. Our 
programs haven't always operated the way that they do now. Originally, 
our programs looked much like every other teacher preparation provider: 
we provided a broad, extensive pre-service training for our Fellows, 
and then assumed that while our graduates would struggle mightily at 
first, they would become effective with hard work and support from 
their peers and school leaders.
    As increasingly rigorous evaluations of teachers were completed, 
however, we found that our Fellows were generally matching--but not 
consistently outpacing--the performance of other new teachers (whether 
from traditional or alternative routes). That wasn't good enough for 
us. We knew that average performance was not sufficient to train great 
teachers.
    Using the latest research and our own experiences, we sought to 
rebuild our pre-service training program from the ground up to ensure 
that teachers master the most essential instructional skills first. 
With that foundation in place, they are prepared to make a difference 
on day one and poised to rapidly develop advanced teaching skills 
during their first year. We call this approach Fast Start. It is 
grounded in three key principles: a clear curriculum focused only on 
the most essential skills; intensive practice of these skills, and; 
specific feedback on what teachers should do differently the very next 
lesson.

    <bullet> Focus: Fast Start focuses on four critical skills most 
closely linked to first-year success: delivering lessons clearly, 
maintaining high academic standards, maintaining high behavioral 
standards and maximizing instructional time.
    <bullet> Practice: Like athletes or musicians, teachers need to 
learn by doing--but most programs spend too much time on theories about 
teaching. In Fast Start, teachers spend 26 hours in intensive, hands-on 
practice activities beyond the time they spend actually teaching in 
real, summer school classrooms.
    <bullet> Feedback: Every Fast Start participant benefits from 32 
hours of one-on-one and group coaching to help them constantly fine-
tune their use of essential instructional techniques.

    Once in the classroom, we offer coaching and support that is 
tailored to the individual needs of each Fellow as they advance toward 
mastery-level skills. We also embed practice of those advanced skills 
into the content-oriented seminars Fellows must complete during their 
first year so that they can practice new teaching techniques at the 
same time as they bolster their pedagogical expertise in their 
particular teaching subject.
    What we've learned so far is promising.

    1. First, teachers can improve rapidly during even a 5-week pre-
service training program if given enough opportunities to practice. In 
each of our four critical focus competency areas, participants were 
more than twice as likely to demonstrate proficiency by the end of 
training as they were at the outset of training.
    2. Second, teachers who master these essential skills during pre-
service training are more likely to be successful in their first full 
year in the classroom. Teachers who performed better during Fast Start 
were more likely to meet our standards for first-year success at the 
end of the year.
    3. Finally, preparation programs should view pre-service training 
like a training camp where not everyone will make the cut, because 
actual classroom performance is a powerful predictor of future success. 
In the summer of 2012, we only recommended around two-thirds of our 
Fast Start participants to begin teaching.
                  the first year is the most important
    Why do we place so much emphasis on teacher's performance in the 
first year? Because our experience, and the best research in the field, 
suggests that a teacher's first year is the most important year of 
their career. As we detailed last year in our report Leap Year,\1\ not 
all new teachers struggle; they perform at different levels and improve 
at different rates. We also learned that teachers' initial performance 
predicts their future performance; teachers with higher observation 
scores at the beginning of the year were more likely to be strong 
performers at the end of the year as well. Most importantly, first-year 
teachers who are purposeful in their growth, responsive to feedback, 
and focused on student understanding develop the fastest, while those 
who struggle may even regress in their performance over the course of 
the first year.
---------------------------------------------------------------------------
    \1\ ``Leap Year: Assessing and Supporting First-Year Teachers,'' 
TNTP, 2013.
---------------------------------------------------------------------------
    Using Fast Start, we have become one of the first teacher 
preparation programs in the country to recommend teachers for 
certification based mainly on their performance in the classroom. Our 
evaluation model, the Assessment of Classroom Effectiveness (ACE), 
considers a wide variety of evidence--classroom observations, student 
surveys, principal ratings, and student achievement data (where 
available)--to create the fullest-possible picture of teacher 
performance. Our teachers receive ACE observations throughout the year 
and the model is designed to spur rapid growth by ensuring that 
teachers always know how they are doing and what they need to do to 
improve.
    As with Fast Start, teachers must reach a rigorous performance 
standard before we will recommend them for certification. In 2012, only 
82 percent of our Fellows received certification; the others were 
either extended with the opportunity to continue building skills, or 
denied certification and removed.
    What's important, though, is that early success is remarkably 
predictive of success in future years. A study\2\ released last year by 
researchers at the University of Virginia and Stanford found that for 
both math and English Language Arts teachers, those who performed well 
in their first year were likely to continue to have higher student 
outcomes than their peers for each of the next 4 years. Conversely, 
teachers whose results were in the lowest quintile in their first year 
were likely to remain there for the next 4 years as well.
---------------------------------------------------------------------------
    \2\ Atteberry, A. Loeb, S., & Wyckoff, J. (2013). Do first 
impressions matter? Improvement in early career teacher effectiveness. 
Calder Working Paper 90. Washington, DC: National Center for the 
Analysis of Longitudinal Data in Education Research (CALDER).
---------------------------------------------------------------------------
    As a result, we think that policymakers should encourage programs 
to help first-year teachers focus on mastering essential skills first. 
Although most of this will need to be done by States, who are 
responsible for approving programs, the Federal Government can play an 
important role by encouraging States (through language in the Higher 
Education Act as well as via competitive grants) to adopt expectations 
for first-year teaching performance. Programs that are accountable for 
the eventual performance of their graduates will attend to it more 
carefully.
    Policymakers at any level should not dictate how programs help 
their teacher candidates meet those high expectations. The best 
research currently available suggests there are typically few 
meaningful differences between preparation programs or routes to the 
classroom in terms of future student achievement--the biggest 
differences in effectiveness are found within programs rather than 
between them.\3\ Teaching is a complex profession, and there is no one-
size-fits-all model for teacher preparation in which all potential 
teacher candidates will thrive. Candidates should have the freedom to 
choose programs they believe are best for their professional growth, so 
long as States hold all programs--traditional or alternative--to a 
common bar of quality.
---------------------------------------------------------------------------
    \3\ Gordon, R., Kane, T., & Staiger, D. (2006). Identifying 
effective teachers using performance on the job. Washington, DC: 
Brookings Institution.
---------------------------------------------------------------------------
                       a new vision for title ii
    If a State were to set such standards today, however, they would 
likely not be meaningful. In the absence of robust State data systems, 
the only common set of data collected across all teacher preparation 
programs comes via the reporting requirements in Title II of the Higher 
Education Act.\4\ These provisions require teacher preparation 
providers and States to report a wide range of data on an annual 
basis--mostly related to program admission or completion requirements 
and examination pass rates.
---------------------------------------------------------------------------
    \4\ Higher Education Act of 1965 (HEA) Sec. 205-208, 29 U.S.C. 
Sec. 1022d-g (2008).
---------------------------------------------------------------------------
    This data, however, does little to describe whether graduates of a 
preparation program are effective once in the classroom, or whether 
their provider had anything to do with their success. For example, 
title II reports do nothing to capture efforts by programs to ensure 
quality of their candidates. TNTP's Fellows programs and other 
alternative preparation pathways, such as rigorous residency programs, 
will proactively exit candidates who cannot demonstrate effectiveness. 
Title II reporting requirements do not capture this nuance.
    Most importantly, though, the title II reporting requirements fail 
to focus the attention of both providers and teacher candidates on what 
matters most: effectiveness in the classroom. Congress should revise 
the title II reporting requirements to require States and providers to 
track and report the evaluation ratings of teachers during their first 
years of teaching after program completion. Where such systems use 
multiple measures of teacher effectiveness, the most granular level of 
data should be shared wherever possible. Where feasible, States should 
also share teacher retention data with programs, including the cause 
for separation where warranted so programs know whether separation was 
voluntary, layoff-related, or performance-related.
    Such transparency, combined with rigorous implementation of a 
meaningful evaluation system, provides a rare win for nearly all 
parties:

    <bullet> Teacher preparation providers will collect information 
that can more meaningfully inform how they prepare and support their 
candidates, encouraging improvement over time;
    <bullet> Teacher candidates who have options on where they obtain 
their preparation will have useful comparison data to select their 
program;
    <bullet> District officials and school leaders can use the 
comparison data to identify which program pipelines they should pursue 
for new teachers; and
    <bullet> Congress and the States will benefit from improved 
information to guide further policymaking, and--as warranted--
prioritize funding for programs with a successful track record of 
teacher preparation over providers who fail to consistently prepare 
candidates for success.
                  enabling program choice via title iv
    For teacher candidates to have meaningful choices in where they 
receive their preparation, however, providers need to be on an equal 
playing field. This is the other significant step Congress can take to 
enable strong teacher preparation providers to thrive--Congress should 
allow all programs with a track record of success to participate in 
Federal student aid programs.
    Presently, the Higher Education Act treats programs based at 
institutes of higher education and those operated outside of such 
institutions very differently. Though all programs that operate their 
own certification program must comply with the reporting requirements 
of title II, only accredited institutions of higher education may offer 
Federal student assistance under title IV. This places an unreasonable 
limitation on the choices available to teacher candidates with no clear 
justification. Non-university-based programs are often cost-effective 
for candidates who need to continue to work while pursuing their 
teaching credential, especially if they want to begin teaching 
immediately. Allowing such programs to participate in title IV 
programs--including both grants under Part A and Federal loans under 
Parts B, D, E, and F--would enable candidates to choose the program 
that best suits their overall interests and not just their immediate 
financial limitations.
    This limit on eligibility also counteracts the purpose of some of 
the stated goals of title IV's grant programs. For example, Congress 
specifically states that students with demonstrated financial need who 
have already earned a bachelor's degree may use a Pell Grant for a 
teacher certification program that does not lead to a graduate degree 
but does meet a State's requirements for preparation that leads to 
certification.\5\ Similar provisions are in place around TEACH grants, 
which are available to any candidate with an undergraduate track record 
of academic success willing to commit to teaching for 4 years in a 
high-need school.\6\ In other words--programs like ours, and candidates 
like ours. However, because title IV places a blanket limitation on the 
use of title IV grant funds to institutes of higher education, 
candidates cannot use grants from either of those programs to complete 
a non-university preparation program.
---------------------------------------------------------------------------
    \5\ HEA Sec. 401(c)(4)(B), 20 U.S.C. 1070a(c)(4)(B) (2008).
    \6\ HEA Sec. 412, 20 U.S.C. 1070g et seq. (2008).
---------------------------------------------------------------------------
                               in summary
    We believe that we--and other innovative teacher preparation 
programs, traditional and alternative--are rapidly discovering new 
approaches to better prepare teachers for success early in their 
careers. As Congress considers reauthorization of the Higher Education 
Act, it should take this moment to reset expectations for all programs 
to account for these new discoveries: demanding data that focuses on 
the outcomes that really matter--student success--and enabling teacher 
candidates to access the same set of financing tools regardless of 
where they seek their preparation. We look forward to helping Congress 
in any way to make such changes, and I look forward to your questions 
today.

    The Chairman. Very provocative. Thank you very much, Mr. 
Daly.
    Dr. Burns.

STATEMENT OF JEANNE M. BURNS, Ph.D., ASSOCIATE COMMISSIONER OF 
TEACHER AND LEADERSHIP INITIATIVES, LOUISIANA BOARD OF REGENTS, 
                        BATON ROUGE, LA

    Ms. Burns. Chairman Harkin, Ranking Member Alexander, and 
members of the committee, thank you for the opportunity to 
testify this afternoon about teacher preparation in Louisiana 
and our ongoing commitment to place an effective new teacher in 
every classroom. My name is Jeanne Burns. I work for the Board 
of Regents, and I work with all of the universities within the 
State.
    Louisiana is a State where committed stakeholders have come 
together and supported the work that Congress wanted States to 
do with the previous reauthorization of the Higher Education 
Act. We did it because of a commitment to improve the 
achievement of children in our State. We did not initially have 
the capacity to do what I am about to describe. But through 
stakeholder engagement, we developed that capacity.
    Our efforts to improve teacher preparation began in 1999-
2000, and we have sustained it and further expanded the work 
across three Governors, three commissioners of higher 
education, and three State superintendents. The work has been 
supported by our Board of Regents, our Board of Elementary and 
Secondary Education, and, in addition to that, we have had 
State leaders, university leaders, faculty in the colleges of 
arts and sciences and education, K through 12 partners, and we 
have had community partners who have supported this work.
    The success we are experiencing today would not have 
occurred without this broad-based support. I cannot stress that 
enough.
    Our work began by creating a Blue Ribbon Commission for 
Teacher Quality that was composed of 36 stakeholders. The 
commission identified 70 recommendations pertaining to 
improving teacher quality the first year, and then recommended 
40 recommendations the second year to improve educational 
leadership. We used those recommendations in order to obtain 
the Title II Teacher Quality State Enhancement Grant to support 
Teacher Preparation Transformation 1.0. This was a wise 
investment of Federal funds.
    The State also secured funds from the Carnegie Corporation 
of New York and the Wallace Foundation to support the reforms. 
Our State boards created and implemented more rigorous State 
policies for licensure and approval of teacher preparation 
programs. All undergraduate and graduate programs were 
redesigned--all, not some--and national experts were used to 
evaluate all programs.
    All redesigned programs that met the more rigorous State 
expectations were approved by the two boards, and all pre-
redesigned programs were terminated. That meant that those 
programs no longer existed by specific dates. Louisiana created 
and implemented a teacher preparation accountability system 
that used multiple measures to examine teacher preparation. We 
were one of the States that did identify at-risk and low 
performing programs.
    In addition, Dr. George Noell from Louisiana State 
University created a value-added teacher preparation assessment 
model that linked growth of learning of children to new 
teachers to the teacher preparation programs, and we 
implemented it. Dr. Noell later adapted that model to develop a 
value-added model that is now being used for all teachers as 
part of our State teacher evaluation system. In 2011, higher ed 
adopted that model as our model as well.
    Value-added results and other results for redesigned 
programs are now reported to the public, and our teacher 
preparation programs now have drill-down data to improve their 
programs. All of our universities are now NCATE and TEAC 
accredited, and we are pursuing CAEP accreditation. All of them 
are.
    This has been a complicated and very time consuming 
process. I cannot stress that enough. However, we now have data 
to show that we are impacting student achievement within our 
schools and that our universities are addressing the needs that 
were identified in 1999-2000.
    We have now moved on to Teacher Preparation Transformation 
2.0. We now have an NTEP grant where we are now reexamining 
what we're doing for licensure as well as program approval. In 
addition, we have a grant from the Rockefeller Philanthropy 
Advisors where our universities are integrating new college and 
career-ready standards and assessments into the teacher prep 
curriculum.
    The Higher Education Act has played an important role in 
holding States accountable. But many of the measures that we 
now must report on an annual basis are time consuming and 
they're meaningless. Therefore, I have just two very brief 
recommendations.
    One, we do need to have attention given to the purpose of 
the reporting that's being done for the title II annual 
reporting. We need to be identifying indicators that truly 
measure the purpose that we are stating, and we need to look at 
aspects of teacher preparation that we consider to be 
important. We need to have indicators that are meaningful. The 
new CAEP indicators are an example of some of the indicators 
that could be used for future reporting.
    We need to have funds that will not only support innovation 
on campuses, but we also need to have funds that will support 
innovation statewide. That's what helped our State to be able 
to do the systemic change that occurred within the State.
    And then last, as far as accountability is concerned, you 
need to give States the flexibility to determine the best 
process in order to examine accountability within the 
individual States.
    Last, please, please encourage stakeholder involvement and 
engagement when title II funds go to States. That is what helps 
to sustain the reforms.
    Thank you very much.
    [The prepared statement of Ms. Burns follows:]
              Prepared Statement of Jeanne M. Burns, Ph.D
                                summary
    Louisiana is a State where committed stakeholders have come 
together and supported the work that Congress wanted States to do with 
the previous reauthorization of the Higher Education Act. Our work to 
improve teacher preparation in Louisiana began in 1999-2000 and has 
been sustained and further expanded across three Governors, three 
commissioners of Higher Education, three State superintendents, State 
boards, State agencies, university leaders, university faculty, private 
providers, PK-12 partners, parents, and business/community partners 
over a 14-year time period.
    The work began by using 70 recommendations developed by Louisiana's 
Blue Ribbon Commission for Teacher Quality to obtain a $3.2 million 
Title II Teacher Quality State Enhancement Grant from the U.S. 
Department of Education to implement systemic reforms. This was a wise 
investment of Federal funds toward the improvement of teacher 
preparation in Louisiana.
    Through the use of these and matching funds, Louisiana embarked 
upon Teacher Preparation Transformation 1.0 that impacted public 
universities, private universities, and private providers who offered 
teacher preparation programs. During 2001-14, more rigorous State 
policies were adopted, all teacher preparation programs were 
redesigned, national experts evaluated the programs, pre-redesign 
programs were terminated, and only programs that met the high 
expectations were approved for implementation.
    Accountability measures and growth in student learning measures 
were developed and used to examine the effectiveness of the redesigned 
teacher preparation programs. This has been complicated and very 
challenging work; however, data now exist to indicate that the systemic 
reforms were effective. Louisiana is now embarking upon Teacher 
Preparation 2.0 to address changing needs that exist in 2014.
    The Higher Education Act has had an important role in moving States 
in the direction of collecting data for accountability purposes and 
reporting results to the public. However, many of the indicators that 
institutions and States must now submit for title II annual reporting 
are excessive and lack meaning. Five recommendations for the 
reauthorization have been identified.

    1. Expand investment in teacher quality innovation at campus and 
State levels.
    2. Clearly identify a purpose for title II reporting and align 
evidence with the purpose.
    3. Collect a concise but meaningful set of indicators for title II 
reporting.
    4. Allow States to create their own accountability systems.
    5. Set clear expectations for active stakeholder engagement.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, thank you for the opportunity to testify this afternoon on 
teacher preparation and Louisiana's ongoing commitment to place an 
effective new teacher in every classroom.
    My name is Jeanne Burns, and I am the associate commissioner for 
Teacher and Leadership Initiatives for the Louisiana Board of Regents. 
The Board of Regents is a State agency that is responsible for a wide 
range of planning and policymaking activities and coordinates the work 
of our four public university systems. As you will see in my testimony, 
our State leaders, university campuses, private providers, and many 
State partners truly understand that ``Teacher Preparation Matters.''
    We are a State where committed stakeholders have come together and 
supported the work that Congress wanted States to do with the previous 
reauthorization of the Higher Education Act. Our efforts to improve 
teacher preparation in Louisiana began in 1999-2000 and have been 
sustained and further expanded across three Governors (Governor Bobby 
Jindal, former governor Kathleen Blanco, and former governor Mike 
Foster), three commissioners of Higher Education (Commissioner Jim 
Purcell, former commissioner Sally Clausen, and former commissioner E. 
Joseph Savoie), and three State superintendents (State superintendent 
John White, former State superintendent Paul Pastorek, and former State 
superintendent Cecil Picard). It has been supported by members of our 
Board of Regents and Board of Elementary and Secondary Education. It 
has also been supported by our university chancellors/presidents, vice 
chancellors, college of arts/sciences and education deans, colleges of 
arts/sciences and education faculty, PK-12 school partners, private 
providers, parents, business partners, and community partners. The 
success we are experiencing today would not have occurred without this 
broad-based support.
    Our work began by creating a Blue Ribbon Commission for Teacher 
Quality that was composed of 36 stakeholders representing the partners 
I have already discussed. The Commission identified 70 recommendations 
during the first year it met in 1999-2000 to improve teacher quality 
and identified 40 additional recommendations in 2000-2001 to improve 
educational leaders.
    The State used the Commission's recommendations to successfully 
obtain a $3.2 million Title II Teacher Quality State Enhancement Grant 
from the U.S. Department of Education to implement systemic reforms 
from 2000-2005 that impacted all public and private university teacher 
preparation programs in Louisiana. This was a wise investment of 
Federal funds toward the improvement of teacher preparation in 
Louisiana.
    Through the use of these and matching funds, Louisiana embarked 
upon Teacher Preparation Transformation 1.0 that impacted public 
universities, private universities, and private providers who offered 
teacher preparation programs. Our State boards created and implemented 
rigorous State policies for teacher licensure and higher expectations 
for teacher preparation approval. All public and private universities 
created redesign teams that included college of education faculty, 
college of arts/sciences/humanities faculty, and K-12 school/district 
partners to redesign all undergraduate and graduate teacher preparation 
programs. National experts were used to evaluate all redesigned 
programs to ensure that high State and national expectations were being 
met. During the evaluation, some university programs were not 
recommended for approval, and some universities voluntarily chose to no 
longer offer programs in specific certification areas for they lacked 
the strength needed to be approved through the evaluation process. This 
self-evaluation eliminated very weak programs.
    All redesigned programs that met the more rigorous State 
expectations were approved by the Board of Regents and Board of 
Elementary and Secondary Education for implementation, and all pre-
redesign programs were terminated by specific dates. This process 
occurred during the time period of 2001-10.
    During 2002-5, Louisiana created and implemented a Teacher 
Preparation Accountability System that used multiple measures to 
examine the effectiveness of teacher preparation programs and assigned 
five labels based upon performance. Labels of ``at-risk'' and ``low 
performing'' were assigned to three institutions and all three 
demonstrated improvements during the next 2 years for the labels to be 
removed. A need developed to revise the system after Hurricane Katrina, 
and ongoing discussions have occurred about changing the system as new 
data have become available.
    Researchers from Louisiana were instrumental in helping the State 
develop and use data that linked growth of learning of children to new 
teachers to their teacher preparation programs. Dr. George Noell from 
Louisiana State University developed a Louisiana Value-added Teacher 
Preparation Assessment Model that was piloted from 2003-6 and fully 
implemented from 2006-11. Value-added results for redesigned programs 
were reported to the public, and teacher preparation programs were 
provided drill-down data that helped them to identify the specific 
grade spans, subject areas, and content strands where their programs 
were demonstrating strengths and relative weaknesses for program 
improvement. Redesigned programs that performed below the average 
performance of other teacher preparation programs were required to 
develop plans to improve within specific time periods or lose approval 
of their programs.
    Dr. Noell's expertise was used by the Louisiana Department of 
Education to create a new value-added model that is now being used as 
part of a State teacher evaluation system for all teachers in 
Louisiana. In 2011, a decision was made by higher education to adopt 
the value-added model being used for all teachers instead of using the 
original value-added model developed for teacher preparation. That is 
the value-added model that we are now using and reporting to the 
public.
    I have shared what we have done to demonstrate that you do have 
States where universities and private providers have been actively 
engaged in improving the effectiveness of new teachers. There are other 
States and institutions that have worked equally as hard. This has been 
complicated and very challenging work; however, data now exist in our 
State to show that our systemic reforms have had a positive impact upon 
needs that were originally identified in 1999-2000. This is true for 
all of our institutions, including our historically black colleges and 
universities. As examples, all public and private universities in 
Louisiana are now nationally accredited, and all but one university 
have 100 percent passage rates on State licensure assessments. Public 
opinion has improved and principals have indicated that new teachers 
completing redesigned programs are better prepared than previous 
teachers. Data now exist to show that children taught by new teachers 
who completed redesigned programs have demonstrated greater growth in 
learning in more content areas and at more universities than growth in 
learning that occurred in pre-redesign programs in 2005-6. Based upon 
the State's new value-added model, more new teachers have obtained 
value-added scores in the ``Effective Proficient'' and ``Highly 
Effective'' ranges than anticipated.
    At the present time, our data indicate that we do not have 
universities or private providers where entire teacher preparation 
programs need to be shut down. Instead, we now know that we have 
specific grade spans and specific content areas where growth of student 
learning is not as great as other content areas and grade spans at each 
institution. Our campuses are now working to create programs where all 
grade spans and all content areas are equally strong.
    Louisiana's work is not yet done. Teacher preparation programs in 
Louisiana are now identifying new needs that are different than the 
needs that existed in 1999-2000 and embarking upon Teacher Preparation 
Reform 2.0. These needs include the development of greater 
collaboration between universities and school districts to create 
higher quality clinical experiences and residency programs, provision 
of in-depth instruction to prepare new teachers to address college-and 
career-ready standards, creation of a coherent system that blends 
multiple systems currently being used to evaluate teacher preparation 
programs, and communication of accurate information about teacher 
preparation programs to the public. You can learn more about Teacher 
Preparation Transformation 1.0 and 2.0 by going to a Web site we have 
developed that provides access to the resources we have created or used 
(http://regents.la.gov/onestopshop).
    Louisiana has already started to implement new initiatives to 
address Teacher Preparation Transformation 2.0. Through a Core to 
College grant from the Rockefeller Philanthropy Advisors, universities 
are developing a deeper understanding of the Common Core State 
Standards and PARCC assessments and identifying changes that need to be 
made in teacher preparation programs to prepare new teachers who 
effectively address college- and career-ready standards. Louisiana is 
one of seven States that received a Network for Transforming Education 
Preparation (NTEP) grant from the Council for Chief State School 
Officers, and we are using the grant to identify future changes to 
State licensure for teachers, additional changes for the approval of 
teacher preparation programs, and relevant data to evaluate the 
effectiveness of teacher preparation programs. Once again, authentic 
stakeholder engagement is going to be critical for these reforms to 
continue to be sustained across multiple administrations.
    An important lesson we have learned is that there is not one single 
way to improve teacher preparation programs. When our Commission first 
met to develop its initial recommendations, it heard from experts who 
were engaged in successful reforms in other States. The Commission used 
the lessons learned in other States to identify what would work best in 
our own State. States need to have the flexibility to create teacher 
preparation reforms that will be supported by their stakeholders. They 
then need to be held accountable for successfully implementing reforms 
that have a positive impact upon the learning of children in their 
States.
    The Higher Education Act has had an important role in moving States 
in the direction of collecting data about their programs for 
accountability purposes and reporting the results to the public. A 
clearer understanding now exists in our State regarding the types of 
traditional and alternate teacher preparation programs being offered 
across the State, the number of teacher candidates enrolled in the 
programs, and the areas in which they are pursuing certification. The 
public now has direct access to accurate information about the passage 
rates of candidates within individual teacher preparation programs on 
State licensure assessments. However, many of the other indicators that 
institutions and States must now submit for title II annual reporting 
are excessive and lack meaning due to different interpretations across 
institutions within States and across States. The process is extremely 
time consuming for individual campuses and time consuming for State 
agencies responsible for overseeing the collection of the data. Some of 
the data reported by institutions are included in the annual reports, 
but it is not clear what occurs with other data, for it is not made 
available to the general public.
    The reauthorization of the Higher Education Act is an important 
opportunity for Congress to make important changes that can have a 
positive impact upon all teacher preparation programs across all 
States.
    Today I would like to share five recommendations.

Recommendation 1: Expand investment in teacher quality innovation at 
    campus and State levels.

    The Teacher Quality Partnership (TQP) grants which were authorized 
in the 2008 Higher Education and Opportunity Act have provided 
individual teacher preparation programs with the opportunity to 
implement innovative ideas to improve the quality of their programs. 
Federal funding needs to be increased to support this innovation. In 
addition, Federal funds need to be made available to higher education 
State agencies on a competitive basis for statewide innovation and 
reforms. This will help to stimulate and support systemic reforms 
across a larger number of teacher preparation programs in a State. By 
sharing Federal funds across institutions for the purpose of program 
improvement, competitiveness diminishes and collaboration increases as 
institutions share best practices to help improve all institutions in a 
State--not just their own.

Recommendation 2: Clearly identify a purpose for title II reporting and 
    align evidence with the purpose.

    A need exists to identify a clear purpose for the collection of 
data for title II reporting. A need also exists to identify aspects of 
teacher preparation programs that are considered to be important across 
States. Clear indicators and measures need to be identified that are 
aligned with the purpose and aspects of teacher preparation that are 
identified as being important. As an example, passage of teacher 
licensure assessments appear to be an aspect of teacher preparation 
programs that is considered to be important for the current title II 
annual reporting, and a process has been developed to collect licensure 
scores. If the purpose of the title II reporting is to compare States, 
this is not a good measure for different States have different cutoff 
scores for licensure. If the purpose of the title II reporting is to 
inform the public about different types of evidence across States, the 
measure would be appropriate for the purpose and address the aspect of 
teacher preparation that is considered to be important.

Recommendation 3: Collect a concise but meaningful set of indicators 
    for title II reporting.

    Identify a common set of concise but meaningful indicators to 
report information to the public about traditional and alternate 
teacher preparation programs that are offered by public/private 
universities, private providers, and districts. Examples could include: 
passage rates on licensure assessments, impact of new teachers upon 
growth in student learning, performance of new teachers on State 
teacher evaluations, and national accreditation. Examples of indicators 
identified by the Council for the Accreditation of Educator Preparation 
that Louisiana is now developing a process to collect include the 
following: completer or graduation rates, percentage of completers that 
meet State licensing requirements, percentage of completers that obtain 
a license to teach, percentage of completers that are hired in schools, 
percentage of completers that are hired in positions for which they are 
prepared, retention of new teachers once hired, results of completer 
surveys, and results of employer surveys. As indicators are identified 
for title II reporting, work needs to occur with organizations that 
report data (e.g., Council for the Accreditation of Educator 
Preparation, American Association of Colleges for Teacher Education, 
National Council on Teacher Quality, etc.) to establish common metrics 
that can be used across organizations and title II reporting.

Recommendation 4: Allow States to create their own accountability 
    systems.

    Set basic expectations, but allow individual States to create 
accountability systems that meet the needs of their States. As an 
example, instead of just requiring States to identify ``At-Risk'' and 
``Low-Performing `` teacher preparation programs, establish the 
reporting of performance at four or more levels. Set expectations that 
States will provide support to low performing programs and have States 
identify the types of support that will be provided. Have States 
clearly define all of the indicators that will be used to examine 
performance within their accountability system and how the indicators 
are aligned with the purpose of their system and the aspects of teacher 
preparation that they consider to be important in their individual 
States.

Recommendation 5: Set clear expectation for active stakeholder 
    engagement.

    As title II funds are disseminated to States, clearly communicate 
the expectation that active stakeholder engagement must occur. Changes 
in policies, laws, and procedures should not occur in States without 
key stakeholders from the State, higher education, PK-12 education, and 
communities being involved in discussions that are open to the public. 
Stakeholder engagement is especially critical at the community level as 
universities, private providers, and PK-12 schools deepen their 
partnerships to provide meaningful clinical experiences to teacher 
candidates that are supported by effective experienced teachers. As 
States move toward comprehensive implementation of college- and career-
ready standards, active sharing of information, resources, and 
expertise between PK-12 and higher education is more critical than ever 
before.
    In conclusion, please know that Louisiana can be a resource to the 
committee as policies are developed to improve teacher preparation 
across our country. Thank you again for allowing me to speak before 
your committee today.

    The Chairman. Thank you all very much for very concise 
summaries of your written statements. We'll start a series of 
5-minute questions.
    I want to ask kind of a specific element here. More and 
more children with disabilities are now being taught in 
inclusive classrooms. That's good. We know that this benefits 
both disabled and nondisabled students in their growth. But my 
question is: Are general education teachers getting enough 
training to confidently teach a mixed abilities group? And 
should all teachers receive some training in disability 
education?
    I'll just go on a little bit more. We know that children 
with disabilities and children of color are at a 
disproportionate risk of being suspended, physically 
restrained, involuntarily confined, or arrested in school. 
These practices traumatize students. They limit their access to 
classroom instruction and make it more difficult for them to 
succeed.
    Again, in teacher training and in teacher education, what's 
being done to address this? This is a very serious problem in 
our schools today. And yet, as I read all your testimonies 
yesterday in preparation for today, I don't see anything in 
there on that. There's a lot of general stuff in there. I got 
that. But teacher accreditation--are we asking any of these 
questions? I don't see it. Do you?
    Dr. Koerner.
    Ms. Koerner. Yes. We have made several of our programs 
actually dual certificate. So early childhood is early 
childhood special ed. Elementary is elementary special ed. So 
those students are dually certified to be able to teach in an 
included classroom or even in a mildly disabled classroom.
    All of our students are in schools where they spend time in 
included classrooms, special pull-up programs. I really think a 
lot of it for us has to be in the clinical experience, because 
we are not only learning from the schools, but we are also 
contributing to making those schools better.
    The Chairman. Mr. Daly, I know in your training program, 
you've fought educational inequality to a great degree. How 
have you addressed this?
    Mr. Daly. Special education is the single biggest subject 
area that we prepare teachers to teach. But I think that----
    The Chairman. I'm not saying special ed. I'm saying general 
teachers in classrooms that have kids who are disabled in the 
classroom.
    Mr. Daly. The short answer is you are correct. So right 
now, it's largely overlooked, and in many cases, teachers find 
themselves encountering these sorts of issues and not feeling 
prepared. They make mistakes. They often misinterpret IEPs. I 
would say right now, much of the burden falls to the schools 
who do their best, I think, to fill those gaps. But your 
premise, I agree with.
    The Chairman. Anybody else?
    Dr. Brabeck.
    Ms. Brabeck. Yes, I think it's a very important question, 
and it is addressed in the standards and the indicators that 
CAEP has designed. It is under the general category of programs 
being held responsible for graduating candidates who are 
classroom ready to teach all children. In New York University, 
which is the urban school district, we prepare teachers in 
special--all of our general education teachers at the 
elementary level also are certified in special education.
    The real crux of the challenge in this is that special 
education is an area that could be taught in a number of ways. 
We are trying to get away from the diagnostic taxonomy 
orientation of labeling children using special education 
categories to an individualized instruction orientation where 
teachers learn how to modify instruction for each individual 
child. The CAEP elementary standards are currently being 
redesigned, and special education will be a very significant 
piece of that redesign.
    The Chairman. I want to call on Dr. Burns, but, again, in 
all of your recommendations for different things that we should 
do in our reporting, I don't see this as one specific 
reporting.
    Yes, Dr. Burns.
    Ms. Burns. Within Louisiana, when we went through the 
redesign, all of our universities had to ensure that regular 
teachers were being prepared to work with exceptional students. 
Now, as I mentioned to you, we now have the capacity to provide 
growth in learning information back to our teacher preparation 
programs, and we can actually provide our campuses with 
information for their elementary education teachers about how 
well they have prepared their candidates for growth in learning 
to occur in children after those teachers become teachers.
    We can break it down by the content area, but we can also 
provide them information about how well they are doing in 
helping children who are exceptional children demonstrate 
growth in learning. In addition, they are given data about the 
brightest children that their new teachers are preparing.
    But this is very valuable information, because our campuses 
can then go back, and if they find that they're doing well with 
teachers who are working with bright students, but not children 
who have special needs, then they can go in and make changes to 
their programs.
    The Chairman. Very good. Thank you all very much. My time 
is up.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Thank you for your testimony. I'm going to express two 
biases and ask a question. The first is the bias that non-
ideological inertia piles up rules and regulations here that 
become outdated, imprecise, and once the questions are answered 
and the information is sent here, there's nobody here to do 
anything with the information.
    Each of you has said that in a more eloquent way than I 
just did. What I wanted to ask you to do--Mr. Daly suggested a 
great swap--one thing. Would you be good enough to write a 
letter after this and say if you were writing the reporting 
requirements for Title II of the Higher Education Act, exactly 
what would it say?
    What I've found out around here is that a specific written 
proposal actually has a pretty good chance of getting adopted. 
So I'd like to ask you to do that afterwards since I only have 
5 minutes for questions, and I have a lot of questions. Would 
you be willing to do that?
    Mr. Crowe. Yes.
    Ms. Brabeck. Yes.
    Ms. Koerner. Certainly.
    Mr. Daly. Yes.
    Senator Alexander. And I know all of us would--I would give 
it to Senator Harkin and others who may be interested.
    Second, Dr. Brabeck, let me see if I have this right. A 
university, like the University of Tennessee, has a regional 
accreditation, and then its College of Education may get a 
specialized accreditation. And what you represent is the 
organization that's a combination of two large specialized 
accreditors. Is that correct?
    Ms. Brabeck. Yes. The previous accreditors, TEAC and 
NCATE----
    Senator Alexander. That's correct?
    Ms. Brabeck. That is correct. They will not exist.
    Senator Alexander. Good. That's what I wanted to know. If 
that's correct, how many teacher preparation programs do you 
now accredit?
    Ms. Brabeck. Currently, under TEAC or CAEP, which still are 
operating--or CAEP is operating under their standards until 
2016--there are about 900 programs.
    Senator Alexander. About 900. How many other teacher 
preparation programs are there that don't have special 
accreditation?
    Ms. Brabeck. I don't know. Do you know how many----
    Senator Alexander. Any estimate of that?
    Mr. Crowe. About 1,200.
    Ms. Koerner. I thought it was 1,400.
    Senator Alexander. About 1,200. But if the University of 
Tennessee wanted to operate a College of Education under its 
general accreditation but not a specialized accreditation, it 
could, right?
    Ms. Brabeck. I don't know what the law is in Tennessee. In 
New York, it would need to be accredited.
    Senator Alexander. But according to Federal law, it could.
    Ms. Brabeck. According to Federal law. That's correct.
    Senator Alexander. But Tennessee could require that each of 
its teacher preparation programs have that kind of--of the 
1,200 or so teacher preparation programs that are not 
accredited, should they have specialized accreditation, or is 
that too big to bite off right now while you're improving 
your--or acknowledged to be very aggressive standards for the 
900 or so that you're already working with?
    Ms. Brabeck. Yes. I think they should be accredited, and I 
think they should be accredited for two reasons. The public is 
owed the accountability that comes with accreditation, the 
transparency of knowing about programs that work and programs 
that don't work; and, second, because accreditation is the 
process of continuous improvement. When you gather the data and 
you have to look at it, sometimes it's not pleasant to look at. 
It helps you change your program and make it better, and that's 
the role that accreditation--the dual role that accreditation 
has.
    Senator Alexander. Would you have different kinds of 
accreditation for different kinds of teacher preparation 
programs?
    Ms. Brabeck. I would have the CAEP standards for all 
teacher preparation programs.
    Senator Alexander. That would be the 1,200 and the 900.
    Ms. Brabeck. That would be the 1,200 and the 900. I think 
that's worked in medicine quite well and in nursing and other 
professions. My school has 15 different accreditations because 
we have the allied health fields. So they're all accredited.
    Senator Alexander. Now, if you did that, would you change 
the Federal law to make--Mr. Daly said that his students at 
some of the teacher preparation programs were limited because 
they weren't eligible for Federal funding. Would you recommend 
we change the law to permit them to be eligible for Federal 
funding?
    Ms. Brabeck. I'm not really competent to comment on the 
funding issue.
    Senator Alexander. Mr. Daly, what do you think about the 
idea of accrediting all teacher preparation programs? Is that 
too ambitious?
    Mr. Daly. I think that the direction that they're moving 
in, accreditation would be worth much more than it is now. I 
would say, right now, it would be hard for me to see what's in 
it. We go through approval processes all the time, and the 
sorts of things--which would be, just to be clear, completely 
different than what CAEP is moving toward.
    But those processes have not been useful to us, and most of 
the time, the folks that we are asking for approval are 
typically the universities that are not so eager sometimes for 
us to show up. And we get asked mostly about things that are 
not related to the effectiveness of our teachers. So, as I 
said, they've generally been frustrating. If they got better, 
and if the accreditation process did provide the sorts of 
things that Dr. Brabeck is talking about, I think I'd have no 
problem with it.
    Senator Alexander. My time is up. But, No. 1, I hope you 
each will write what you would--this is a relatively small 
amount of money by Washington standards, $40 million, and we 
ought to make sure that if we ask for something as a result of 
it, it ought to be precise and effective.
    And, second, I'd much prefer accreditors to be responsible 
for the excellence of these institutions, because the other 
choices are Federal bureaucracies or State bureaucracies, which 
aren't as good. So if you default, then you turn it over to 
people who--us, who don't know as much about it.
    Thank you.
    The Chairman. Thank you, Senator Alexander.
    I have in order here Senator Warren, Senator Isakson, 
Senator Bennet, and Senator Murphy.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman. You know, I was a 
new teacher many years ago, and so this is a topic that is near 
and dear to my heart, to special needs kids. So I want to start 
a round of questioning about funding and how we provide 
financial support for college students who are studying to be 
teachers.
    The Federal Government offers a program to fund teachers, 
the TEACH Grant program, and I'm concerned whether this program 
is actually helping support students who want to be teachers, 
or if it's just loading other students with a lot of debt. The 
TEACH Grant program offers up to about $4,000 a year to 
undergraduates in teacher preparation programs up to a maximum 
of $16,000.
    The program is called a grant, but it comes with a catch. 
Recipients have to teach in high-need schools for at least 4 
years in order not to have to pay it back. President Obama's 
recent budget request notes that as many as 75 percent of those 
who receive this so-called grant actually end up paying it back 
as a loan. The Department of Education has suggested that part 
of the problem is that schools are offering TEACH Grants to 
undergraduates very early in their education, before they're 
certain about their commitment to teaching.
    The President's Budget also points out that even for those 
students who are more likely to become teachers, the TEACH 
Grant program could still put prospective teachers at a 
financial disadvantage when colleges supplant their own 
institutional grants with TEACH Grants. Institutions have a 
limited amount of aid to spend on their own, and so they have 
an incentive to hand out TEACH Grants as a part of their aid 
programs, even if this turns out to be loans rather than actual 
grants. So I just wanted to start with a question about how 
this works.
    Dr. Koerner, I know that your institution offers TEACH 
Grants, and I wanted to ask what steps your institution takes 
to ensure that TEACH Grants go only to those students who are 
likely to enter the teaching profession.
    Ms. Koerner. Thank you for asking that. Actually, we are 
one of the largest recipients of TEACH Grants. We have 982 
TEACH Grants. I think part of what gets lost in preparation of 
teachers is that a place like ASU actually produces teachers 
who stay in the State. They're working class kids. This is 
their entre to middle class, and they really have a hard time 
paying for gas, clothes, and we do a lot of work with private 
philanthropists to raise money for those kids.
    The TEACH Grants are essential for us to recruit the kids 
that we want to bring in to teacher education. ASU, because 
Arizona does not have a State scholarship--we have about $200 
million a year in aid that we have to give students, of course, 
that we get through tuition. So we're very careful about how we 
identify students and how we counsel students. And because all 
of our students now have to spend time typically in high-need 
schools, we are preparing them for a career. We're not just 
giving them money in order for them to get a degree.
    Senator Warren. But let me just ask the question, whether 
you're keeping data and how you're counseling them. All I know 
are the national numbers, and that is three out of four 
students who are receiving these so-called grants are not 
receiving grants. They're receiving a loan to fund college 
education to go somewhere else.
    I'm all for students having access to help to get through 
college and all for recruiting students into teaching. I'm just 
concerned about how it's working out with this particular form 
of grant or so-called grant.
    Ms. Koerner. I think that part of the people on this panel 
are saying you can't--with Federal money, especially, we have 
to be responsible, obviously. We're a public university--and 
with State money as well. So we advise students from day one 
when they come into our program. But, remember, most of our 
students are coming from community colleges.
    Senator Warren. Right. Do you keep numbers?
    Ms. Koerner. We do keep numbers, and I asked, actually, in 
anticipation of this, because we feel like in recruiting 
students, these TEACH Grants are so important. I asked 
yesterday if I could find out how many of our teachers who get 
TEACH Grants stay in teaching for 4 years, and I couldn't get 
that data by today.
    Senator Warren. Thank you. It seems to me that ought to be 
data that all schools ought to have as we go forward.
    Ms. Koerner. I think that that is data that we should have 
for retention in any case, because if we're real reformers, 
we're trying to reform schools where, actually, our kids stay 
in those schools for at least 4 years, and they don't migrate 
out.
    Senator Warren. Right.
    Ms. Koerner. So for us, it's a double whammy. I agree with 
you.
    Senator Warren. I get it. I thank you, and I thank you for 
the work that you're trying to do. I see that my time has 
escaped. That's how I feel about it.
    But I do want to say two quick things. The first one is I 
agree with Senator Alexander. I very much hope that you will 
write us about what you think are the right data to collect 
and, I want to say, in particular, data that schools of 
education can use to help them improve teacher preparation, the 
focus in that direction, about what kind of data we should be 
collecting.
    Also, we'll send questions for the record on teacher 
residencies. We've had some great successes with the Boston 
teacher residency program. I was going to ask you about it, Dr. 
Crowe, but I will do this in questions for the record.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Thanks to all of you for what you do for kids and what you 
do for education in America.
    Mr. Daly, you have two recommendations in your report. One 
is the true measure of a program should be the performance of 
its graduates with real students in real schools. In your 
opinion, how much preparation really goes into preparing 
teachers for the real student of the real classroom in 2014?
    Mr. Daly. It's tough for me to know what happens 
everywhere. I would say in our experience, we have evolved 
substantially over the last 15 years. We used to spend a great 
deal of time teaching theoretical concepts about child 
development and the history of education and all these things 
that we thought would give them a contextual framework for the 
classrooms that they were going into. We taught them about the 
concepts of classroom management or explaining things clearly.
    But what we were not doing nearly enough of was teaching 
them to practice the foundational techniques that they would 
use 100 times a day. How do you get students in a line? How do 
you use economy of language to go through a concept so you 
don't lose students? I would say if our experience is 
indicative of what's going on out there, generally, then we all 
have had a long way to go to focus on preparing folks for the 
real job that they are doing.
    Senator Isakson. The reason I asked that question is when I 
chaired the State Board of Education in Georgia, we had a 
challenge in getting enough teachers, first of all. Second, we 
had a challenge in teachers quitting by the time they were 
going into their third year of public teaching.
    And my experience, more often than not, was that our 
colleges of education did an exemplary job of teaching the 
content and teaching the theory. But they did very little to 
teach the experience of the 21st century classroom, where three 
of the kids in the room are going to have ADHD, six of the kids 
aren't going to be able to speak English proficiently, and 
others have physical disabilities like the chairman was talking 
about. We don't do enough in our colleges of education to 
really teach kids to teach in that classroom.
    Mr. Daly. You're exactly right.
    Senator Isakson. Yes, ma'am?
    Ms. Burns. One of the major changes that we saw that 
occurred within our State was when we started providing our 
campuses with the growth in learning data of children being 
taught by the new teachers who started teaching in the schools 
in their first and second year of teaching. That very much 
changed the type of discussions that started to occur on our 
campuses, because our universities were being held accountable 
for how well teachers were performing as it related to 
achievement of children in their classrooms after they left the 
universities.
    That really helped our universities turn and take a look at 
what standards students needed to be addressing when they went 
into the classrooms, what kinds of assessments children were 
being assessed on. They were looking at other types of areas 
that were very important for preparing new teachers as far as 
classroom management and other types of areas like that.
    But I can't stress enough that when you're holding teacher 
preparation programs accountable for the learning of children 
after their teachers have left the institution, that very much 
changes the types of discussions that occur on the campuses.
    Senator Isakson. And I think that's why your 
recommendation, Mr. Daly, is so important, to really measure 
these programs based on the real performance of real students 
in real schools, which is really the key to it.
    The second thing I want to point out before my time runs 
out is that you made a second recommendation that Congress 
should embrace and support high-quality, non-university 
preparation providers, which is what you are. You're a not-for-
profit, non-university provider. I think across the board, 
education is going to have to look at alternative methods of 
certification for teaching and instruction if we're ever going 
to have enough people to really deliver the quality content 
that we want delivered in America.
    We do Troops to Teachers programs now, with troops coming 
home and going straight into the classroom, teaching under the 
supervision of the Board of Education, things of that nature. 
So I really commend you for encouraging us to open our eyes and 
go to alternative certification as a way of looking at bringing 
the best person in for the real student in the real classroom, 
which in the end is what we've got to do.
    Mr. Daly. Thank you.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and thank you to 
the Ranking Member as well.
    Thank you all for being here today. As everybody in this 
room knows, there's a lot that goes into having a successful 
school. But if I could think about one of the takeaways from my 
superintendence in Denver, it is that if you have a school 
where people have universal agreement that they're there to 
teach the kids, but also to perfect their craft as teachers, 
you have a fighting chance. If you don't have that, you don't.
    I was in a school the other day called Gust Elementary, Mr. 
Chairman, in Denver, a high-poverty school, with tremendous 
growth in the student achievement there. And I went to a 
classroom and randomly selected--so this is not a dog and pony 
show. I'm the one who picks the kids in their classrooms while 
they're doing their lessons. I interrupt them and I ask kids 
how it's going, because that's a much more useful way of 
learning whether a teacher is being successful than watching a 
teacher.
    And I was in a conversation with this young boy, and I 
said, ``How do you like this school compared to your last 
one?'' He said, ``It's much better.'' And I said, ``Why is it 
better?'' He said, ``In this school, we learn from our 
mistakes.'' And I said, ``What about your last school?'' He 
said, ``Nobody ever even corrected my mistakes.''
    For that kid, he's lost whatever year that was, which is 
sort of the sense of urgency I have about how we can make sure 
that we can change our architecture of how we prepare teachers 
in real time, not some time. The teacher in that classroom was 
a master teacher who had a mentee that she was teaching, and 
she said the best professional development she had ever had in 
her life was being a mentor to somebody else in the classroom.
    Then we went out and met a whole bunch of these teachers, 
because they're part of something called the Denver Teacher 
Residency Program. These are mostly career switchers from 
advertising and other kinds of things. In that group was a 5-
year teacher who had come in with the first cohort. Five years 
ago, she was a new teacher. This year, she's a mentor teacher.
    And I think about what that acceleration looks like to 
changing the DNA of one American school district, and it's 
happening at an astonishing rate. We're going to have 41 
campuses that are touched this year by this Denver Teacher 
Residency Program, which we're doing with the University of 
Denver.
    Metro State University in Denver is creating a new approach 
to teaching education that's completely residency based, and we 
are going to start with undergrads. We've been doing it with 
graduate students in DPS.
    Here's my question to all of you. I took up half my time. I 
am too tired to deal with unwilling dance partners on this 
subject. What I want to know is what we can do with the Federal 
law to incentivize programs like the one that we're rolling out 
in Denver--and I gather you've got a residency program at ASU--
while others are figuring out that this is going to be the 
future. What can we do in terms of how we think about our 
budgets, both K-12 and higher ed acts, and what can we think 
about with respect to our regulations, simply to give 
permission to those out in the world who are prepared today to 
innovate and scale?
    Ms. Koerner. One thing I do want to say in terms of the 
residency program is being in a school all by itself is not 
enough. Jesse Solomon and I actually did the Boston Teacher 
Residency, and the idea was to actually have supervised 
instruction so that you can't just----
    Senator Bennet. I agree. I'd like to have an answer to the 
question that I asked. I totally agree with you.
    Ms. Koerner. Oh, OK.
    Senator Bennet. The question is what can we do to 
accelerate?
    Ms. Koerner. For us it was the TQP grant.
    Senator Bennet. I appreciate that, but that feels to me 
like a very small and modest thing. I completely support it. 
I'm all for it. But if you're really imagining a world where 
you are recruiting--look, a lot of people wonder whether we 
even have a national issue with respect to education. To me, 
the fact that we're going to have to replace almost 2 million 
teachers in the next decade is at least of national interest. 
It may not be done by us, but it's of national interest. What 
can we do to move the levers?
    Tim, maybe you've got a thought on this.
    Mr. Daly. One thing I would say quickly is that I think 
there's a temptation to focus on closing down the programs that 
are low performing.
    Senator Bennet. This is my point.
    Mr. Daly. Right. But I think you'll never win that fight, 
because in so many places, there's going to be a political 
battle that goes on forever. I think I would shift the focus 
from shutting them down to shifting the enrollment to the 
higher performing places, because most States have some program 
that's both low performing and huge, and that's a much--you're 
never going to shut it down.
    Senator Bennet. Right.
    Mr. Daly. But I think that at the Federal level, make it 
less expensive, provide subsidies to the places that are 
believed to be high-performing, because people will respond to 
the economics of it, and I think you might win the money 
battle.
    Senator Bennet. In addition to expanding AmeriCorps, what 
else would you do there?
    Mr. Daly. That's a good question. I think funding slots--if 
States can make a case that they have outcomes-based measures, 
and they could bring that to you and say, ``Here's a place that 
is producing high performers,'' if you could fund more slots at 
those--so instead of funding the institutions, funding places 
for candidates that have gained admission there.
    Senator Bennet. I'm out of time, Mr. Chairman.
    The Chairman. Go ahead.
    Mr. Crowe. Two quick points. One is to continue ratcheting 
up the external pressure. It's the only way this field will 
change. But do it in a smarter, targeted focus way. And, 
second, support competitive models of program development and 
delivery--again, external pressure to help improve the----
    Senator Bennet. In my theory, the competitive models are 
more likely to close the lousy places than an accreditation 
model that never quite gets to the closure.
    Mr. Crowe. Why keep them open?
    Ms. Burns. Can I just add one other thing? I really want to 
emphasize--provide States with the opportunity to be able to 
access the funds as well. We currently have multiple 
institutions in our State that would like to move toward a 
residency model, and if the State could also have an 
opportunity to be innovative, then we could do some things that 
could have systemic changes occur across our State. And funds 
currently aren't available for that type of statewide 
innovation.
    Senator Bennet. Thank you, Mr. Chairman. I apologize.
    The Chairman. Thank you, Senator Bennet.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you all for all of the hard work and innovative 
thought you're putting into the subject. I wanted to sort of 
come back to the initial question Senator Harkin asked and 
Senator Isakson expounded on, and that is the reality of the 
new classroom.
    For a lot of the underperforming schools in my State, the 
foundational issue is kids' behavior before you get to kids' 
learning. We've done a lot of work over the past several years 
on the issue of creating positive school cultures, and it seems 
to me that a lot of that work has sort of run through school 
systems and administrators.
    Yet the reality is that the teachers are on the front lines 
of trying to create that positive school culture, trying to 
teach good behavior instead of just punishing bad behavior. And 
we have all sorts of programs that we help fund, like the 
Positive Behavioral Incentives and Supports Initiative that are 
working.
    The question I have is at the teacher training level, how 
much of this conversation is about how you try to reform the 
culture of a classroom so that when you have a lot of kids who 
show up not knowing how to behave get the supports they need 
rather than just the punishment that some teachers think they 
deserve. How much of that conversation is getting into the way 
in which we train teachers, and how much of it can you do in 
the classroom, and how much of it do you really have to wait 
until they're out--how much can you do in the teachers' 
classroom versus the kids' classroom?
    Ms. Brabeck. I think it gets a lot of attention in teacher 
preparation programs. I think that the recent MET study that 
was done comparing--looking at five different observational 
measures of teachers performing in classrooms showed that the 
classroom management area was pretty good across the grades 
that were assessed, which were the elementary grades, four 
through eight.
    I think we're doing a good job, because we know how to do 
classroom management. I think people need to know--they need 
the practice of doing it in difficult circumstances, but they 
also need to understand the psychological principles that 
undergird a good behavior management program. Together, then, 
when a program doesn't work, if you know the theory base and 
you know the psychology behind it, you can change and moderate 
the program so that it works better.
    Ms. Koerner. And one of the things we weren't asked is 
leadership preparation. Our colleges also prepare principals. A 
good teacher cannot be a good teacher in a school that has a 
bad principal. It's very difficult. You can do it, but it's 
very difficult.
    So even in response to Senator Bennet, what you were saying 
is that you have to create a school--a culture that's positive, 
and a lot of it has to do with the principal. That's why 
teachers leave. That's why teachers will stay. That's why kids 
with bad behavior may be accepted. We can't divorce our teacher 
prep programs from our leadership preparation programs, either.
    Senator Murphy. If you've got a teacher who knows how to do 
discipline and behavior management, but you've got a principal 
who's going to suspend and expel every kid who goofs off or 
shows up late, the two don't work together very well.
    Ms. Koerner. Exactly, or the other way around.
    Mr. Daly. Senator, I think this is a really important 
point. What we learned over time is that we should train 
teachers to do these things the way that we teach sports or 
music, which is we ask people to practice the activity over and 
over again and get feedback so they can do it without thinking 
in the moment. If you're a middle school teacher--and I was 
one--it is the job of middle school students to drive teachers 
crazy, and they can sense----
    Ms. Koerner. And parents.
    Mr. Daly [continuing]. Fear in a second. And the only way 
to do that effectively is to be able to do things like control 
your voice. We can all agree that having good voice control and 
not seeming accusatory is important. But knowing it and doing 
it are two different thing.
    And I'll be honest with you. Not every one can control 
their voice and say, ``Can you please sit up?'' And not 
everyone can do things with a visual look instead of a shout. 
That's where we find out that a lot of people are not meant for 
this.
    The mistake that we made for a long time, and I think that 
we all need to correct, is explaining it to folks and having a 
discussion about it is not the same as when you play a piano 
piece over and over again, or you do a drill in basketball over 
and over again so you can do it without thinking. And if you 
cannot address misbehavior without escalating the conflict, you 
cannot teach.
    Ms. Burns. Something that hasn't been mentioned here that 
is just as critically important as everything you've just heard 
is the clinical educators who are being the mentors for the new 
teachers, need to be teachers who are, himself or herself, 
demonstrating good management and has an excellent type of 
classroom environment in which those teachers are working 
during their student teaching or while they're being mentored, 
whether they're in an alternate certification program. Our 
aspiration is for every new teacher or aspiring teacher to have 
a mentor who is an excellent, effective teacher, but that 
doesn't always occur, and more has to be done in that area.
    Senator Murphy. Mr. Chairman, I'll share one quick 
anecdote. In Bridgeport, CT, we had epidemic levels of school-
based arrests, and they made a very brave decision in that 
school district. They decided to take the police officers who 
were patrolling the halls of the high schools and middle 
schools out and put them on the streets. Now, they were there 
if there was some dangerous episode, and they could come into 
the school.
    But what effectively happened is that because the police 
officers were there, the discipline had been out-source from 
classrooms to the officers, and, thus, a lot of kids were being 
hauled away to jail. When the school decided to reinvest in 
having teachers be at the center of behavior management rather 
than police officers, in the first year, school-based arrests 
plummeted by 50 percent, and there's no more violent episodes 
happening in school than there were the year before. It just 
underscores how good teachers who know how to manage behavior 
can save a generation of kids from that downward spiral that's 
happening in that school to prison pipeline.
    Thank you, Mr. Chairman.
    The Chairman. Quite frankly Senator Murphy, I don't think 
there ought to be any policemen in our schools anywhere. I just 
think it sends the wrong signal. Anyway, we'll discuss that 
later. That's not part of this.
    Senator Alexander, we'll have another round. Go ahead.
    Senator Alexander. Don't you want to go ahead?
    The Chairman. Go ahead. Go ahead.
    Senator Alexander. I want to followup on Senator Warren's 
comment and make sure I understood it. I think what she said 
was that as you're suggesting to us what the reporting 
questions ought to be, that they be designed to produce data 
that's most useful to the schools themselves and to the 
accrediting agencies. Is that what you said?
    Senator Warren. I think that's fair. The central part, at 
least part of what we have to look at--there are other reasons 
we collect data. We need to think about what the reasons are 
and what data we need, but, in particular, whether or not we 
collect the data that are going to be helpful in doing a better 
job of training our teachers.
    Senator Alexander. Yes. The reason I respond to that--and 
we may or may not agree on this, but I think the entity that is 
most likely to do something with properly and efficiently 
collected data will be the programs themselves or the 
accreditors. I just don't think, based upon my experience as a 
Governor and as a U.S. Secretary of Education and as a Member 
of Congress, that we'll do that very well. That's my bias. That 
might not be everyone's bias, but that's my bias.
    I also have a feeling that while $40 million, which is the 
amount we spend on title II, isn't much in Washington terms, if 
we were to focus it or focus the questions we ask on a single 
thing or on two things, we might get a pretty big bang for our 
buck. That's my usual experience. If you narrow something down 
to something you really want to know, you might really get 
something very useful out of it.
    I like the focus. I like Senator Warren's suggestion that 
the data be, let's say, especially useful to schools and to 
accreditors so they can do their job.
    Thank you, Mr. Chairman.
    The Chairman. Senator Warren.
    Senator Warren. The only thing I would add, at the risk of 
turning this into a love-fest, is that--which I'm sure we'll 
find a way to deal with----
    [Laughter.]
    Senator Warren [continuing]. Is a second point around this, 
and that is, if we can just take the data point another step, I 
think that Senator Alexander makes a powerfully important point 
when he says data that get dumped in and nobody ever uses them 
are not only a waste of time for having collected them, but 
they really usually turn out to be lousy data, because you're 
never getting the pushback to get those data right.
    And sometimes you have to refine--wait a minute, we asked 
it this way. It turns out it doesn't produce very useful data. 
So part of that point is what are the data we need, but how do 
we also make sure that they're fed into a system that uses them 
and then helps correct them and produce better data over time. 
This just comes from my own work with data.
    Dr. Crowe, you----
    I'm sorry, Mr. Chairman. Is it all right if they say 
something?
    The Chairman. Yes, that's fine.
    Mr. Crowe. I was just going to respond to both of you. 
Senator, in addition to your inertia principle in terms of 
reporting, there's also a kind of compliance principle.
    Senator Warren. Yes.
    Mr. Crowe. Secretary Duncan said a year or so ago that the 
reporting system has about 440 different data elements, and so 
collecting this stuff and sending it to the State and then here 
has just turned into a job as opposed to using it for analysis. 
Now, my list, which I will provide to the committee, has 8 
instead of 440 that are targeted on things programs can do for 
themselves and with others to get better and to tell the public 
how good or not so good they are and how they're trying to 
improve.
    Senator Alexander. We talk a lot about capacity in 
education. But part of this goes to the capacity of the 
Congress, the State agency, and the Federal agency to deal with 
data in an effective way. And we have a limited capacity to do 
that, which will be made a lot better if it's focused in the 
way you suggest.
    The Chairman. Senator Bennet.
    Oh, I'm sorry. Go ahead, Dr. Brabeck. I was going to call 
on Senator Bennet. Dr. Brabeck, did you have something you 
wanted to say?
    Ms. Brabeck. I wanted to quickly add that as part of the 
accreditation process--which emphasis is on accountability, but 
also on continual improvement--is the requirement that programs 
demonstrate how they are using data and what kind of a system 
they have developed to feed the data back to the programs so 
that the programs have to look at how well they're doing on 
behavior management or asking the right questions or any of the 
really critical areas that teachers need to master.
    Senator Warren. That's an important point.
    The Chairman. Senator Bennet, go ahead, just jump in.
    Senator Bennet. At the risk of making this all seem crazy, 
the thing I'm sitting here wondering is whether we're creating 
an impossible task when we're giving the wrong people the data. 
In other words, the idea that any teacher is prepared to be an 
effective teacher when she walks out of any school of higher 
education, I think, is crazy. This is a profession where--this 
is about lifelong learning every single year if we're doing 
what we're supposed to be doing.
    The notion that somehow we're going to design a system 
that's going to hold. I'm all for outputs instead of inputs and 
all that kind of stuff--but that's going to really make a 
meaningful difference. It would seem to me that where you want 
the information to end up is in the hands of school principals 
who are trying to make decisions about who to hire; in the 
hands of school districts who are trying to make the decisions 
about what universities they want to hire from; and in the 
hands, importantly, of future teachers who will be making a 
decision about whether this place or that place is going to 
prepare them well to do the work.
    That's where the motive force comes from here, not from 
another commission, not from other reports. And I wonder 
whether I've got that totally wrong, or whether there's ways in 
which we can, again, create a line incentive so that consumers 
of this stuff are actually able to make rational decisions that 
drive the system inexorably to improve rather than for it just 
to sit here in the same conversation.
    Ms. Koerner. I think that it really rests, if you're 
looking for measures, in partnerships. We don't prepare 
teachers by ourselves. I think what keeps being brought up is 
this ivory tower and courses that don't matter and all that, 
and those of us who think deeply about this and put it into 
practice don't think that way. We are in partnership with 
school districts.
    Senator Bennet. Let's rest there for a minute. That's a 
very, very important point to me, because I've seen the same 
thing that you've seen. So we should be asking ourselves, both 
in terms of the ESEA reauthorization and the Higher Ed 
reauthorization--which, in my mind, shouldn't be two separate 
things, but there's nothing we can do about that. It is what it 
is--whether or not we are incentivizing those kinds of 
partnerships----
    Ms. Koerner. Right. Exactly.
    Senator Bennet [continuing]. Around the country, or whether 
what we're doing is creating such silos, because of the 
accounting requirements around Federal funds, that instead of 
moving people together, we're actually driving them apart, 
which actually happens to be the case in a whole bunch of 
areas.
    Ms. Koerner. Yes.
    Ms. Burns. I'd like to add here that right now, our public 
and our districts and our schools do not know what data to 
trust. There are a lot of different reports out there. One 
report says that a program is being effective. Another report 
says that they're not being effective.
    As we are talking about identifying data here, we need to 
make sure that the data is being collected in a valid and 
reliable manner, and that there's common interpretations as to 
what type of data should be submitted. Otherwise--and it needs 
to be used across different national organizations that are 
reporting to the public about the quality and effectiveness of 
teacher preparation programs.
    I can't stress enough data, but it needs to be interpreted 
in a consistent manner when being reported, and it needs to be 
valid and it needs to be reliable so that the public can trust 
it.
    Senator Bennet. Can I come back, Dr. Koerner, to something 
you mentioned earlier, because I think it was such an 
incredibly important point. And that is the role of the 
principal and our almost complete lack of focus on the 
principal. I'm very happy to hear you guys are focused on it. I 
wanted to hear a little bit more about that.
    When I left Denver, we had worked very hard with our 
principal core, and I think the one--I used to say our reforms 
were breathtaking in their lack of originality except for one 
thing, and I won't bore you with how we did it, but it made a 
huge difference. Today, the districts move to a very different 
place, where they're saying, ``You know what? We don't want 
anybody to supervise more than seven people,'' which means that 
there are layers of teachers that have things to do, master 
teachers and other kinds of things, real opportunities, new 
opportunities.
    I wonder if you could share with us a little bit of what 
you're doing with that.
    Ms. Koerner. Sure. First of all, in our teacher assessment 
of performance, we have mentor teachers. You're right. There's 
a whole lot of levels in between teacher--there have to be 
clearer options, and we have to incentivize teachers to take on 
more leadership. So we have mentor teachers who actually meet 
with--and that's the success of the TAP program--meet with 
other teachers and our teachers in order to have them become 
better.
    I also think what we're working with and doing in our 
districts is creating a pipeline of leadership. So it isn't 
just a way to get a master's degree in order to get on a 
different level, whether you really ever want to become a 
teacher or not, kind of in response--the same thing as the 
TEACH grant. It actually is about--when have you developed 
leadership, and when can I help you build the capacity to 
develop leadership so that you're on a path to become a 
principal? We're working with our district partners to figure 
out how to do that.
    The Chairman. I'm going to jump in here on one thing, 
talking about all these data points. I just asked my staff to 
check on this. ASU is known for its intensive collaboration 
with local K through 12 districts and schools in your 
recruitment efforts and your preparation programs.
    I mentioned in my opening statement that one of the things 
that we've been hearing about is a lack of communication in 
many places between institutions of higher education and K 
through 12 school districts that they serve and the problems 
that leads to. So I just asked my staff if one of the data 
points that they have to submit now is their collaboration with 
local K through 12 schools, and the answer is no. They don't 
even ask that question.
    Ms. Brabeck. It is a part of the CAEP requirements.
    The Chairman. Pardon?
    Ms. Brabeck. It is part of the CAEP requirements.
    The Chairman. Oh, it is?
    Ms. Brabeck. Yes.
    The Chairman. It's part of the CAEP, but not part of what 
we have in the Federal requirements.
    Ms. Brabeck. Correct.
    Ms. Koerner. But in order to run a successful program, 
you're absolutely right. Obviously, there has to be a way to 
communicate. So we have advisory councils, formal advisory 
councils with our partnership schools and with our grant 
schools. And it has to go both ways. Partnerships aren't just 
about us telling them what to do. It has to be what they're 
telling us to do.
    We involve also research that--what we haven't brought up 
is that from districts, we need to know what they need to know, 
and we're supposed to be good at that, so we'd better be 
providing what they need to know in order to become better at 
what they're doing as well. But just as an aside, we do have 
formal parts of our partnerships with advisory councils.
    The Chairman. I just wanted to clear that up.
    Do you have anything else, Senator Bennet, that you wanted 
to bring out?
    Senator Bennet. I just want to thank you for holding the 
hearing, Mr. Chairman. We don't talk about this enough in the 
Senate, and your leadership gives us the opportunity to be able 
to talk about what really is, on a daily basis, one of the most 
important things that's facing our country.
    People aren't really aware of how far we have to travel 
for--how obsolete the model is that we have of training 
teachers and bringing them into the workforce. We haven't 
changed it since we had a labor market that discriminated 
against women and said, ``Here are your two choices. One is 
being a teacher and one is being a nurse.''
    A lot of the way we've designed accreditation, the way 
we've designed the budget, and all this other stuff imagines 
that that's still the world that we're living in. Thank 
goodness, it's not the world that we're living in. And the 
question for me is how we can give an assist to the places that 
have figured out that we can unshackle ourselves from that and 
do the kinds of things that ASU and others are doing that are 
leading the way.
    We would accelerate the benefits for our children if we do 
that, and if we don't, we won't, because we'll be here a decade 
from now having this same conversation.
    The Chairman. What did you say? In the next 10 years, how 
many?
    Senator Bennet. It's almost 2 million. I think 1.7 million 
teachers we have to replace.
    The Chairman. That's K through 12 teachers.
    Senator Bennet. K through 12 teachers.
    Senator Alexander. Mr. Chairman, maybe it's a function of 
length of perspective, let's call it, otherwise, age, but in 
the time I've been fooling around with the schools, I've seen 
some pretty big changes in this. We've gone from almost no 
alternative certification programs to 40 percent of new hires. 
Is that right, something like that, up to 40 percent?
    We've seen Teach for America go from nothing to something. 
We've seen teacher evaluation programs try to get started--lots 
of places, lots of school districts struggling with that, 
trying to figure out a way to do it. We've seen the States, 
almost every State, with new accountability standards that 
affect directly teaching. Most colleges of education over the 
last 30 years, most universities, the big ones, have 
dramatically changed the amount of content that teachers are 
required to learn before they get their teaching degree.
    And I think potentially enormously important are the new 
standards--the merger of the specialized accrediting agencies 
and your new extremely aggressive standards. I imagine over the 
next few years, we're going to see some pushback from that, 
from teacher preparation programs.
    So I don't disagree with Senator Bennet that we've got a 
huge national challenge that we're not prepared to deal with. 
But over 30 years, anyway, maybe not over 10 or 15, I think the 
changes are significant. Maybe it's a word I would use.
    The Chairman. Is there anything else that any of you wanted 
to add to this hearing at all?
    [No verbal response.]
    So please individually respond to Senator Alexander's query 
on what you would change.
    Now, Mr. Daly, you don't want to change anything. You want 
to scratch the whole thing and start--get rid of it and start 
from scratch. What would your outline be?
    This could be helpful to us to take a look at that and see 
what we can do with the limited funds we have. One of the 
questions I didn't ask--I was going to ask if you had ideas 
about how to leverage--how do we leverage some of that money?
    There are a lot of small programs that the Federal 
Government has that have big impacts because we figured out how 
to leverage money by getting--we put in a dollar, and if they 
want the dollar, maybe somebody else has to add a couple of 
dollars or something like that in terms of programs, or they 
have to do certain things. So maybe we could leverage the money 
somewhat. I don't have any specific ideas on that. I just know 
that we've done it in other areas.
    If you have any thoughts on leveraging, please submit that 
along with your outline of what would be the number of data 
points or things that we should----
    Senator Alexander. But that should all go to the chairman, 
and then he'll see that we all get it.
    The Chairman. Yes. Just send it to the committee. Send it 
to our committee, and then we can disperse it. If you would do 
that, I'd sure appreciate it.
    This was very informative, a good, thoughtful session. We 
appreciate it very much, all of you, and I thank you for--many 
of you have been involved in this for many, many years, and we 
thank you for your leadership and guidance on this. We're going 
to try to put this higher education bill together sometime 
soon.
    Thank you all very much. The hearing will be adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

      Prepared Statement of Chris Stephenson, Executive Director, 
              Computer Science Teachers Association (CSTA)
              preparing teachers for a critical discipline
    For decades, many groups and policymakers concerned about the state 
of the country's education system have been trying to solve what they 
perceive as its problems. The White House and Federal agencies have 
been concerned that young people are not learning what they should in 
elementary, middle, and high schools to be successful in college and 
careers. Congress is concerned that Federal education laws and 
investments are not yielding improved achievement and may be doing more 
harm than good. Think tanks are opining on what interventions might 
improve high school graduation rates. Philanthropy is considering how 
to foster persistence among certain populations on college and 
university campuses nationwide. And yet, the one discipline that offers 
those who pursue it limitless opportunities is marginalized across the 
educational spectrum. Computer Science is ubiquitous. It impacts 
teachers and students and principals and lawmakers--and yet, it is 
difficult to find in the K-12 educational system.
    It has been said that we teach our young people what we value, but 
the importance of computing and Computer Science in our daily lives 
hasn't translated to a respectable presence in classrooms. Nor is it 
represented in the confused, disparate and sometimes absurd teacher 
certification processes that those who want to teach Computer Science 
find themselves navigating. Computer Science teacher certification 
across the Nation is typified by confounding processes and illogical 
procedures--bugs in the system that keep it from functioning as 
intended.
    Because Computer Science and the technologies it enables lies at 
the heart of our economy and our daily lives, we have an educational 
and moral obligation to provide all students with the knowledge they 
need for a world where computing is ubiquitous. If we are going to 
prepare our students to thrive in this new global information society, 
we must provide all students with the opportunity to develop a 
fundamental understanding of the principles of Computer Science.
    The information technology and computing industry cannot find the 
talent it needs to fill lucrative positions across the country. In the 
year 2020, there will be 9.2 million jobs in the ``STEM fields''--those 
that rely on science, technology, engineering and mathematics--and half 
of those jobs will be in computing and IT. That's 4.6 million jobs 
waiting for those who choose to acquire Computer Science knowledge and 
skills. These companies want more young people to discover Computer 
Science and study it, and the country's economic fortunes depend on it. 
To make that happen, it must be taught. To teach it, there must be a 
qualified, valued Computer Science teaching workforce. And these 
teachers need to be certified, just as their colleagues in science, 
English, history, math, and arts classrooms.
    Research on computer science teacher certification in the 50 States 
and the District of Columbia reveals that the certification/licensure 
processes for Computer Science are deeply flawed. Prospective Computer 
Science teachers often meet difficulty in determining what the 
certification/licensure requirements are in their own States because no 
one seems to know. Add to that frustration, the confusion that persists 
around what Computer Science is and isn't and where it fits in K-12 
academics, and it's astounding that professionals with such valued 
expertise persevere to become Computer Science teachers. They do, but 
not in sufficient numbers.
    Federal, State and local K-12 education policy interactions create 
this untenable situation--intentionally or not. Since Computer Science 
isn't a ``core academic subject'' in Federal education policy, States 
discount it and this perceived lack of importance has impact at the 
district and even school level. State education policies reflect 
Federal priorities. And Computer Science isn't one of them. Because 
non-required courses are less likely to be offered in schools, 
administrators are less likely to hire teachers who are specifically 
prepared to teach them. Because schools and districts are less likely 
to hire these teachers, teacher education programs are less likely to 
provide programs to train them. States are also less likely to 
establish and maintain non-core subjects as a primary teachable 
discipline with rigorous preparation certification/licensure standards. 
In addition, of the 50 States and the District of Columbia, only 19 
count Computer Science as a high school graduation requirement. As a 
result, students are less likely to take Computer Science courses. 
Taken together, these policy ramifications mean fewer opportunities for 
students to take the courses that will provide fundamental knowledge 
and skills and prepare them for future computing jobs.
    A major research report by the Computer Science Teachers 
Association entitled Bugs in the System: Computer Science Teacher 
Certification in the U.S. (http://csta.acm.org/
ComputerScienceTeacherCertification/sub/CSTA_BugsInTheSystem
.pdf) reveals that it is difficult to draw broad conclusions about the 
certification of Computer Science teachers in the country beyond the 
fact that it is not working. Each State has its own process, its own 
definition of Computer Science, and its own ideas about where it fits 
in a young person's educational program (if at all). The report and 
what it reveals about these processes forms the basis for a number of 
policy recommendations:

    <bullet> Establish a system of certification/licensure that ensures 
that all Computer Science teachers have appropriate knowledge of and 
are prepared to teach the discipline content.
    <bullet> Establish a system of certification/licensure that 
accounts for teachers coming to the discipline from multiple pathways 
with appropriate requirements geared to those pathways.
    <bullet> Establish a system of certification/licensure that 
accounts for previous teaching experience (``grandfathering'') for 
teachers with at least 2-years of experience teaching Computer Science 
courses that are aligned to grade level CSTA K-12 Computer Science 
Standards.
    <bullet> Provide a certification pathway that includes both content 
and pedagogical knowledge for those transitioning into teaching from 
industry.
    <bullet> Require teacher preparation institutions and organizations 
(especially those purporting to support STEM education) to include 
programs to prepare Computer Science teachers.
    <bullet> Establish a computer science Praxis exam that assesses 
teacher knowledge of computer science concepts and pedagogy.
    <bullet> Provide comprehensive professional development for 
teachers to enable them to achieve or maintain a certification/license 
or endorsement in Computer Science.
    <bullet> Incentivize school level administrators to offer rigorous 
Computer Science courses offered by qualified Computer Science 
teachers.

    Computer Science is the primary driver for job growth throughout 
all STEM fields. More than 50 percent of projected jobs in STEM fields 
are in computing occupations; these occupations dominate ``help 
wanted'' advertisements and computer science is one of the most in-
demand degrees for those leaving college. Computer Science also 
provides the knowledge and skills all students need to participate as 
equals in the new global information society. Despite this, our K-12 
system continues to marginalize Computer Science education. Federal, 
State, and local policies governing teacher certification/licensure 
also result in barriers to, rather than support for, exemplary teaching 
and learning. It is imperative that these barriers be removed now so 
that students can be put on an educational path to high-demand, high-
skill, high-pay computing jobs across all sectors of the economy. Our 
future depends upon it.
    Thank you for your attention to these views. CSTA and its members 
are happy to help the Congress as it works to ensure that teachers are 
prepared to teach Computer Science and the subjects important to the 
21st Century workforce.

                                 ______
                                 
                                            April 24, 2014.
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: Thank you for 
the opportunity to testify at the March 25 hearing on ``Teacher 
Preparation: Ensuring a Quality Teacher in Every Classroom'' and for 
your request for recommendations regarding the Title II HEA reporting 
requirements.
    A good starting point to improve the impact of title II on teacher 
preparation program quality and accountability is to reduce the current 
reporting burden on States and programs. Too many of the reporting 
elements are not central to understanding the preparation, production, 
and performance of strong teachers. And too little attention in the 
current reporting rules is given to information about key program 
outputs and outcomes that affect the learning performance of K12 
students.
              recommendations for institutional reporting
    Now is a promising time to accelerate progress on teacher 
preparation program reform and accountability. States, national 
organizations, and programs themselves are working to improve the 
preparation of teachers for our Nation's students, seeking ways to push 
weak programs to get better or get out of the business of teacher 
education, and finding stronger ways to measure program and teaching 
quality.
    Reporting requirements on teacher preparation should be organized 
around the eight pieces of information about program outcomes and 
program quality discussed below. All other title II reporting 
requirements should be eliminated.
1. The academic strength of candidates admitted to programs
    Programs should report average GPA of admitted students as well as 
the percentage of admitted students below 3.0 GPA. Averages alone are 
not enough to understand whether all admitted candidates have the 
academic potential to become successful teachers. And since programs 
can calculate average GPAs for their candidates, they already have the 
data to report the proportion below a 3.0 GPA. On ACT and SAT, academic 
potential for candidates would be addressed by reporting averages for 
admitted students and the proportion above the national 50th percentile 
(on ACT, for instance, that means the proportion of ACT scores at 21 or 
above for admitted students).
2. Demographic characteristics of admitted candidates and of program 
        graduates
    Demographic data reported should be the ethnicity and gender of 
admitted students and of program completers. Both sets of information 
are useful to see whether programs are preparing new teachers who are 
representative demographically of the schools and districts they serve.
3. Proportion of candidates obtaining at least 50 percent of student 
        teaching experience in high-need and high-functioning schools
    Current reporting about clinical practice requests information 
about the number of clock hours in student teaching and the number of 
full-time equivalent faculty involved in supervising this student 
teaching. Neither tells us anything about preparation quality or 
whether student teaching is organized to help candidates become 
successful teachers in the kinds of the schools where they will be 
employed.
    Since newly employed teachers are more likely than veterans to be 
employed in low SES and relatively low performing schools, a relevant 
indicator is where they spent time learning how to teach. Teachers will 
not be able to succeed in challenging schools unless they spend time 
learning how to teach in similar environments. At the same time, recent 
research from the New York Pathways study group shows that these 
clinical site schools have to be functioning schools in the sense of 
being places where the academic trajectory is upward (even if not where 
it needs to be) and without constant staff turmoil and turnover.
4. Number and percent of program graduates prepared in high-need 
        subject areas
    States have the primary responsibility for approving teacher 
preparation programs and for licensing their graduates. Programs ought 
to have some responsibility for producing graduates in subject areas 
that schools in their State actually need. This indicator of 
responsiveness to State needs would collect information from each 
program on the number of graduates prepared in each of the State-
designated high-need subject areas (STEM, SPED, ELL, etc.).
    Programs should also be asked to report what proportion of total 
graduates is in these high-need fields. Both pieces of information 
would give us a good window on program priorities and the extent to 
which those priorities are helping the students and schools of their 
State.
5. Employment and persistence of program graduates in high-need 
        subjects and schools
    This information builds on the prior one by collecting data from 
programs about employment outcomes, linking these outcomes to critical 
State needs. For both high-need subjects and high-need schools, 
programs should report this information based on how their own State 
designates high-need schools and subjects.
    Persistence rates of program graduates provides an important 
measure of how well a program prepares its graduates for a career in 
teaching. High rates of turnover persist despite the fact that many 
teacher preparation programs say they are preparing teachers for 
challenging schools in urban or rural settings. Preparation programs 
are not solely responsible for the problem or for its solution, but 
many programs don't know if their graduates are teaching, much less how 
long they stay in the profession. They also aren't sure whether 
graduates teach in the kinds of schools the program believes it is 
preparing them for.
    Is it fair or reasonable to associate turnover with teacher 
preparation programs?
    Studies show that preparation matters when it comes to teacher 
effectiveness. It is particularly important where candidates obtain 
their clinical experience before graduation, and how the program's 
clinical component is organized and supported by faculty so that 
graduates develop the skills and abilities needed in schools. Since 
teacher preparation programs already interact with schools, shouldn't 
they contribute to turnover rate solutions? This can only happen 
through stronger incentives, including public reports through the 
State.
6. Impact of program graduates on student learning outcomes
    This is the program outcome that matters most. Since high quality 
instruction is the main in-school driver for student achievement, it 
makes sense that measures of student learning ought to be part of 
preparation program reporting policies. Most States can already link 
student and teacher data in their K-12 system. The Council for the 
Accreditation of Educator Preparation (CAEP) has adopted this indicator 
as a measure of program quality for accreditation, but all programs 
should have to demonstrate how their graduates influence the academic 
achievement of the K12 students in their classrooms. Waiting to move 
until every testing and reporting problem is resolved to universal 
satisfaction is not responsible or realistic, especially given the 
pressing and unmet challenge of helping every child to succeed 
academically through the provision of highly effective teachers.
7. Classroom teaching performance by program graduates
    Because a single measure--no matter how powerful the findings--is 
not enough to gauge all the relevant components of teaching quality or 
program effectiveness, classroom observation and assessment of on-the-
job teaching add significant value as an indicator of preparation 
program quality. At the very least, program graduates should have 
acquired knowledge and experience with core teaching practices by the 
time they complete a program. And with many States now developing and 
adopting teacher evaluation systems that include reliable and valid 
approaches to classroom observation, a good start would be having 
programs report results of these assessments for their graduates. Since 
more teachers will be assessed through observation than the number in 
tested subjects or grades, this indicator would greatly expand the 
proportion of program graduates for whom a strong measure of 
performance is part of the required report card.
8. Survey findings from program graduates and their employers
    A growing number of teacher education programs seek regular 
feedback from their graduates about the program and how well it 
prepared them to teach. Some programs solicit similar feedback from the 
employers of their graduates. These survey findings let programs know 
in specific detail how well the graduates believe they were prepared 
for their classroom teaching responsibilities. And they allow employers 
to tell the program how they feel about the graduates who were hired in 
their school or district. Some States are already using these feedback 
surveys; they provide useful information as long as the survey has a 
standard set of relevant questions that speak to State-based teaching 
and learning issues. Programs should be asked to report feedback survey 
results as well as survey response rates.
                  recommendations for state reporting
    Under the current State reporting requirements in the Title II HEA 
reporting and accountability system, few States make any effort to flag 
and report weak programs as low performing. The Title II HEA statute 
calls on States to ``conduct an assessment to identify low-performing . 
. . teacher preparation programs in the State and to assist such 
programs through the provision of technical assistance. Each such State 
shall provide the Secretary with an annual list of low-performing 
teacher preparation programs and an identification of those programs at 
risk of being placed on such list . . .''
    The title II statute goes on to specify that ``Levels of 
performance shall be determined solely by the State and may include 
criteria based on information collected pursuant to'' the title II 
reporting requirements. For the most recent reporting year, 39 States 
did not classify even one teacher preparation program as low performing 
or at risk of low performance. In fact, 35 States have never found a 
program to be low performing or at risk, despite the K-12 student 
performance issues that we know from NAEP and other sources.
    That 35 States have never found a program in need of improvement 
also suggests that these States are not doing enough to help programs 
and their graduates to be as effective as possible in meeting important 
State education needs. This can change by taking these steps:
1. State criteria used to designate programs as low performing/at risk 
        (LP/AR) should be the same for every State
    Engineering, accountancy, nursing, and medicine are among the 
professions that have uniform State accountability standards for 
programs and graduates. In each case, the profession worked closely 
with States to develop a single set of policies that apply everywhere 
and were adopted by each State under its own authority. These fields--
including nursing with over 1,200 program providers--also use the same 
licensing tests and passing scores for graduates in every State.
    There are good reasons for thinking that this voluntary approach by 
these professions and the States can make a difference for teacher 
preparation program quality. A significant number of newly licensed 
teachers in the United States complete a preparation program in one 
State and obtain their initial license in another jurisdiction. 
Nationwide, 19 percent of all initial State credentials are issued to 
teachers prepared in another State. For 10 States, over 40 percent of 
new teachers in each of these States are trained elsewhere and 22 
States have reported that at least 20 percent of new teachers were 
prepared outside their State.
2. State criteria for low performing/at risk programs should include 
        measures from the institutional reporting system
    The State criteria for low performing and at risk programs should 
include: (a) impact on student learning by program graduates; (b) 
results of high-quality classroom teaching assessments for program 
graduates; (c) persistence in teaching, especially in high-need 
subjects and schools; and (d) survey feedback from employers and 
program graduates.
    The importance and relevance of these measures has been discussed 
above in the section of this letter on institutional reporting. By 
using measures of program quality incorporated in the institutional 
reporting system, reporting burdens on programs and States would be 
greatly reduced and it would be possible for all States to use the same 
set of items.
3. Licensure test passing rates as indicators of program performance
    The revised Title II HEA statute should close the door completely 
to current abuse of the ``program completer'' definition by programs 
and States so that artificially inflated passing rates are no longer 
used to mislead the public about program quality: 96 percent of all 
teacher candidates in the country passed all of their teacher licensing 
tests in the most recent year for which test results are available even 
though two-thirds of their students are not proficient in reading or 
mathematics. If this step is taken so that licensure test scores are 
reported for all students in a given program, pass rates below 80 
percent should be used in the low performing/at-risk State reporting 
criteria to flag a program as at-risk or low performing.
4. States should share program report cards with school districts
    Nearly everyone who has talked to schools or districts about their 
sources of new teachers has heard anecdotes from district human 
resources (HR) officials or from school principals about the graduates 
of this or that program. Some report they are so happy with the quality 
of graduates from a particular place that they can't get enough of them 
and would hire every graduate if they could. Others are less positive, 
telling the listener they would never hire a graduate from such-and-
such program. Whatever we might read into these stories, they are not 
systematic feedback about program or individual teacher quality.
    States owe better information to district and school officials who 
hire new teachers. The State should help school superintendents and 
district hiring authorities to make the best decisions about new hires 
by sharing with every superintendent and district HR office the State 
report cards on every preparation program in the State.
    In conclusion, I appreciate your invitation to appear before the 
committee on March 25 and your request for my recommendations about the 
Title II HEA reporting requirements. These recommendations to the 
committee are based on the belief that we should no longer focus 
reporting on preparation program inputs or get bogged down in the 
nuances of complex program processes. Preparation program reporting in 
the United States should use indicators that students are learning from 
their teachers, that teachers are effective in the classroom as 
determined by objective measures, and that program graduates stay in 
the profession and teach in schools that need them badly.
            Sincerely,
                                              Edward Crowe,
                                    Senior Advisor, Woodrow Wilson 
                                    National Fellowship Foundation.
Response by Edward Crowe to Questions of Senator Murray, Senator Bennet 
                           and Senator Warren
                             senator murray
    The 21st century job market requires a skilled and educated 
workforce, investments in STEM education are essential to prepare our 
students for success in higher education and a diverse global economy. 
As you know our Nation faces significant challenges in the STEM area.
    Question 1. What sorts of promising initiatives are underway with 
early education and elementary teacher preparation to equip those new 
teachers to inspire and engage students at a young age in the STEM 
areas?
    Answer 1. STEM knowledge and teaching skills are particularly weak 
for many teachers of young children. This results from program 
recruitment practices where many teacher preparation programs simply 
have weak standards for admitting candidates to teaching; State 
requirements for preparation programs abet these weak standards by, for 
instance, setting the minimum grade point average (GPA) at 2.5 for 
admitted candidates. A recent student of college and university 
transcripts found that 73 percent of all grades given by public 
colleges and universities in the United States were As and Bs 
(university-wide, not colleges of education), which translates to an 
effective average GPA of 3.2. Thus, holding teacher candidates to a low 
``standard'' like 2.5 ensures that many of them do not have the 
academic potential to learn and teach STEM subjects to high levels. 
This problem is compounded by the low number (and rigor) of math and 
science courses that early childhood and elementary education 
candidates are expected to complete after being admitted.
    Numerous studies find that, as a result of the relatively poor 
quality of U.S. teacher candidates and the weak program requirements in 
content subject areas, many teachers are unable to understand and 
present sophisticated math and science topics (e.g., ``doing'' science 
as opposed to talking about it) to their young K12 pupils. For the 
early childhood years, too few teachers are able to provide appropriate 
levels of emotional and instructional support for their students, as 
described in Robert Pianta's 2007 essay entitled ``Preschool is School, 
Sometimes'' (Education Next, winter 2007, volume 7, no. 1).
    Partly as a consequence, teachers turn to delivering STEM 
instruction through textbooks and reading-based instruction instead of 
hands-on learning. And when we consider that two-thirds of all fourth 
graders in the United States as well as 64 percent of 8th graders, and 
63 percent of 12th graders are not proficient in reading according to 
NAEP, our teacher preparation programs and policies create huge 
barriers to STEM learning by younger students.
                             senator bennet
    Question 1. What indicators and metrics should the Federal 
Government be asking teacher preparation programs and States to report?
    The Federal Government should limit reporting by teacher 
preparation programs and States to a small set of key indicators that 
shed light on program quality. As I describe in greater detail in my 
letter to the committee dated April 24, 2014, these indicators are:

    a. The academic strength of candidates admitted to teacher 
preparation programs, and in particular their grade point averages 
(GPA) and ACT or SAT scores.
    b. Demographic characteristics of admitted students as well as the 
demographic characteristics of program graduates, specifically 
ethnicity and gender.
    c. The percentage of program teacher candidates who obtain at least 
50 percent of their student teaching experience in high-need and high 
functioning schools.
    d. Programs should report the number and percentage of graduates 
who are prepared in high-need subject areas, with high-need subjects 
defined by the State where the program is located and approved.
    e. Employment rates of program graduates in high-need subjects and 
schools as well as persistence rates in teaching for program graduates 
in high-need subjects and schools; definitions of high-need subject 
areas and schools should be those of the State where the program is 
located and approved to offer teacher preparation programs.
    f. Impact of program graduates on student achievement of the K12 
pupils taught by the graduates.
    g. Reliable and valid measures of the classroom teaching 
performance of program graduates, through a variety of measures that 
can include the teacher evaluation results from districts that employ 
the graduates and/or findings from nationally validated classroom 
observation instruments.

    Question 2. 2. What should the Federal Government do to help 
improve the quality of programs? If the Federal Government can only 
accomplish one thing on teacher preparation in the Higher Education Act 
re-authorization, what would that be?
    Answer 2. If the Federal Government can only accomplish one thing 
related to teacher preparation through reauthorization of the Higher 
Education Act, the goal should be to raise significantly the 
accountability pressure on all teacher education programs to the point 
where they must improve or be closed down by the States. Many hundreds 
of programs are far weaker than they should be; our K12 students are in 
a sense victims of these weak programs and their inability or 
unwillingness to change. And since most States have demonstrated a 
similar inability or lack of will to force significant improvement on 
their preparation programs, or to close them down, Federal action 
should step up the requirements on States to have meaningful and 
rigorous standards for program performance. My letter to the committee 
of April 24, 2014, describes the steps that can be taken.

    Question 3. What does an intense clinical experience look like for 
principals-in-training and what programs are doing this well?
    Answer 3. Few current principal preparation programs are organized 
around the concept that all successful principals are instructional 
leaders. Too much attention is given to the administrative burden of 
school leadership (which is not to say that these jobs do not have 
legitimate administrative functions), with almost no attention devoted 
to modeling, coaching and supporting principals-in-training to acquire 
and use the skills of building-level instructional leaders. One 
existing program that seeks to do this is the Rice University Education 
Entrepreneurship Program (REEP) that began several years ago. A 
comprehensive evaluation of this program has not yet been completed but 
the program design does address key aspects of principal leadership 
development largely overlooked by traditional programs. More recently, 
the Woodrow Wilson National Fellowship Foundation has begun working 
with the University of Indianapolis and the Milwaukee School of 
Engineering to implement educator leadership programs aimed at 
addressing school improvement goals through intensive clinical 
experiences and mentorships.
                             senator warren
    The thing that makes teacher preparation so important is the very 
same thing that makes it so challenging: it is a high-stakes endeavor. 
When teachers enter the classroom, they need to be fully prepared, 
because students rely on them--and students don't have a year or two to 
wait while their teachers get up to speed.
    Teacher residency programs that emphasize clinical experience as 
well as classroom learning are one promising way to help new teachers 
get experience before taking on sole responsibility for a classroom. 
The Boston Teacher Residency is a program that gives aspiring teachers 
an opportunity to engage in a year-long classroom apprenticeship 
combined with college coursework. Early analyses, including one of the 
Boston Teacher Residency, suggest that teacher-residents have better 
retention rates and greater effectiveness in the classroom than their 
peers in the long term.
    Question 1. Please discuss the obstacles to creating more teacher 
residencies or other programs that place a greater emphasis on clinical 
preparation and what can the Federal Government do to help schools of 
education overcome these barriers.
    Answer 1. Teacher residency programs do hold great promise as a 
strategy for preparing effective teachers for our classrooms. As with 
nearly all forms of learning, repeated practice and guidance from 
experienced mentors is key to acquiring mastery of teaching skills. The 
best designed residency programs offer extended student teaching 
experiences--up to a year; follow a carefully designed curriculum that 
emphasizes skills and practice over theory; pay careful attention to 
selection, training, and support of classroom mentors; use frequent 
observation and feedback to guide teacher candidate development; and 
often make innovative use of video to give candidates many 
opportunities to watch other teachers (and themselves) cope with real 
world classroom situation. The Boston Teacher Residency program has 
many of these features as do the RELAY program in New York City and the 
Match teacher residency program in Massachusetts.
    All of these components of teacher residencies contribute to their 
success (although rigorous evaluations are underway for some residency 
programs, to this point they have not reported results), but each also 
poses a barrier to full implementation of the model. Federal support 
for residencies can help to overcome the barriers by funding multi-site 
residency ``trials'' that are coupled to a single rigorous evaluation 
design to determine what works and why. A weakness of the current 
Teacher Quality Grants program is its scattershot approach to funding 
very different approaches to preparation program improvement as well as 
the lack of a single set of outcome metrics and a single evaluation 
strategy for all grantees. We would make headway understanding how to 
make residencies work--and how to dismantle barriers to their 
effectiveness--by supporting a focused approach to the residency 
concept.
    Response by Mari Koerner, Ph.D. to Questions of Senator Harkin, 
                   Senator Bennet and Senator Warren
                             senator harkin
    Question. What indicators and metrics should the Federal Government 
be asking teacher preparation programs and States to report?
    Answer. With the high number of teacher preparation programs across 
the country, title II offers the potential to serve as an impetus for 
and, even, guide to improving program quality and accountability. One 
consistent recording mechanism would relieve the current barrage of 
reporting required by States and programs while at the same time offer 
comparative measuring of important variables effecting preparation and 
performance of classroom teachers. By focusing on data points which 
provide accurate information about well-prepared new teachers to 
policymakers and citizens, the title II report would serve as the 
analytical tool which offers the information for reform needed in 
teacher preparation programs today.
    Impacting the quality of teacher preparation programs can be better 
monitored through title II reporting by including the following 
metrics:

    <bullet> The number and percent of graduates who are employed as 
teachers in high-need schools and subject areas, and the number and 
percent of these teachers who persist in teaching for 1-5 years after 
program completion. This should include:

        <bullet>  The number and percent of graduates prepared as 
        teachers in high-need subject areas as defined by the State 
        where the program is located.
        <bullet>  Percentage of students employed by the same school 
        districts of student teaching placement.

    <bullet> Demographic characteristics of those who are admitted to 
the program, and similar data for those who complete the program to 
gauge the extent to which program enrollments and graduates reflect the 
diversity of the schools they serve.
    <bullet> The proportion of teacher candidates in the program who 
obtain at least 50 percent of supervised student teaching experience in 
schools that are high need.
    <bullet> A teacher effectiveness measure that captures the extent 
to which program graduates help their preK-12 students to learn. This 
would also include exit performance results of students as a graduation 
requirement from teacher preparation programs.
    <bullet> Classroom teaching performance for program graduates that 
is measured by reliable and valid assessments of teaching skills, 
student engagement and student learning.
    <bullet> Survey results from preparation program graduates and from 
their employers about how well the program prepares its graduates to 
teach; the report should include survey response rates.
    <bullet> The ratio of full-time teacher preparation instructors to 
students.

    As Dr. Edward Crowe eloquently stated in his testimony before the 
U.S. Senate Committee on Health, Education, Labor, and Pensions (March 
25, 2014),

          ``Now is a promising time to accelerate progress on teacher 
        preparation program reform and accountability. States, national 
        organizations, and programs themselves are working to improve 
        the preparation of teachers for our Nation's students, seeking 
        ways to push weak programs to get better or get out of the 
        business of teacher education, and finding stronger ways to 
        measure program and teaching quality. Reports on K-12 learning 
        outcomes show that we must do much more to ensure a quality 
        teacher in every classroom. Title II of the HEA can be an 
        effective vehicle for this goal.''
                             senator bennet
    Question 1. What indicators and metrics should the Federal 
Government be asking teacher preparation programs and States to report?
    Answer 1. With the high number of teacher preparation programs 
across the country, title II offers the potential to serve as an 
impetus for and, even, guide to improving program quality and 
accountability. One consistent recording mechanism would relieve the 
current barrage of reporting required by States and programs while at 
the same time offer comparative measuring of important variables 
effecting preparation and performance of classroom teachers. By 
focusing on data points which provide accurate information about well-
prepared new teachers to policymakers and citizens, the title II report 
would serve as the analytical tool which offers the information for 
reform needed in teacher preparation programs today.
    Impacting the quality of teacher preparation programs can be better 
monitored through title II reporting by including the following 
metrics:

    <bullet> The number and percent of graduates who are employed as 
teachers in high-need schools and subject areas, and the number and 
percent of these teachers who persist in teaching for 1-5 years after 
program completion. This should include:

        <bullet>  The number and percent of graduates prepared as 
        teachers in high-need subject areas as defined by the State 
        where the program is located.
        <bullet>  Percentage of students employed by the same school 
        districts of student teaching placement.

    <bullet> Demographic characteristics of those who are admitted to 
the program, and similar data for those who complete the program to 
gauge the extent to which program enrollments and graduates reflect the 
diversity of the schools they serve.
    <bullet> The proportion of teacher candidates in the program who 
obtain at least 50 percent of supervised student teaching experience in 
schools that are high need.
    <bullet> A teacher effectiveness measure that captures the extent 
to which program graduates help their preK-12 students to learn. This 
would also include exit performance results of students as a graduation 
requirement from teacher preparation programs.
    <bullet> Classroom teaching performance for program graduates that 
is measured by reliable and valid assessments of teaching skills, 
student engagement and student learning.
    <bullet> Survey results from preparation program graduates and from 
their employers about how well the program prepares its graduates to 
teach; the report should include survey response rates.
    <bullet> The ratio of full-time teacher preparation instructors to 
students.

    As Dr. Edward Crowe eloquently stated in his testimony before the 
U.S. Senate Committee on Health, Education, Labor, and Pensions (March 
25, 2014),

          ``Now is a promising time to accelerate progress on teacher 
        preparation program reform and accountability. States, national 
        organizations, and programs themselves are working to improve 
        the preparation of teachers for our Nation's students, seeking 
        ways to push weak programs to get better or get out of the 
        business of teacher education, and finding stronger ways to 
        measure program and teaching quality. Reports on K-12 learning 
        outcomes show that we must do much more to ensure a quality 
        teacher in every classroom. Title II of the HEA can be an 
        effective vehicle for this goal.''

    Question 2. What should the Federal Government do to help improve 
the quality of programs? If the Federal Government can only accomplish 
one thing on teacher preparation in the Higher Education Act re-
authorization, what would that be?
    Answer 2. Apart from not looking carefully at the performance of 
teacher education programs whose graduates are allowed to obtain 
licenses and teach in the State, and in light of the data presented 
above on student learning outcomes, the fact that 35 States have never 
found a program in need of improvement also suggests that they are not 
doing enough to help programs and their graduates to be as effective as 
possible in meeting important State education needs. There currently 
exists no incentive to improve or collect reliable and relevant data 
which shows improvement of programs or quality of graduates.
    If programs that prepare our Nation's teachers are not held 
accountable in meaningful ways for the inability of their graduates to 
teach preK-12 students to teach mathematics and reading, it is hard to 
see how the country can help these students to become productive and 
successful members of our society. Self-regulation does not seem to be 
working. Nor does individual State accreditation or even national 
accreditation when everyone makes the bar.
    Provide funding to State education agencies, local school 
districts, and universities to create integrated data systems for 
tracking graduates of teacher preparation programs. The criteria for 
funding should include long-term data agreements (i.e., a minimum of 5 
years), access to student achievement data of the graduates being 
followed, and agreement on a common system for evaluating teacher 
performance. The funding should be non-competitive given all required 
criteria are met. And then, act on it. Show exemplars and discredit 
inferior programs.

    Question 3. What does an intense clinical experience look like for 
principals-in-training and what programs are doing this well?
    Answer 3. The research literature on principal preparation 
identifies four components that pertain to clinical training 
experiences and that are foundational for strong principal preparation 
programs:

    <bullet> Direct alignment with leadership standards that define the 
skills, knowledge and dispositions of successful school leaders (the 
Educational Leadership Policy Standards: ISLLC 2008 are identified in a 
number of research articles as an exemplar of this type of leadership 
standards);
    <bullet> Coursework that is highly relevant and that requires 
aspiring principals to apply theory to practice through the analysis of 
problem-based learning cases and applied tasks that are linked directly 
to authentic school-level leadership challenges;
    <bullet> The grouping of aspiring principals in ``cohorts'' in 
order to foster the development of teamwork, collegiality and 
collaborative learning; and
    <bullet> Robust, year-long principal internships (residencies). Two 
research reports provide the following summaries of characteristics of 
intensive high-quality internships identified in the research 
literature:

        <bullet>  The Principal Internship: How Can We Get It Right? 
        The Southern Regional Education Board, available at http://
        www.wallacefoundation.org/
        knowledge-center/school-leadership/principal-training/Pages/
        Principal-Internship-Get-it-Right.aspx)

                <bullet>  Collaboration between the university and 
                school districts that anchors internship activities in 
                the real-world problems principals face, provides for 
                appropriate structure and support of learning 
                experiences, and ensures quality guidance and 
                supervision.
                <bullet>  An explicit set of school-based assignments 
                designed to provide opportunities for the application 
                of knowledge, skills and ways of thinking that are 
                required to effectively perform the core 
                responsibilities of a school leader, as identified in 
                State standards and research.
                <bullet>  A developmental continuum of practice that 
                progresses from observing to participating in and then 
                leading school-based activities related to the core 
                responsibilities of school leaders, with analysis, 
                synthesis and evaluation of real-life problems at each 
                level.
                <bullet>  Field placements that provide opportunities 
                to work with diverse students, teachers, parents and 
                communities.
                <bullet>  Handbooks or other guiding materials that 
                clearly define the expectations, processes and schedule 
                of the internship to participants, faculty supervisors, 
                directing principals and district personnel.
                <bullet>  Ongoing supervision by program faculty who 
                have the expertise and time to provide frequent 
                feedback that lets interns know how they need to 
                improve.
                <bullet>  Directing principals (coaches) who model the 
                desired leadership behaviors and who know how to guide 
                interns through required activities that bring their 
                performance to established standards.
                <bullet>  Rigorous evaluations of interns' performance 
                of core school leader responsibilities, based on 
                clearly defined performance standards and exit criteria 
                and consistent procedures.

        <bullet>  Preparing school leaders for a changing world: 
        Lessons from Exemplary leadership development programs 
        (Stanford University, available at http://
        www.wallacefoundation.org/knowledge-center/school-leadership/
        key-research/Pages/Preparing-School-Leaders.aspx).

                <bullet>  Research-based content that is aligned with 
                professional standards and focused on instruction, 
                organizational development, and change management;
                <bullet>  Curricular coherence that links goals, 
                learning activities, and assessments around a set of 
                shared values, beliefs, and knowledge about effective 
                organizational practice;
                <bullet>  Field-based internships that enable 
                candidates to apply leadership knowledge and skills 
                under the guidance of an expert practitioner;
                <bullet>  Problem-based learning strategies, such as 
                case methods, action research, and projects, that link 
                theory and practice and support reflection;
                <bullet>  Cohort structures that enable collaboration, 
                teamwork, and mutual support;
                <bullet>  Mentoring or coaching that supports modeling, 
                questioning, observations of practice, and feedback;
                <bullet>  Collaboration between universities and school 
                districts to create coherence between training and 
                practice as well as pipelines for recruitment, 
                preparation, hiring, and induction.

    Programs that are doing this well include the iLeadAZ pathway in 
the Mary Lou Fulton Teachers College's Masters in Educational 
Leadership program; the University of San Diego's Educational 
Leadership Development Academy; the University of Connecticut's 
Administrator Preparation Program; and the Principals Institute at Bank 
Street College.
    The document cited above (Preparing school leaders for a changing 
world) describes the USD, University of Connecticut, and Bank Street 
College programs, among others. A brief summary of ASU's iLeadAZ 
program follows:

    iLeadAZ is a 15-month principal development program in which 
Arizona school districts partner with the Mary Lou Fulton Teachers 
College in developing principal pipelines within their districts. There 
are four distinct phases of this intense clinical experience:

    <bullet> A 5-week summer intensive that engages participants in an 
authentic problem-based, action-learning curriculum that simulates the 
actual challenges of an Arizona principalship. The simulations are a 
critical component of the learning experience and provide practical and 
realistic scenarios for the application of theory, research and best 
practices.
    <bullet> A 10-month, school-based residency under the mentorship of 
an experienced principal and the support of a leadership coach. 
Participants are immersed in a full-time full-year residency experience 
in their school district. By employing embedded learning opportunities 
and cohort-style teamwork, this experience enables participants to 
build a community of practice for continual individual and team growth 
for school improvement and the requisite skills to lead educational 
innovation, and develop a discipline of inquiry-driven leadership 
anchored in student learning. Residencies expose iLeadAZ candidates to 
all aspects of leading a school--from organizing instructional 
improvement efforts, to managing school operational issues, to 
navigating organizational politics. In the second semester, residents 
take over the reins of the building with the principal taking a few 
steps back to allow them to fully experience the principalship.
    <bullet> Nine weekend conferences throughout the school year that 
extend the summer intensive experience. Friday's are spent at local 
schools and Saturdays at the ASU campus. These sessions are designed to 
build on the summer learning, reinforce core outcomes, and continue to 
seamlessly bridge theory, research, and the iLeadAZ candidates' 
experience in their residency.
    <bullet> Completion of coursework to earn a Masters in Educational 
Leadership. All coursework is directly aligned with the Educational 
Leadership Policy Standards: ISLLC 2008. Throughout the year, 
participants meet weekly via on-line video conferencing with the 
professors of the courses for which they are enrolled. Since 
participants reside in all areas of this geographically diverse State 
this allows team and individual learning in the critically important 
course work to expand and deepen their practice.

    iLeadAZ is designed to prepare principals who are ready to 
transform Arizona's schools to rigorous learning environments that 
provide equitable educational opportunities for all students. All 
participants must meet rigorous selection criteria and performance 
standards to progress to each successive program phase and to graduate. 
The program is led by Mary Lou Fulton Teachers College faculty, along 
with former Arizona principals and principal supervisors.

    Question 4. Why did Arizona State University begin its new 
undergraduate residency? How did this change the university's approach 
to ``student teaching?'' What can other schools of education learn 
about clinical experiences from your efforts and from residency 
programs like the Denver Teaching Residency?
    Answer 4. The Mary Lou Fulton Teachers College reformed its teacher 
preparation program because, although we were preparing very good and 
effective teachers, we knew through feedback from students, schools and 
because of our successful Professional Development Schools funded by 
TQP grants, that all of our students had to be immersed in partnership 
schools. We knew that they had to spend many more hours in schools with 
excellent supervision and our partner schools districts had to be a key 
component of the experience. Simple as it may sound, we knew we had to 
figure out how to prepare the best teachers we could for all schools.
    We also knew that we have a responsibility to our students to 
provide a most rigorous program which would prepare them to teach in 
any setting and be successful. We call our reformed teacher education 
program, ``iTeachAZ.'' The signature component of iTeachAZ is the 
Senior Year Residency (SYR). During the SYR, teacher candidates co-
teach in a preK-12 classroom under the direction of a highly effective 
mentor teacher and a full-time ASU clinical faculty member. That means 
there are three teachers in the classroom who are all learning from 
each other. Courses emphasizing teaching methods are taught in district 
locations to emphasize integration of theory and practice. The role of 
the iTeachAZ Mentor Teacher is to serve as a coach who models and plans 
effective best teaching practices, creates a supportive classroom 
environment where teacher candidates are encouraged to take risks, and 
observes and provides specific feedback to teacher candidates to ensure 
their preparedness to enter the teaching profession as highly 
effective, reflective teachers that impact and inspire all students.
    The Senior Year Residency model is a significant departure from 
ASU's former model of student teaching. In the past preservice teachers 
spent one semester in a classroom and were supervised by part-time 
faculty. The mentor teacher often left the student teacher alone in the 
classroom to ``sink or swim'' rather than serving as a coach who 
modeled effective instructional strategies. The part-time faculty 
member had little knowledge of the student teacher or the preparation 
program. This model led to ineffective coaching from both in-service 
teachers and university faculty.
    Mary Lou Fulton Teachers College can help other schools of 
education with the design of intensive clinical experiences in 
partnership with local school districts. We have planned and 
implemented a replicable model and scaled it to 4,000 undergraduates. 
We can provide leadership on developing deep partnerships with 
districts and schools, reformed general education courses and necessary 
relationships with community colleges, training mentor teachers, 
performance assessments for student teachers and the academic core of 
the residency which is in our syllabi. Our materials are available 
online in our Professional Learning Library.
                             senator warren
    Question 1. Please provide whatever data is available, including 
the proportion of TEACH Grant recipients who end up repaying their 
``grants'' as a loan, and any steps your college takes to ensure that 
TEACH Grants go only to those students who are likely to enter into 
teaching upon graduation.
    Answer 1. Researching the information we have internally in our 
university's student records and comparing it with information obtained 
from FedLoan Servicing (PHEAA), we have come to the conclusion that the 
percentages being provided to the committee most likely are overstated. 
We believe the 75 percent rate duplicates students by including the 
same students across multiple grant years and possibly multiple loans 
when students eventually convert. This illustration example is an 
example. This information was provided to us by the servicer detailing 
the number of grants converted with the footnote that students may have 
more than one loan depending on circumstance:

       ASU TEACH Grant to Loan Conversions Historical Perspective*
------------------------------------------------------------------------
                                            Recipients   Grants   Loans
------------------------------------------------------------------------
2009-10..................................        1,183      465      727
2010-11..................................        1,287      597      690
2011-12..................................        1,488      863      625
2012-13..................................        1,265    1,038      227
2013-14..................................        1,182    1,166       16
2014-15..................................           41       41        0
------------------------------------------------------------------------
* Students may have more than one loan depending on circumstance.

    The total number of recipients in this scenario is 6,446. This is 
almost 50 percent more students than actually received the TEACH Grant. 
In another email received from PHEAA, it was stated that according to 
their records 4,330 students received the TEACH Grant; our internal 
records indicate 4,315 individual students received a grant at any 
given timeframe and is a more accurate number to use in any analysis. 
We also found from our records that 1,965 students received the grant 
in multiple years and therefore should not be or were counted more than 
once.
    In terms of which grants were converted, the university does not 
have access to loan conversation data because it is post-graduation 
consequently, we cannot say for certain which individuals specifically 
converted their grant(s). To make an estimate, we did investigate 
whether or not those who received the TEACH Grant had graduated yet or 
perhaps graduated with another degree outside of teaching. We also took 
into account that not all who graduate with a teaching degree may enter 
the field of teaching and that not all students who have received the 
grants have completed their degrees at this point (e.g., 2013-14 
students most likely are still enrolled). Taking all of the information 
into consideration, our results are as follows:

                     Revised Student Receiving the Federal TEACH Grant at ASU--as of 4/1/14
----------------------------------------------------------------------------------------------------------------
                                                                                                       Percent
                                                                                                      Potential
                                                      Have Not    Graduated   Graduated     Total        For
                                                      Graduated    Outside      From     Number  of  Conversion
                                                         Yet       College     College    Students       [In
                                                                                                       percent]
----------------------------------------------------------------------------------------------------------------
Total Possible Students 2012 And Prior.............         504          85       1,799       2,388        24.66
  Totals Assuming 80 percent of MLFTC Graduates are                                                        39.73
   Teaching........................................
Total Students who Span Multiple Years Of Aid                                                  1965
 Disbursement:  ...................................
----------------------------------------------------------------------------------------------------------------
 For 2012 data forward, Potential Conversion Percent only includes those graduating outside of the College as
  students not yet graduated after 2012 may still be enrolled in the College.
 Excludes aid that has continued in 2013 or 2014 as some of those students may be still enrolled in the College
  and not in a conversion stage.

    Based on our findings, we conclude that the 39.73 percent figure is 
a more reasonable figure of loan conversion rate. Of course, we 
recognize that without a student level loan data file a perfect figure 
cannot be achieved. However, we believe our methodology for calculating 
the percentage was more reasonable than summative, duplicative data 
accounts.

    Question 2. Please discuss the obstacles to creating more teacher 
residencies or other programs that place a greater emphasis on clinical 
preparation and what can the Federal Government do to help schools of 
education overcome these barriers.
    Answer 2. The biggest obstacle is an adherence to past (and often 
ineffective) practices and a lack of openness to change. Perhaps if 
teacher preparation programs had to report data about the success of 
their students, they would have to face their own failures and see 
their own successes. That is the biggest challenge: failure to improve. 
Other major ``obstacles'' but necessary components are:

    <bullet> Implementing a residency model is an expensive venture for 
colleges of education and preservice teachers. Putting a full-time 
clinical person onsite is far more expensive than hiring an army of 
part time supervisors who have no connection to the program. (This is 
centrally important.)
    <bullet> Students completing a full-time residency while taking 
coursework need financial support beyond what is typically available to 
undergraduate students. This includes funding for professional 
clothing, transportation, and teaching materials which is often not 
covered by grants and student loans. We have raised tens of thousands 
of dollars for our residency students. And we have worked with other 
agencies, like the Phoenix Suns, to give stipends and scholarships.
    <bullet> Developing deep and mutually responsible partnerships with 
school takes commitment over the long haul. From both sides.
    <bullet> Getting full-time tenure track and clinical faculty to 
talk about how to best prepare teachers is necessary to provide best 
research-based effective teaching practices.
    <bullet> Implementing a performance assessment to all completers 
which has validity and trained evaluators to ensure reliability.
    <bullet> Collecting data on the effectiveness of the program with a 
consistent feedback mechanism for improvement.

    The Federal Government can raise expectations and highlight 
exemplars. The question is whether to use a carrot or a stick. Probably 
both are necessary. Using title II reporting data to evaluate programs 
and provide feedback is centrally important.
Response of Timothy Daly to Questions of Senator Bennet, Senator Murray 
                           and Senator Warren
                             senator bennet
    Question 1. What indicators and metrics should the Federal 
Government be asking teacher preparation programs and States to report?
    Answer 1. As we indicated in our April 18 letter to Chairman Harkin 
and Ranking Member Alexander for the record, we recommend that Congress 
adopt an almost entirely new approach to title II that focuses on 
collecting data that focuses on the outcomes realized by teachers once 
they are in the classroom. This involves collecting only baseline 
information from preparation programs--data related to student 
enrollment and program completion, in aggregate and broken out by 
affinity groups and certification type according to State law. States 
should collect and aggregate employment data for all teachers, 
indicating their preparation program. States should then math that data 
with preparation programs on a 1:1 basis where possible or on an 
aggregate basis by provider as a minimum. This data, linking 
preparation programs to employment and effectiveness, should be 
reported by the State to the Federal Government.

    Question 2. What should the Federal Government do to help improve 
the quality of programs? If the Federal Government can only accomplish 
one thing on teacher preparation in the Higher Education Act re-
authorization, what would that be?
    Answer 2. In a revised approach to title II and title IV (as it 
affects relevant programs), the Federal Government can drive 
improvement through three mechanisms:

    1. Data collected under Title II should be collected and reported 
at a level of granularity that programs can use to improve their 
operations; for example, overall evaluation ratings for graduates will 
not sufficiently inform programs as to whether candidates in their 
program are consistently succeeding or struggling in any particular 
area of their practice.
    2. Data should be presented to preparation programs and teacher 
candidates in a timely fashion--no more than 1 year after a given event 
occurs. This enables programs to quickly adapt based on trends, and 
allows candidates to make informed choices on where they attend.
    3. The Federal Government should significantly restrict access to 
title IV funds to programs identified by States as low performing. This 
should include not just access to TEACH grants but all Federal student 
aid. Whatever burden this places on teacher preparation programs in 
terms of financial aid administration is worth preventing future 
teacher candidates from accruing debt attending a program that will not 
prepare them for success in the classroom.

    Question 3. What does an intense clinical experience look like for 
principals-in-training and what programs are doing this well?
    Answer 3. TNTP is just beginning to explore effective clinical 
experiences for school leaders. We are not yet ready to claim that we 
ourselves have an effective approach, nor are we prepared to identify 
other programs as successful based on the indicators that matter most: 
student success. However, we are happy to share the approach we are 
taking to clinical experience for principals-in-training in our 
Philadelphia and Camden (N.J.) Pathways to Leadership in Urban Schools 
(PLUS) programs.

    <bullet> Providing dedicated coaching in addition to the mentor 
principal that the principal-in-training works under, freeing the full-
time principal to continue their work while ensuring the trainee 
receives constant feedback and support.
    <bullet> Focusing pre-service training and in-service professional 
development on instructional leadership, trusting mentor principals to 
provide guidance on building leadership and community context while 
using ``off-stage'' time to emphasize the importance of helping 
teachers do their best work possible.
    <bullet> Giving full responsibility--with oversight from the mentor 
principal--for the performance and development of a team of 7 to 12 
teachers in their placement school, again emphasizing that a 
principal's primary job is ensuring the effectiveness of their 
teachers.
                             senator murray
    The Higher Education Act was last reauthorized in 2008, as the 
Higher Education Opportunity Act. Since then the landscape of higher 
education has changed and the need for high-quality teachers has 
increased.
    Question 1. What have we learned from research and practice since 
the last reauthorization in 2008 about what are the most essential 
components/practices in preparing successful novice educators? Both in 
terms of how to design clinical experiences and coursework?
    Answer 1. Since 2008, we have learned that the traditional approach 
to training novice teachers--a training that is inch-deep, mile-wide, 
heavy on theory and light on practice--fails to prepare the majority of 
new teachers for success in the classroom. We have also learned that 
first year teachers perform at different levels, and that their 
performance in the first year is a strong predictor of their 
performance in years to come. Put simply: a teacher who makes a strong 
start is more likely to be an effective teacher in their fifth year 
than a teacher who struggles. The chart on the following page 
summarizes research from a 2013 research paper\1\ from academics at the 
University of Virginia and Stanford, showing that early success is 
remarkably predictive of success in future years.
---------------------------------------------------------------------------
    \1\ Atteberry, A., Loeb, S., & Wyckoff, J. (2013). Do first 
impressions matter? Improvement in early career teacher effectiveness. 
Calder Working Paper 90. Washington, DC: National Center for the 
Analysis of Longitudinal Data in Education Research (CALDER).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At TNTP, we have also learned that a new approach to training--one 
that focuses squarely on the skills most important for early classroom 
success--can prepare more teachers to be effective in their first year. 
We identified these skills--Clear Delivery of Instruction, Maintaining 
High Academic Expectations, Maintaining High Behavioral Expectations, 
and Using Time Effectively--through analysis of our own Teaching 
Fellows programs. We now focus our pre-service training (the summer 
training our Fellows receive before entering the classroom) on these 
skills, waiting to layer additional skills and content--and withholding 
access to the classroom--until these foundational skills are mastered. 
Fellows practice the skills repeatedly via on-stage teaching (during 
summer school) and off-stage practice with their peers. They also 
receive real-time feedback from coaches--themselves effective teachers 
hired from local schools.
    These elements--focus, practice, and feedback--represent the core 
of what we have discovered is the most effective approach to clinical 
training. While other programs may take different approaches, we 
believe the most successful are those that have adopted a similar 
framework.

    Question 2. As we think about how to best target the Federal 
investment in educator preparation programs, what are the lessons 
learned from the Teacher Quality Partnership Grants? How can the 
program be enhanced through this next reauthorization?
    Answer 2. TNTP has not participated in a Teacher Quality 
Partnership Grant, and thus respectfully withholds commentary on 
lessons learned from these programs.
                             senator warren
    The thing that makes teacher preparation so important is the very 
same thing that makes it so challenging: it is a high-stakes endeavor. 
When teachers enter the classroom, they need to be fully prepared, 
because students rely on them--and students don't have a year or two to 
wait while their teachers get up to speed.
    Teacher residency programs that emphasize clinical experience as 
well as classroom learning are one promising way to help new teachers 
get experience before taking on sole responsibility for a classroom. 
The Boston Teacher Residency is a program that gives aspiring teachers 
an opportunity to engage in a year-long classroom apprenticeship 
combined with college coursework. Early analyses, including one of the 
Boston Teacher Residency, suggest that teacher-residents have better 
retention rates and greater effectiveness in the classroom than their 
peers in the long term.
    Question. Please discuss the obstacles to creating more teacher 
residencies or other programs that place a greater emphasis on clinical 
preparation and what can the Federal Government do to help schools of 
education overcome these barriers.
    Answer. There are many obstacles to expanding teacher residencies, 
but two greatest barriers are arduous and arbitrary program approval 
processes and access to funding. Program approvals vary State by State, 
and the Federal Government is ill-positioned to force States to change 
these processes. However, we hope that by adopting some of the stronger 
data collection and reporting practices described earlier in these 
responses and in our April 18 letter to the record, States themselves 
will use the new data at their hands to reform program approval 
processes and focus on effectiveness rather than institutional inputs.
    Funding is an equally challenging barrier. To encourage people to 
pursue a new career but require that they participate in full-time 
training, they must have the opportunity to either earn a full-time 
salary or--like others who learn full-time--access Federal student aid. 
There are some successful teacher residencies, as well as non-residency 
programs such as ours that still emphasize clinical experience, that 
have found ways to make this financial calculation work for both the 
districts we serve and the candidates we train, but it is extremely 
expensive.
    In the case of residency programs, districts pay upwards of $20,000 
per teacher to help cover expenses--and those teacher candidates often 
still need to take out loans. At TNTP, we face the choice of privately 
fundraising to keep our program sustainable or to significantly raise 
our tuition--tuition for which our Fellows cannot access Federal 
financial aid. Our district partners can pay no more, no matter how 
critical their shortage in these hard to staff schools and subjects.
    The Federal Government can help to address this by opening access 
to title IV aid--especially Pell Grants--to post-baccalaureate teacher 
preparation programs outside of institutes of higher education as well 
as to degree-granting programs. Presently, candidates who are eligible 
for a Pell can get one for a post-baccalaureate teaching program, but 
only at an IHE. This prohibits them from choosing programs like ours or 
residencies that they may prefer. This hurts the diversity of the 
teaching profession, as many university programs are outside the cost 
reach of diverse candidates even with a Pell award. Other forms of 
title IV aid should also be opened to non-IHE programs so they can 
compete on an equal plane with those that grant master's degrees.

    [Whereupon, at 4:07 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
